<html>
<title> - CAMPAIGN FINANCE IMPROPRIETIES AND POSSIBLE VIOLATIONS OF LAW</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
     CAMPAIGN FINANCE IMPROPRIETIES AND POSSIBLE VIOLATIONS OF LAW
=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM
                             AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 8, 1997

                               __________

                           Serial No. 105-50

                               __________

Printed for the use of the Committee on Government Reform and Oversight





                       U. S. GOVERNMENT PRINTING OFFICE
44-527                          WASHINGTON :1997
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                   Richard D. Bennett, Chief Counsel
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director






                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 8, 1997..................................     1

Letters, statements, etc., submitted for the record by:
    Allen, Hon. Thomas H., a Representative in Congress from the 
      State of Maine, prepared statement of......................   332
    Barrett, Hon. Thomas M., a Representative in Congress from 
      the State of Wisconsin, prepared statement of..............   381
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana:
        Letter dated October 6, 1997.............................     4
        Prepared statement of....................................    14
    Condit, Hon. Gary A., a Representative in Congress from the 
      State of California, prepared statement of.................   364
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   390
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................   418
    Davis, Hon. Thomas M., a Representative in Congress from the 
      State of Virginia, prepared statement of...................   325
    Ford, Hon. Harold E., Jr., a Representative in Congress from 
      the State of Tennessee, prepared statement of..............   436
    Kanjorski, Hon. Paul E., a Representative in Congress from 
      the State of Pennsylvania, prepared statement of...........   354
    Lantos, Hon. Tom, a Representative in Congress from the State 
      of California, Republican fundraising letters press packet.   340
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, information concerning committee expenses   393
    Portman, Hon. Rob, a Representative in Congress from the 
      State of Ohio, prepared statement of.......................   330
    Ros-Lehtinen, Hon. Ileana, a Representative in Congress from 
      the State of Florida, lyrics to a song.....................   377
    Sanders, Hon. Bernard, a Representative in Congress from the 
      State of Vermont, prepared statement of....................   368
    Schiff, Hon. Steven, a Representative in Congress from the 
      State of New Mexico, prepared statement of.................   324
    Sessions, Hon. Pete, a Representative in Congress from the 
      State of Texas, prepared statement of......................   432
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............   322
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................   399
    Turner, Hon. Jim, a Representative in Congress from the State 
      of Texas, prepared statement of............................   427
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California:
        Letters exchanged regarding the investigation............    50
        Prepared statement of....................................    48


     CAMPAIGN FINANCE IMPROPRIETIES AND POSSIBLE VIOLATIONS OF LAW

                              ----------                              


                       WEDNESDAY, OCTOBER 8, 1997

                          House of Representatives,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Gilman, Hastert, Morella, 
Shays, Cox, Ros-Lehtinen, McHugh, Horn, Mica, Davis of 
Virginia, McIntosh, Souder, Shadegg, LaTourette, Sununu, 
Pappas, Snow-barger, Barr, Portman, Waxman, Lantos, Owens, 
Towns, Kanjorski, Condit, Sanders, Maloney, Barrett, Norton, 
Fattah, Cummings, Kucinich, Blagojevich, Davis of Illinois, 
Tierney, Turner, Allen, and Ford.
    Staff present: Kevin Binger, staff director; Richard 
Bennett, chief counsel; Dan Moll, deputy staff director; Judith 
McCoy; chief clerk; Teresa Austin, assistant clerk/calender 
clerk; Robin Butler, office manager; William Moschella, deputy 
counsel and parliamentarian; Will Dwyer, director of 
communications; Ashley Williams, deputy director of 
communications; Barbara Comstock, chief investigative counsel; 
Tim Griffin, Robert Rohrbaugh, Jim Wilson, and Uttam Dhillon, 
senior investigative counsels; Dave Bossie, oversight 
coordinator; Phil Larsen, investigative consultant; Kristi 
Remington, Alicemary Leach, Bill Hanka, and David Kass, 
investigative counsels; John Irving and Jason Foster, 
investigators; Carolyn Pritts, administrative investigative 
assistant; David Jones and John Mastranadi, investigative staff 
assistants; Phil Schiliro, minority staff director; Phil 
Barnett, minority chief counsel; Agnieszka Fryszman, Elizabeth 
Mundinger, Kristin Amerling, Andrew McLaughlin, and David 
Sadkin, minority counsels; Ellen Rayner, minority chief clerk; 
Jean Gosa, minority staff assistant; and Sheridan Pauker, 
minority research assistant.
    Mr. Burton. The Committee on Government Reform and 
Oversight will come to order. Could we have the doors closed, 
please, and could everyone take their seats?
    Today, we are going to start our investigation with opening 
statements from both the majority and minority sides of the 
aisle. We will try to get through these in an expeditious 
manner. I would like for Members, if at all possible, to keep 
their statements to 5 minutes.
    I hope to be one of the few who violates that rule, but as 
the chairman I will use my prerogative as chairman to go into a 
little bit more detail than others may be able to.
    As we begin these hearings, we are confronted with 
questions involving the basic integrity of our Democratic 
electoral process. We must address serious questions regarding 
the respect that this White House has for legitimate oversight 
and even the criminal justice system.
    Before we begin our opening statements today, I would like 
to comment on the recently released White House tapes. In the 
past few days, it has come to light that videotapes of White 
House coffees were hidden from this committee, the Senate and 
the Justice Department, despite numerous subpoenas which have 
been outstanding. Ours was outstanding for 7 months.
    Back in March of this year, we subpoenaed these records. We 
specifically asked for videotapes and audiotapes, unedited.
    Let's look at the language that's on the screen. When the 
White House failed to respond to our subpoenas, we were forced 
to move to contempt in May of this year. Only then did the 
President's men commit to a full production of the records. At 
that time, Mr. Ruff told me personally that the contempt 
citation we were moving was the impetus for them coming around.
    On June 27, 1997, the President's counsel, Mr. Ruff, 
officially certified that the White House, and this is right 
out of his letter, ``produced all documents responsive to the 
committee subpoenas;'' all documents responsive to the 
committee's subpoenas.
    Of course, that was not the case. It is now apparent that 
even when the Senate learned of these tapes, the White House 
continued to provide misinformation on their very existence. As 
the Washington Post observed yesterday, quote, the attitude of 
this White House toward the truth, whenever it is in trouble, 
is the same: Don't tell it or tell only as much as you 
absolutely must, or as helps, end quote.
    Now, the President says he will cooperate. Yet our request 
on Monday for the complete logs of all videotaped or audiotaped 
events at the White House by close of business Tuesday was not 
complied with. They continue to run the clock and divert 
attention to other matters.
    In addition to that, we have now been informed there may be 
some fund-raising tapes, up to 150, that we don't have. And so 
when the President says they have complied, all we have to do 
is look at the tapes. Well, we would like to have all the tapes 
unedited in their entirety. And we do not yet have them.
    This is not good faith compliance. We intend to fully 
examine this.
    I would also like to enter for the record my October 6, 
1997 letter to the White House relating to these matters. 
Without objection, that will be so entered.
    [The letter referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 44527.001
    
    [GRAPHIC] [TIFF OMITTED] 44527.002
    
    [GRAPHIC] [TIFF OMITTED] 44527.003
    
    [GRAPHIC] [TIFF OMITTED] 44527.004
    
    Mr. Burton. Now to our investigation, there are almost 
daily revelations about troubling actions taken by senior White 
House and Democratic National Committee officials in the frenzy 
to fill the campaign coffers. The American people have a right 
to know what went wrong. There were millions of dollars in 
campaign contributions that have been returned because of 
illegal or highly suspicious sources.
    As the chief oversight committee in Congress, the Committee 
on Government Reform and Oversight serves this role in 
informing the American people about how laws designed to govern 
our free elections may have been thwarted.
    We are committed to thorough and fair hearings on the role 
of foreign money in recent campaigns. While the excesses of the 
White House and the Democratic National Committee may have 
propelled this investigation, the committee also is examining 
matters relating to the Republican National Committee and will 
continue to follow the facts wherever they lead us, in either 
party.
    We are here today because we are compelled, by credible 
allegations of wrongdoing and by our public responsibility, to 
conduct oversight of these matters. Numerous individuals have 
pled guilty to criminal charges relating to campaign fund-
raising. In the course of our investigation, we have found 
credible evidence of illegal foreign money funneled and conduit 
payments made to the Democratic National Committee.
    The committee has amassed considerable evidence relating to 
the activities of former senior DNC official and Clinton 
appointee John Huang, and former Clinton appointee Charlie 
Trie. We are, however, at the very beginning of this 
investigation. I have no allusions that our task will be an 
easy or a quick one. This is going to take some time.
    This committee's hearings will cover many subjects, because 
the reported abuses of campaign laws and misuse of Government 
resources are vast. Our initial focus has been on how political 
parties took or raised contributions from foreign sources. I am 
gravely concerned about foreign governments, foreign companies 
or foreign nationals trying to influence our electoral process 
and also our foreign policy.
    Of equal concern, however, is the possibility that the 
United States is perceived by other countries as so corrupt 
that they would believe that they could tamper with our 
democratic process to further their own agenda. At the end of 
the day, the individuals who are involved must be held 
accountable.
    It was not, ``the system,'' which solicited millions of 
dollars in illegal contributions. The system did not rent out 
the Lincoln bedroom. The system didn't withhold subpoenaed 
records. The system is not responsible for individuals ignoring 
the campaign finance laws that we already have. It is 
individuals who are responsible for these actions. It is 
individuals who must be held accountable. The administration 
and others are using, ``the system,'' as an excuse to change 
the subject. We are talking about existing laws being broken 
here.
    Although the Clinton White House is extremely adept at spin 
control and damage control, it claims to be hopelessly 
incompetent when it comes to locating records subpoenaed by 
this committee, the Senate committee, or its own Justice 
Department. As the Washington Post asked yesterday, quote, Can 
anyone believe this is on the up and up? end quote. You simply 
could not make up some of the more outlandish actions taken by 
this, ``anything goes White House.''
    Last February, this committee received documents from 
Harold Ickes. We were stunned to see the President's own 
handwriting--he said he didn't know anything about this 
initially--but his own handwriting ordering, quote, ready to 
start overnights right away. Give me the top 10 list back along 
with $100,000 to $50,000, end quote.
    He didn't know anything about it and yet his handwriting 
proved otherwise. In this atmosphere, is it any surprise to 
find Chinese arms dealers, drug dealers, leaders and fugitives 
from justice attending DNC events at the White House with the 
President? The tone was set at the top. And as Harry Truman 
said, the buck should stop there.
    We have learned that the chairman of the Democratic 
National Committee contacted a man named Bob at the CIA on 
behalf of a DNC donor. The National Security Council was 
overruled on providing access to DNC donors who had been 
described as hustlers. Millions of dollars in conduit payments 
were made to the DNC. We are told, it was simply a mistake; 
everybody does it; or the system is to blame. These are the 
words of people looking to shift the responsibility and the 
blame.
    All Americans should understand that these campaign finance 
scandals are unprecedented in many ways and international in 
scope. Over 60 people have taken the fifth amendment or fled 
the country. These people are now unavailable to aid in our 
efforts to get at the truth and let America know what the truth 
is--American people know what the truth is.
    Many of these individuals are close friends of the 
President. Let's take a look at some of the President's close 
friends and associates who refuse to cooperate with this 
investigation.
    First, we have John Huang, who has taken the fifth 
amendment. Mr. Huang has been a friend of the President's since 
the 1980's. He visited the White House over 90 times, between 
1993 and 1996. At a July 22, 1996 fund-raiser, the President 
praised, quote, his long-time good friend, John Huang, end 
quote, who raised over $3 million for the DNC.
    Before coming to Washington in 1994, Mr. Huang worked for 
the Riady-owned Lippo Group. We find the Lippo Group and the 
Riadys throughout this whole mess.
    He raised funds for the President and the DNC during the 
1992 election. After President Clinton took office, Mr. Huang 
requested a political appointment in the Clinton 
administration. After Mr. Huang and James Riady met with the 
President, Mr. Huang finally received his appointment to the 
Department of Commerce in July 1994.
    At the same time that the Clinton administration hired Mr. 
Huang, and I hope everybody gets this, the Riady family hired 
Webb Hubbell and paid him $100,000 for no apparent work. After 
Mr. Huang worked at the Commerce Department for a little over a 
year, there was a concerted effort to move him over to the 
Democratic National Committee.
    Associates of the Riady family contacted numerous DNC and 
administration officials on John Huang's behalf. Mr. Huang and 
Mr. Riady met with the President in September 1995 to request 
that Mr. Huang move to the DNC. According to Bruce Lindsey, Mr. 
Huang felt that he, quote, could be most helpful to the 
President, end quote, at the DNC.
    More than half of the over $3 million he raised at the DNC 
was pledged to be returned because the contributions were 
illegal or highly questionable.
    Next, we have Charlie Trie who has fled the country. Like 
John Huang, Charlie Trie also knew the President for years in 
Arkansas and visited the White House on dozens of occasions. 
DNC documents from the summer of 1994 list Trie as an FOB, 
friend of Bill. His $100,000 contribution during the summer of 
1994 gave him a seat at the President's head table during the 
Presidential gala; for a $100,000 contribution.
    These contributions came just days after he received a 
$100,000 wire from the Lippo Bank. And Mr. Trie, to the best of 
our knowledge, never made a lot of money and certainly couldn't 
afford a $100,000 contribution. He was of moderate income.
    Next, we have the Riady family, who controls the Lippo 
Group, which employed John Huang. The Riadys supported 
President Clinton in Arkansas throughout the 1980's, made large 
contributions to the DNC and State parties in the closing 
months of the 1992 campaign, and as I mentioned earlier, paid 
Webb Hubbell $100,000. The Riadys are not in the country and 
refuse to make themselves investigable to this committee or 
other investigators.
    Just last September, however, James Riady was available to 
attend intimate meetings with the President. And it won't 
surprise anyone that Webb Hubbell has also taken the fifth 
amendment and refused to cooperate with this committee.
    Hubbell was one of the President's best friends from 
Arkansas. President Clinton appointed him to the No. 3 position 
at the Justice Department. In early 1994, Hubbell found himself 
in the middle of the Whitewater scandal. Because of his legal 
problems, Hubbell resigned his top Justice Department job in 
the spring of 1994. By the end of the year, while under 
criminal investigation, Hubbell, with apparent ease, earned 
over half a million dollars, at least a half million dollars, 
in consulting fees for doing little, if no, work.
    Administration officials and Clinton friends found this 
work for Hubbell because even as Mack McLarty candidly 
acknowledged in notes he took, quote, law firms were reluctant 
to touch him, end quote, meaning Webb Hubbell.
    At what was reportedly a critical juncture in the 
Whitewater investigation in June 1994, Mr. Hubbell received the 
$100,000 payment from a Lippo affiliate. This payment followed 
numerous meetings of the Riadys and John Huang at the White 
House in June 1994.
    Former special assistant to the President and 1992 Clinton 
fund-raiser, Mark Middleton, has also taken the fifth 
amendment. Mr. Middleton met on dozens of occasions with James 
Riady, John Huang, Charlie Trie and Charlie Trie's business 
partner, Ng Lap Seng while he worked for the White House Chief 
of Staff, Mack McLarty. When Mr. Middleton left the White House 
in February 1995, he turned his White House access and ties to 
these individuals into Asian business deals. Mr. Middleton also 
remained active in the 1996 campaign and directed donors to the 
DNC and the White House coffees.
    Mark Jimenez, a former client of Mark Middleton, is the 
most recent witness to invoke the fifth amendment before this 
committee.
    Next, we have Johnny Chung, the infamous hustler, who gave 
$366,000 to the DNC, has taken the fifth. It was Mr. Chung who 
said, in July of this year, quote, I see the White House is 
like a subway. You have to put in coins to open the gates, end 
quote.
    Mr. Chung should know. He made 55 trips to the White House 
and was a frequent guest in the First Lady's office. Mr. Chung 
was able to bring a delegation of Chinese businessmen into the 
White House for lunch at the White House Mess, among other 
perks. In exchange, he was expected to give money.
    One call sheet, prepared for DNC Chairman Don Fowler read, 
quote, Johnny committed to contribute $75,000 to the DNC 
reception in Los Angeles on September 21st. He has still not 
sent his contribution. Tell him if he does not complete his 
commitment ASAP, bad things will happen. That's a threat, end 
quote.
    Lack of cooperation by so many people should not be 
rewarded with a lack of attention, but rather with a commitment 
or a more vigilant investigation.
    How is it that so many highly placed friends of the 
President have ended up taking the fifth or fleeing the 
country? Sixty-one people have refused to cooperate with either 
our committee or the Senate committee's investigation. We will 
not allow these obstacles to defeat our obligations to the 
American people. They have a right to know.
    Although people may be impatient for hearings, what this 
committee is doing is slow, painstaking work. We will hold 
hearings when we are satisfied that we can present important 
pieces of this puzzle to the American people and not before.
    The President and the Vice President should assist by 
reaching out to these 60-plus witnesses, many of whom are close 
friends, and ask for their help to get to the truth.
    Mr. President, Tom Brokaw contacted Charlie Trie. Why not 
you? He is a friend of yours.
    Mr. President, aren't you curious as to how Charlie Trie 
was able to contribute hundreds of thousands of dollars to the 
DNC when he did not have a successful business venture? Where 
did you think he got all of that money that he gave to the DNC 
that made him a managing trustee? The people have a right to 
know.
    Mr. President, your long-time friend, John Huang, is 
reportedly sitting at home these days. Why don't you ask him to 
come forward and explain his fund-raising practices and where 
the money came from? The people have a right to know.
    Mr. President, your former Associate Attorney General and 
close friend and golfing partner, Webb Hubbell, refuses to 
discuss his $100,000 payment from the Riadys, a payment which 
came shortly after numerous visits to the White House by the 
Riadys and John Huang were made. Don't you think the American 
people deserve an explanation? The people have a right to know.
    Mr. President, do you condone this wall of silence erected 
by your friends? If not, Mr. President, tear down that wall.
    We have heard much about campaign finance reform in the 
past few weeks. Mr. President, if you want to be a leader in 
campaign finance reform, then lead by example. Help us find out 
who broke the current laws that are already on the books. The 
laws that were broken were not hazy or fuzzy. They are 
straightforward laws such as it is illegal to funnel foreign 
money into campaigns and it is illegal to use conduits to 
funnel money into campaigns. Will you help us, Mr. President? 
Or will we have to wait for a Justice Department that reads the 
Washington Post for its next investigative lead?
    In our constitutional system of checks and balances, 
Congress serves as an independent reviewer of the facts. Among 
the several tools available to us is the granting of immunity 
to individuals with important information for our 
investigation. Tomorrow, we will hear the testimony of three 
witnesses who have been immunized by this committee, the sister 
of Charlie Trie, Manlin Foung, her friend, Joseph Landon, and a 
Los Angeles businessman, David Wang.
    In addition, the committee also has received a proffer from 
two key witnesses. In May of this year, Nora and Gene Lum pled 
guilty to felony conspiracy to violate Federal campaign laws. 
As a part of the Lums' plea agreement with the Justice 
Department, they were granted immunity by the Justice 
Department from further prosecution under the Federal election 
statutes. The attorneys for Nora and Gene Lum have provided a 
written proffer to the committee, which outlines the areas 
about which they will provide testimony.
    The proffer indicates that the Lums will testify on a 
number of significant matters currently under investigation by 
this committee. The committee consideration of the Lums' 
proffer has been under way for several months by staff on both 
sides of the aisle.
    Representatives of the minority were present at a July 
meeting when the proffer was first made by the Lums' attorneys. 
Further, they accompanied the majority staff at a meeting to 
discuss the matter with the Justice Department officials.
    The Justice Department initially indicated they did not 
agree with the committee's suggestion to grant immunity to 
these witnesses, even though they have already themselves 
granted these people immunity.
    On July 23, 1997, I sent a letter to Attorney General Reno 
requesting an explanation of their position. To date, I have 
not received any response from the Attorney General, and it has 
been 3 months. Sounds like they are pretty busy over there.
    Today, with the permission of the Lums' attorneys, I am 
making this proffer available to the committee members and the 
public. I plan to schedule a committee business meeting to 
consider immunity for the Lums before the end of this month. 
The Lums' proffer and the investigative work that has been done 
by the committee staff indicates that the solicitation and 
utilization of foreign money and conduit payments did not begin 
after the Republicans won control of the Congress in 1994. 
Rather, it appears that the seeds of today's scandals may have 
been planted as early as 1991.
    In conclusion, I would like to note there is a growing 
concern that there was real corruption in the financing of 
campaigns in this country and that this corruption may have 
affected our foreign policy and possibly our national security.
    The American people have a right to know whether any 
national interests were put in jeopardy by these activities. 
Let's get the facts out.
    As Abraham Lincoln said, ``Let the people know the facts 
and the country will be saved.''
    I ask unanimous consent that all exhibits be made a part of 
the record and without objection, that will be done.
    Mr. Kanjorski. Objection.
    Mr. Burton. You do object?
    Mr. Kanjorski. Mr. Chairman, I do object. I want to call 
the Chair's attention to the fact that the Chair just violated 
the Rules of the House, as I understand them. If the Chair will 
refer to Rule 11, clause 2(k)7, it is stated there that no 
evidence or testimony taken in executive session may be 
released or used in public sessions without the consent of this 
committee.
    As I understand it, there has been no vote in this 
committee to release any of the facts or testimony contained in 
depositions previously taken, and the Chair has exhibited on 
the screen exhibit C-6 with a statement taken from the 
deposition of David Mercer.
    Mr. Burton. Give me just a second to check with my legal 
counsel, would you please?
    Mr. Kanjorski. Certainly.
    [Pause.]
    Mr. Burton. The gentleman is correct. One exhibit in the 
information we want to submit for the record should not have 
been divulged at this time, but all of the other exhibits will 
be made a part of the record, with the exception of the one the 
gentleman referred to.
    Mr. Kanjorski. Further reserving the right to object, Mr. 
Chairman, and certainly not intending to object to any of the 
exhibits the chairman has offered, and quite frankly, calling 
the chairman's attention to the fact, it was the minority side 
of this committee that fought to disclose all of these 
depositions so that this information could properly be brought 
before the public. I reiterate that the chairman should 
reconsider his position in denying the press, the American 
public, and the minority of this committee the use of those 
depositions at this hearing so that we can properly bring out 
all the facts and information that are relevant to this 
hearing.
    Mr. Burton. That is a matter that has been under discussion 
and we will consider to review that.
    Mr. Mica. Regular order.
    Mr. Kanjorski. No further objection.
    Mr. Mica. Regular order.
    Mr. Burton. Do I hear an objection?
    Mr. Kanjorski. No objection.
    Mr. Burton. No objection. So the information will be 
submitted for the record, with the exception of the document 
that was referred to.
    [The prepared statement of Hon. Dan Burton, and the 
information referred to follow:]
[GRAPHIC] [TIFF OMITTED] 44527.005

[GRAPHIC] [TIFF OMITTED] 44527.006

[GRAPHIC] [TIFF OMITTED] 44527.007

[GRAPHIC] [TIFF OMITTED] 44527.008

[GRAPHIC] [TIFF OMITTED] 44527.009

[GRAPHIC] [TIFF OMITTED] 44527.010

[GRAPHIC] [TIFF OMITTED] 44527.011

[GRAPHIC] [TIFF OMITTED] 44527.012

[GRAPHIC] [TIFF OMITTED] 44527.013

[GRAPHIC] [TIFF OMITTED] 44527.014

[GRAPHIC] [TIFF OMITTED] 44527.015

[GRAPHIC] [TIFF OMITTED] 44527.016

[GRAPHIC] [TIFF OMITTED] 44527.017

[GRAPHIC] [TIFF OMITTED] 44527.018

[GRAPHIC] [TIFF OMITTED] 44527.019

[GRAPHIC] [TIFF OMITTED] 44527.020

[GRAPHIC] [TIFF OMITTED] 44527.021

[GRAPHIC] [TIFF OMITTED] 44527.022

[GRAPHIC] [TIFF OMITTED] 44527.023

[GRAPHIC] [TIFF OMITTED] 44527.024

[GRAPHIC] [TIFF OMITTED] 44527.025

[GRAPHIC] [TIFF OMITTED] 44527.026

[GRAPHIC] [TIFF OMITTED] 44527.027

[GRAPHIC] [TIFF OMITTED] 44527.028

[GRAPHIC] [TIFF OMITTED] 44527.029

[GRAPHIC] [TIFF OMITTED] 44527.030

[GRAPHIC] [TIFF OMITTED] 44527.031

[GRAPHIC] [TIFF OMITTED] 44527.032

[GRAPHIC] [TIFF OMITTED] 44527.033

[GRAPHIC] [TIFF OMITTED] 44527.034

[GRAPHIC] [TIFF OMITTED] 44527.035

    Mr. Burton. We will now hear from Mr. Waxman, the ranking 
minority member.
    Mr. Waxman. Mr. Chairman, months ago the Democrats on this 
committee, led by Congressman Gary Condit, asked that we get 
copies of the depositions taken by the Senate. We debated the 
issue in committee, wrote to Senators Thompson and Glenn with 
the request and we raised the issue several more times with 
your staff. So I was skeptical when I received a tip 2 weeks 
ago that, in fact, you had copies of many of those depositions, 
and I was disappointed to learn last week that it was true that 
you did have copies of the Senate depositions, but had not 
shared them with us.
    You explained this mistake by pointing to staff and 
administrative error. That has also been the explanation for at 
least five other instances when the minority received 
misinformation or didn't receive documents. It is also the 
explanation given 2 seconds ago when it was pointed out that a 
deposition taken in executive session was leaked right here at 
this hearing, even though it is against the rules of the 
Congress to release depositions without a vote of the 
committee. In fact, when the Democrats asked that all the 
depositions be made public, the Republicans argued against it, 
saying that they didn't think it was appropriate. It seems like 
the majority's view is, release is appropriate on a selective 
basis if it serves a particular purpose.
    Now, the explanation for that is simply another bungle, 
another error, another mistake, somebody else was responsible, 
probably the staff. Now, I have accepted your explanations, but 
I still find this conduct inexcusable.
    In the same way, I can understand the White House's 
explanation for the coffee tape fiasco, but I still find it 
inexcusable. This seems to happen so often with the White 
House, that I wondered whether it is nefarious conduct, as the 
chairman has concluded, or just a lack of competence. I believe 
Charles Ruff, the President's Counsel, would not intentionally 
mislead Congress. And since in many cases it is the failure to 
provide the information when first requested and not the 
substance of the information that is damaging, ineptness seems 
to be a more logical explanation.
    At this point, this seems to me to be the case with the 
coffee videos. But it is still inexcusable. When you go beyond 
that, as you did this morning, Mr. Chairman, then it becomes 
clear that partisanship, again, is the dominant theme in our 
committee. And no investigation can be credible so long as it 
is motivated by partisanship.
    Our committee has, of course, a fundamental obligation to 
investigate serious abuses of our Nation's campaign finance 
laws without regard to the political consequences, whether they 
be to the Democrats or Republicans. Every Democrat on this 
committee has supported such an effort. In fact, on March 6th, 
all 20 minority members signed a letter to Speaker Gingrich 
supporting an aggressive and comprehensive investigation into 
all alleged campaign finance abuses.
    We did, however, offer a suggestion: Instead of authorizing 
two identical and duplicative efforts, the House and Senate 
resources should be consolidated into one thorough and 
bipartisan investigation.
    We continue to believe our proposal would have saved money 
and been more effective at uncovering the truth about what 
really happened last year.
    Well, neither Speaker Gingrich nor any of the Republican 
members of this committee ever responded to that letter. 
Instead, the House and Senate committees have investigated the 
same issues, deposed the same witnesses and subpoenaed the same 
documents with no coordination between us.
    Everything that the chairman outlined in his opening 
statement this morning for around 15 minutes, we didn't need to 
spend a single dime on to investigate because it was all 
reported by the press or the Senate.
    Senator Thompson has now chaired 26 days of hearings and 
he, Senator Glenn and their colleagues have provided a valuable 
service. The Senate hearings may not have captured the public's 
attention, but they have uncovered disturbing conduct and 
exposed some of our campaign system's most glaring 
deficiencies.
    In contrast, our committee's work has been beset by a 
series of problems and raw partisanship. I won't recite the 
litany, but our low point probably came in July when the 
Republican chief counsel resigned because he said he had not 
been given the authority to, quote, implement the standards of 
professional conduct, end quote, necessary to do his work.
    In addition, Mr. Rowley noted that he wanted to, quote, 
follow where the evidence leads, end quote, while others wanted 
to use the investigation simply to, quote, slime, end quote, 
the Democrats. After Mr. Rowley left, the committee's 
Republican staff was without a chief counsel for nearly 2 
months.
    Perhaps the best measure of partisanship is that of the 554 
subpoenas and requests for information Chairman Burton has 
issued, 544 have been directed at Democratic targets. Only 10 
have sought information for Republican fund-raising abuses. 
Given those numbers, it is no surprise that Chairman Burton 
once reportedly predicted that his investigation would ensure 
Republican control of the House in 1998.
    Now, given Senator Thompson's work, we face a real question 
of purpose. We have already spent almost $3 million without 
holding a single hearing. Before we invest millions more, we 
should have a clear understanding of what we are doing and how 
it relates to what Senator Thompson and Independent Counsel 
Kenneth Starr have already investigated.
    Well, we won't find that understanding today. Instead, we 
are likely to hear a quotable series of partisan but 
unsubstantiated accusations.
    Keep in mind, as they are presented, that Chairman Burton 
and his colleagues have refused to release the 52 depositions 
the committee has taken, except in the one instance where they 
released it improperly today, at least a portion of one 
deposition.
    Those depositions comprise nearly all of the committee's 
investigative work, and the reason those depositions remain 
secret is they offer no support for the accusations you will 
hear.
    One final point. I began my comments by recognizing the 
serious responsibility we have to investigate, but we also have 
an equally serious responsibility to legislate when reform is 
needed, and our campaign finance system is in desperate need of 
reform.
    Several of our colleagues on this committee, including 
Representative Tom Allen from Maine, Representative John 
Tierney from Massachusetts, and Representative Chris Shays from 
Connecticut have sponsored bills that would improve the system. 
I have cosponsored their legislation and hope my colleagues 
won't be content just to investigate last year's problems. Our 
system is broken and our job is to fix it.
    Mr. Chairman, I look forward to tomorrow's hearing and 
working with you, as best we can, and I want to, at the 
conclusion of this statement, put into the record the letters 
we have exchanged about our committee's investigation and the 
letters to Speaker Gingrich to be included in the record 
following my statement.
    Mr. Burton. Without objection.
    [The prepared statement of Hon. Henry A. Waxman and the 
information referred to follow:]
[GRAPHIC] [TIFF OMITTED] 44527.036

[GRAPHIC] [TIFF OMITTED] 44527.037

[GRAPHIC] [TIFF OMITTED] 44527.038

[GRAPHIC] [TIFF OMITTED] 44527.039

[GRAPHIC] [TIFF OMITTED] 44527.040

[GRAPHIC] [TIFF OMITTED] 44527.041

[GRAPHIC] [TIFF OMITTED] 44527.042

[GRAPHIC] [TIFF OMITTED] 44527.043

[GRAPHIC] [TIFF OMITTED] 44527.044

[GRAPHIC] [TIFF OMITTED] 44527.045

[GRAPHIC] [TIFF OMITTED] 44527.046

[GRAPHIC] [TIFF OMITTED] 44527.047

[GRAPHIC] [TIFF OMITTED] 44527.048

[GRAPHIC] [TIFF OMITTED] 44527.049

[GRAPHIC] [TIFF OMITTED] 44527.050

[GRAPHIC] [TIFF OMITTED] 44527.051

[GRAPHIC] [TIFF OMITTED] 44527.052

[GRAPHIC] [TIFF OMITTED] 44527.053

[GRAPHIC] [TIFF OMITTED] 44527.054

[GRAPHIC] [TIFF OMITTED] 44527.055

[GRAPHIC] [TIFF OMITTED] 44527.056

[GRAPHIC] [TIFF OMITTED] 44527.057

[GRAPHIC] [TIFF OMITTED] 44527.058

[GRAPHIC] [TIFF OMITTED] 44527.059

[GRAPHIC] [TIFF OMITTED] 44527.060

[GRAPHIC] [TIFF OMITTED] 44527.061

[GRAPHIC] [TIFF OMITTED] 44527.062

[GRAPHIC] [TIFF OMITTED] 44527.063

[GRAPHIC] [TIFF OMITTED] 44527.064

[GRAPHIC] [TIFF OMITTED] 44527.065

[GRAPHIC] [TIFF OMITTED] 44527.066

[GRAPHIC] [TIFF OMITTED] 44527.067

[GRAPHIC] [TIFF OMITTED] 44527.068

[GRAPHIC] [TIFF OMITTED] 44527.069

[GRAPHIC] [TIFF OMITTED] 44527.070

[GRAPHIC] [TIFF OMITTED] 44527.071

[GRAPHIC] [TIFF OMITTED] 44527.072

[GRAPHIC] [TIFF OMITTED] 44527.073

[GRAPHIC] [TIFF OMITTED] 44527.074

[GRAPHIC] [TIFF OMITTED] 44527.075

[GRAPHIC] [TIFF OMITTED] 44527.076

[GRAPHIC] [TIFF OMITTED] 44527.077

[GRAPHIC] [TIFF OMITTED] 44527.078

[GRAPHIC] [TIFF OMITTED] 44527.079

[GRAPHIC] [TIFF OMITTED] 44527.080

[GRAPHIC] [TIFF OMITTED] 44527.081

[GRAPHIC] [TIFF OMITTED] 44527.082

[GRAPHIC] [TIFF OMITTED] 44527.083

[GRAPHIC] [TIFF OMITTED] 44527.084

[GRAPHIC] [TIFF OMITTED] 44527.085

[GRAPHIC] [TIFF OMITTED] 44527.086

[GRAPHIC] [TIFF OMITTED] 44527.087

[GRAPHIC] [TIFF OMITTED] 44527.088

[GRAPHIC] [TIFF OMITTED] 44527.089

[GRAPHIC] [TIFF OMITTED] 44527.090

[GRAPHIC] [TIFF OMITTED] 44527.091

[GRAPHIC] [TIFF OMITTED] 44527.092

[GRAPHIC] [TIFF OMITTED] 44527.093

[GRAPHIC] [TIFF OMITTED] 44527.094

[GRAPHIC] [TIFF OMITTED] 44527.095

[GRAPHIC] [TIFF OMITTED] 44527.096

[GRAPHIC] [TIFF OMITTED] 44527.097

[GRAPHIC] [TIFF OMITTED] 44527.098

[GRAPHIC] [TIFF OMITTED] 44527.099

[GRAPHIC] [TIFF OMITTED] 44527.100

[GRAPHIC] [TIFF OMITTED] 44527.101

[GRAPHIC] [TIFF OMITTED] 44527.102

[GRAPHIC] [TIFF OMITTED] 44527.103

[GRAPHIC] [TIFF OMITTED] 44527.104

[GRAPHIC] [TIFF OMITTED] 44527.105

[GRAPHIC] [TIFF OMITTED] 44527.106

[GRAPHIC] [TIFF OMITTED] 44527.107

[GRAPHIC] [TIFF OMITTED] 44527.108

[GRAPHIC] [TIFF OMITTED] 44527.109

[GRAPHIC] [TIFF OMITTED] 44527.110

[GRAPHIC] [TIFF OMITTED] 44527.111

[GRAPHIC] [TIFF OMITTED] 44527.112

[GRAPHIC] [TIFF OMITTED] 44527.113

[GRAPHIC] [TIFF OMITTED] 44527.114

[GRAPHIC] [TIFF OMITTED] 44527.115

[GRAPHIC] [TIFF OMITTED] 44527.116

[GRAPHIC] [TIFF OMITTED] 44527.117

[GRAPHIC] [TIFF OMITTED] 44527.118

[GRAPHIC] [TIFF OMITTED] 44527.119

[GRAPHIC] [TIFF OMITTED] 44527.120

[GRAPHIC] [TIFF OMITTED] 44527.121

[GRAPHIC] [TIFF OMITTED] 44527.122

[GRAPHIC] [TIFF OMITTED] 44527.123

[GRAPHIC] [TIFF OMITTED] 44527.124

[GRAPHIC] [TIFF OMITTED] 44527.125

[GRAPHIC] [TIFF OMITTED] 44527.126

[GRAPHIC] [TIFF OMITTED] 44527.127

[GRAPHIC] [TIFF OMITTED] 44527.128

[GRAPHIC] [TIFF OMITTED] 44527.129

[GRAPHIC] [TIFF OMITTED] 44527.130

[GRAPHIC] [TIFF OMITTED] 44527.131

[GRAPHIC] [TIFF OMITTED] 44527.132

[GRAPHIC] [TIFF OMITTED] 44527.133

[GRAPHIC] [TIFF OMITTED] 44527.134

[GRAPHIC] [TIFF OMITTED] 44527.135

[GRAPHIC] [TIFF OMITTED] 44527.136

[GRAPHIC] [TIFF OMITTED] 44527.137

[GRAPHIC] [TIFF OMITTED] 44527.138

[GRAPHIC] [TIFF OMITTED] 44527.139

[GRAPHIC] [TIFF OMITTED] 44527.140

[GRAPHIC] [TIFF OMITTED] 44527.141

[GRAPHIC] [TIFF OMITTED] 44527.142

[GRAPHIC] [TIFF OMITTED] 44527.143

[GRAPHIC] [TIFF OMITTED] 44527.144

[GRAPHIC] [TIFF OMITTED] 44527.145

[GRAPHIC] [TIFF OMITTED] 44527.146

[GRAPHIC] [TIFF OMITTED] 44527.147

[GRAPHIC] [TIFF OMITTED] 44527.148

[GRAPHIC] [TIFF OMITTED] 44527.149

[GRAPHIC] [TIFF OMITTED] 44527.150

[GRAPHIC] [TIFF OMITTED] 44527.151

[GRAPHIC] [TIFF OMITTED] 44527.152

[GRAPHIC] [TIFF OMITTED] 44527.153

[GRAPHIC] [TIFF OMITTED] 44527.154

[GRAPHIC] [TIFF OMITTED] 44527.155

[GRAPHIC] [TIFF OMITTED] 44527.156

[GRAPHIC] [TIFF OMITTED] 44527.157

[GRAPHIC] [TIFF OMITTED] 44527.158

[GRAPHIC] [TIFF OMITTED] 44527.159

[GRAPHIC] [TIFF OMITTED] 44527.160

[GRAPHIC] [TIFF OMITTED] 44527.161

[GRAPHIC] [TIFF OMITTED] 44527.162

[GRAPHIC] [TIFF OMITTED] 44527.163

[GRAPHIC] [TIFF OMITTED] 44527.164

[GRAPHIC] [TIFF OMITTED] 44527.165

[GRAPHIC] [TIFF OMITTED] 44527.166

[GRAPHIC] [TIFF OMITTED] 44527.167

[GRAPHIC] [TIFF OMITTED] 44527.168

[GRAPHIC] [TIFF OMITTED] 44527.169

[GRAPHIC] [TIFF OMITTED] 44527.170

[GRAPHIC] [TIFF OMITTED] 44527.171

[GRAPHIC] [TIFF OMITTED] 44527.172

[GRAPHIC] [TIFF OMITTED] 44527.173

[GRAPHIC] [TIFF OMITTED] 44527.174

[GRAPHIC] [TIFF OMITTED] 44527.175

[GRAPHIC] [TIFF OMITTED] 44527.176

[GRAPHIC] [TIFF OMITTED] 44527.177

[GRAPHIC] [TIFF OMITTED] 44527.178

[GRAPHIC] [TIFF OMITTED] 44527.179

[GRAPHIC] [TIFF OMITTED] 44527.180

[GRAPHIC] [TIFF OMITTED] 44527.181

[GRAPHIC] [TIFF OMITTED] 44527.182

[GRAPHIC] [TIFF OMITTED] 44527.183

[GRAPHIC] [TIFF OMITTED] 44527.184

[GRAPHIC] [TIFF OMITTED] 44527.185

[GRAPHIC] [TIFF OMITTED] 44527.186

[GRAPHIC] [TIFF OMITTED] 44527.187

[GRAPHIC] [TIFF OMITTED] 44527.188

[GRAPHIC] [TIFF OMITTED] 44527.189

[GRAPHIC] [TIFF OMITTED] 44527.190

[GRAPHIC] [TIFF OMITTED] 44527.191

[GRAPHIC] [TIFF OMITTED] 44527.192

[GRAPHIC] [TIFF OMITTED] 44527.193

[GRAPHIC] [TIFF OMITTED] 44527.194

[GRAPHIC] [TIFF OMITTED] 44527.195

[GRAPHIC] [TIFF OMITTED] 44527.196

[GRAPHIC] [TIFF OMITTED] 44527.197

[GRAPHIC] [TIFF OMITTED] 44527.198

[GRAPHIC] [TIFF OMITTED] 44527.199

[GRAPHIC] [TIFF OMITTED] 44527.200

[GRAPHIC] [TIFF OMITTED] 44527.201

[GRAPHIC] [TIFF OMITTED] 44527.202

[GRAPHIC] [TIFF OMITTED] 44527.203

[GRAPHIC] [TIFF OMITTED] 44527.204

[GRAPHIC] [TIFF OMITTED] 44527.205

[GRAPHIC] [TIFF OMITTED] 44527.206

[GRAPHIC] [TIFF OMITTED] 44527.207

[GRAPHIC] [TIFF OMITTED] 44527.208

[GRAPHIC] [TIFF OMITTED] 44527.209

[GRAPHIC] [TIFF OMITTED] 44527.210

[GRAPHIC] [TIFF OMITTED] 44527.211

[GRAPHIC] [TIFF OMITTED] 44527.212

[GRAPHIC] [TIFF OMITTED] 44527.213

[GRAPHIC] [TIFF OMITTED] 44527.214

[GRAPHIC] [TIFF OMITTED] 44527.215

[GRAPHIC] [TIFF OMITTED] 44527.216

[GRAPHIC] [TIFF OMITTED] 44527.217

[GRAPHIC] [TIFF OMITTED] 44527.218

[GRAPHIC] [TIFF OMITTED] 44527.219

[GRAPHIC] [TIFF OMITTED] 44527.220

[GRAPHIC] [TIFF OMITTED] 44527.221

[GRAPHIC] [TIFF OMITTED] 44527.222

[GRAPHIC] [TIFF OMITTED] 44527.223

[GRAPHIC] [TIFF OMITTED] 44527.224

[GRAPHIC] [TIFF OMITTED] 44527.225

[GRAPHIC] [TIFF OMITTED] 44527.226

[GRAPHIC] [TIFF OMITTED] 44527.227

[GRAPHIC] [TIFF OMITTED] 44527.228

[GRAPHIC] [TIFF OMITTED] 44527.229

[GRAPHIC] [TIFF OMITTED] 44527.230

[GRAPHIC] [TIFF OMITTED] 44527.231

[GRAPHIC] [TIFF OMITTED] 44527.232

[GRAPHIC] [TIFF OMITTED] 44527.233

[GRAPHIC] [TIFF OMITTED] 44527.234

[GRAPHIC] [TIFF OMITTED] 44527.235

[GRAPHIC] [TIFF OMITTED] 44527.236

[GRAPHIC] [TIFF OMITTED] 44527.237

[GRAPHIC] [TIFF OMITTED] 44527.238

[GRAPHIC] [TIFF OMITTED] 44527.239

[GRAPHIC] [TIFF OMITTED] 44527.240

[GRAPHIC] [TIFF OMITTED] 44527.241

[GRAPHIC] [TIFF OMITTED] 44527.242

[GRAPHIC] [TIFF OMITTED] 44527.243

[GRAPHIC] [TIFF OMITTED] 44527.244

[GRAPHIC] [TIFF OMITTED] 44527.245

[GRAPHIC] [TIFF OMITTED] 44527.246

[GRAPHIC] [TIFF OMITTED] 44527.247

[GRAPHIC] [TIFF OMITTED] 44527.248

[GRAPHIC] [TIFF OMITTED] 44527.249

[GRAPHIC] [TIFF OMITTED] 44527.250

[GRAPHIC] [TIFF OMITTED] 44527.251

[GRAPHIC] [TIFF OMITTED] 44527.252

[GRAPHIC] [TIFF OMITTED] 44527.253

[GRAPHIC] [TIFF OMITTED] 44527.254

[GRAPHIC] [TIFF OMITTED] 44527.255

[GRAPHIC] [TIFF OMITTED] 44527.256

[GRAPHIC] [TIFF OMITTED] 44527.257

[GRAPHIC] [TIFF OMITTED] 44527.258

[GRAPHIC] [TIFF OMITTED] 44527.259

[GRAPHIC] [TIFF OMITTED] 44527.260

[GRAPHIC] [TIFF OMITTED] 44527.261

[GRAPHIC] [TIFF OMITTED] 44527.262

[GRAPHIC] [TIFF OMITTED] 44527.263

[GRAPHIC] [TIFF OMITTED] 44527.264

[GRAPHIC] [TIFF OMITTED] 44527.265

[GRAPHIC] [TIFF OMITTED] 44527.266

[GRAPHIC] [TIFF OMITTED] 44527.267

[GRAPHIC] [TIFF OMITTED] 44527.268

[GRAPHIC] [TIFF OMITTED] 44527.269

[GRAPHIC] [TIFF OMITTED] 44527.270

[GRAPHIC] [TIFF OMITTED] 44527.271

[GRAPHIC] [TIFF OMITTED] 44527.272

[GRAPHIC] [TIFF OMITTED] 44527.273

[GRAPHIC] [TIFF OMITTED] 44527.274

[GRAPHIC] [TIFF OMITTED] 44527.275

[GRAPHIC] [TIFF OMITTED] 44527.276

[GRAPHIC] [TIFF OMITTED] 44527.277

[GRAPHIC] [TIFF OMITTED] 44527.278

[GRAPHIC] [TIFF OMITTED] 44527.279

[GRAPHIC] [TIFF OMITTED] 44527.280

[GRAPHIC] [TIFF OMITTED] 44527.281

[GRAPHIC] [TIFF OMITTED] 44527.282

[GRAPHIC] [TIFF OMITTED] 44527.283

[GRAPHIC] [TIFF OMITTED] 44527.284

[GRAPHIC] [TIFF OMITTED] 44527.285

[GRAPHIC] [TIFF OMITTED] 44527.286

[GRAPHIC] [TIFF OMITTED] 44527.287

[GRAPHIC] [TIFF OMITTED] 44527.288

[GRAPHIC] [TIFF OMITTED] 44527.289

[GRAPHIC] [TIFF OMITTED] 44527.290

[GRAPHIC] [TIFF OMITTED] 44527.291

[GRAPHIC] [TIFF OMITTED] 44527.292

[GRAPHIC] [TIFF OMITTED] 44527.293

[GRAPHIC] [TIFF OMITTED] 44527.294

[GRAPHIC] [TIFF OMITTED] 44527.295

[GRAPHIC] [TIFF OMITTED] 44527.296

[GRAPHIC] [TIFF OMITTED] 44527.297

[GRAPHIC] [TIFF OMITTED] 44527.298

[GRAPHIC] [TIFF OMITTED] 44527.299

[GRAPHIC] [TIFF OMITTED] 44527.300

[GRAPHIC] [TIFF OMITTED] 44527.301

[GRAPHIC] [TIFF OMITTED] 44527.302

[GRAPHIC] [TIFF OMITTED] 44527.303

[GRAPHIC] [TIFF OMITTED] 44527.304

[GRAPHIC] [TIFF OMITTED] 44527.305

[GRAPHIC] [TIFF OMITTED] 44527.306

[GRAPHIC] [TIFF OMITTED] 44527.307

[GRAPHIC] [TIFF OMITTED] 44527.308

    Mr. Waxman. I yield back the balance of my time.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    I ask unanimous consent that all Members' written 
statements be included in the record.
    Without objection, so ordered.
    [The prepared statements of Hon. Christopher Shays, Hon. 
Stephen Schiff, Hon. Thomas M. Davis, Hon. Rob Portman, and 
Hon. Thomas H. Allen follow:]
[GRAPHIC] [TIFF OMITTED] 44527.310

[GRAPHIC] [TIFF OMITTED] 44527.311

[GRAPHIC] [TIFF OMITTED] 44527.312

[GRAPHIC] [TIFF OMITTED] 44527.313

[GRAPHIC] [TIFF OMITTED] 44527.314

[GRAPHIC] [TIFF OMITTED] 44527.315

[GRAPHIC] [TIFF OMITTED] 44527.316

[GRAPHIC] [TIFF OMITTED] 44527.317

[GRAPHIC] [TIFF OMITTED] 44527.318

[GRAPHIC] [TIFF OMITTED] 44527.319

[GRAPHIC] [TIFF OMITTED] 44527.320

[GRAPHIC] [TIFF OMITTED] 44527.321

[GRAPHIC] [TIFF OMITTED] 44527.322

    Mr. Burton. The next person to speak will be the vice 
chairman of the committee, Mr. Chris Cox of California.
    Mr. Cox. I thank you, Mr. Chairman.
    We are here today because it is our responsibility. The 
very first sentence of our Constitution states that it is the 
purpose of the Federal Government to establish justice. But 
today, as we meet here in Washington, DC, at the highest levels 
of our Government, there is no justice. It is fair to say that 
a single newspaper, the Los Angeles Times, has uncovered more 
evidence about the many Clinton scandals than has the 
Department of Justice.
    Today, there is no question that John Huang and Charlie 
Trie laundered foreign money for Bill Clinton, the President of 
the United States. But there is no indictment. The Attorney 
General, according to sources quoted in the Washington Post, 
obstructed the FBI from interviewing and investigating high 
officials of the Clinton administration.
    The Washington Post put it plainly yesterday in an 
editorial. Quote, ``The attitude of this White House toward the 
truth, whenever it is in trouble, is the same: Don't tell it, 
or tell only as much as you absolutely must, or as much as 
helps.''
    Continuing to quote from the Washington Post, ``their first 
reaction,'' referring to the White House, ``their first 
reaction to the name John Huang was to suggest they had never 
heard of him. That was before it turned out he had visited the 
White House 78 times in 15 months. Call it stonewalling. Can 
anyone really believe they don't know the answer? Can anyone 
believe this is on the up and up?'' That is what the Washington 
Post had to say yesterday.
    The New York Times was just as blunt. Yesterday's headline 
described the Justice Department meltdown. Quote, ``It has been 
a full year since Miss Reno was confronted with initial 
evidence,'' wrote the New York Times, ``of the biggest 
political money scandal in a generation. Her response shows 
little concern with her place in history as a custodian of the 
Justice Department.'' New York Times, Tuesday, October 7, 
column one editorial.
    If the Congress does not commence this investigation, there 
will be no justice. Janet Reno will not investigate Bill 
Clinton or Al Gore. She cannot absolve them. She has shown that 
Justice has a hopeless conflict of interest. She, herself, is 
part of the President's Cabinet.
    Her letter to this Congress of last Friday states that she 
has no evidence that fund-raising events took place in the 
White House and on that ground refuses to appoint an 
Independent Counsel to begin an investigation.
    One thing is clear. Neither Janet Reno nor Justice has 
conducted an arm's length investigation. When the Attorney 
General issued her letter on Friday, she claimed to make her 
decision on the basis of, ``all of the information known to me 
as a result of the Department of Justice's ongoing 
investigation into campaign finance allegations.'' But there is 
no such investigation, not a real one, not a credible one. Two 
days before her letter was issued, the Counsel to the 
President, Charles Ruff, knew of the existence of the 
videotapes of the White House fund-raising coffees. Mr. Ruff 
wrote this in a letter to the chairman of this committee. He 
knew it on Wednesday. He met with the Attorney General on 
Thursday and he did not tell her.
    He did not tell her and she did not ask. Don't ask, don't 
tell, describes not only the Clinton policy on gays in the 
military, but the Clinton policy on White House tapes.
    The next day, the Attorney General issued her letter 
absolving the President of fund-raising in the White House and 
at White House coffees on the basis of evidence discovered in 
the investigation even though that investigation had actually 
sought those videotapes, but not discovered them.
    Mr. Ruff's conduct in meeting with the Attorney General, 
knowing of this evidence and not telling her when he knew 
Justice was after it, is obstruction and cover-up, pure and 
simple.
    The chief White House propagandist, Lanny Davis, told 
reporters, it is up to you to declare us incompetent. But 
that's not our job. It is up to us to see that justice is done.
    The Justice Department has no conflict of interest 
investigating Congress. Since 1970, over 60 Members of 
Congress, both Republican and Democrat, have been indicted and 
charged with crimes. But this White House and Justice 
Department cannot be trusted to investigate themselves. Despite 
the national outcry, they have steadfastly refused to appoint 
an Independent Counsel.
    The Senate investigation has a deadline which is soon 
expiring. It is up to us. The Congress must do all we can to 
ensure that suspected criminals are charged with crimes, that 
the guilty are punished, that justice is done and that America 
and our Constitution are secure.
    I thank the chairman for convening these hearings and I 
yield back.
    Mr. Burton. I thank the gentleman from California.
    The next person to be recognized is Mr. Lantos.
    Mr. Lantos. Thank you, Mr. Chairman. I would prefer to make 
my statement after we cast our votes, if I may.
    Mr. Burton. Well, we have 15 minutes before this vote will 
be concluded. I would like to move along until we get close to 
the vote, if it is possible.
    Is there someone else on your side?
    Mr. Lantos. I am prepared to begin my statement. I merely 
suggest I will not conclude it by the time we need to leave.
    Mr. Barr. You only have 5 minutes.
    Mr. Lantos. I am delighted to begin. If that is your 
privilege--pleasure, I will do so.
    Mr. Burton. Well, aside from the chairman and the ranking 
minority member, we wanted to try to confine our statements to 
5 minutes or as close to that as possible, Mr. Lantos.
    Mr. Lantos. I shall proceed, Mr. Chairman.
    Mr. Burton. Mr. Lantos.
    Mr. Lantos. Mr. Chairman, it is very hard to tell whether 
this hearing has the quality of Alice in Wonderland or the 
theater of the absurd. It probably has the quality of both.
    There is an attempt on the part of Members on the other 
side to portray the fund-raising difficulties that this country 
confronts as a battle between the forces of good and the forces 
of evil.
    I find it difficult to believe, and I suspect the American 
people find it difficult to believe, that $558 million was 
raised by Republicans and $336 million by Democrats, all of the 
Republican funds raised with virginal purity while the 
Democratic fund-raising was deeply flawed.
    I would like to direct your attention and the attention of 
my other colleagues to today's Wall Street Journal, page A-10. 
There is a small article which reads as follows: ``Firm is 
fined $8 million in campaign finance case.'' And the article 
says, as follows: ``A Pennsylvania landfill operation has 
agreed to pay an $8 million fine for campaign finance 
violations that a prosecutor said involved illegally funneling 
donations to the campaigns of President Clinton, former Senator 
Bob Dole and various congressional candidates.''
    The article goes on to say the charges stem from an 
allegedly illegal scheme in which campaign donations were 
funneled through conduits, a spokesman for the company said. 
Donations to the Presidential campaigns of Messrs. Dole and 
Clinton by company employees and associates of seemingly 
limited means were the subject of an article in the Wall Street 
Journal in April 1996, and so on.
    This little item, which, of course, is not surprising, 
although it said, more accurately portrays what, in fact, is 
happening in the field of campaign finance than all the 
violently and vitriolically partisan statements of yourself and 
others.
    It is a fact that our campaign finance system is broke. It 
is broke because it is unenforceable and because both 
Republicans and Democrats have violated a tremendous range of 
campaign finance regulations. And this pose, which is so 
unseemingly and so unbelievable and so unattractive and so 
incredible, that somehow all of the flaws and mistakes were 
committed on the Democratic side while this virginal purity on 
the Republican side allows my colleagues with a degree of 
hypocrisy that boggles the mind to claim outrage at all of 
these things that happened.
    Yesterday, in connection with the coffee tapes, Senator 
Thompson made the observation that incompetence is wearing thin 
as a defense. Well, let me comment about incompetence, if I 
may.
    I received in my congressional office an official 
invitation on September 17th from the Republican leadership of 
the U.S. Senate cordially inviting me to serve as a Member of 
the Republican Senatorial inner circle and outlining, in 
excruciating detail, the incredible opportunities I will have 
of dining, wining, rubbing elbows with, conferring and giving 
advice to the leadership--the Republican leadership of the U.S. 
Senate if I only send in my inner circle membership.
    A member of my staff a bit earlier received another 
invitation, this time from the Presidential Roundtable. 
Honorary members of the Presidential Roundtable are President 
George Bush, President Ronald Reagan, President Gerald Ford. 
The Presidential Roundtable chairman is also Vice President Dan 
Quayle and, of course, the letterhead lists Mitch McConnell, 
Steve Forbes and Senator Santorum of Philadelphia.
    This is a marvelous letter, which I would like to place in 
the record, and I would like to read a portion of it at this 
point.

    . . . I am pleased to inform you that in recognition of 
your personal achievements, I have nominated you to serve as 
one of Virginia's representatives on the Republican 
Presidential Roundtable. This is an exceptional honor that I 
hope you will not pass up. For as America prepares to meet the 
challenges of the 21st Century, my Republican Senate colleagues 
and I genuinely need your help in shaping the new agenda that 
will guide both our party and our Nation.
    You see, the Presidential Roundtable is a unique group of 
only 400 Americans, whose membership includes corporate CEOs, 
small business owners, doctors, bankers, executives, 
entrepreneurs, community leaders and concerned citizens. . . . 
And now that a vacancy has occurred among the coveted 18 
Presidential Roundtable memberships reserved for Virginia, I 
sincerely hope you will consider stepping forward to claim it.

    The letter goes on in very interesting detail, outlining 
all the good things that will come the way of my friend if he 
steps forward and becomes 1 of these 18 members from Virginia 
of the Presidential Roundtable.

    Today, our biannual Roundtable Forums continue to provide 
opportunities for members to meet regularly in both formal and 
informal settings with the great decisionmakers and political 
leaders of the 1990's, including Majority Leader Trent Lott, 
the entire Republican Senate Leadership, the powerful Chairmen 
of standing Committees of the U.S. Senate, and the GOP's newly-
elected Senators who are well-positioned to lead America far 
into the first decade of the 21st Century.

    Now, I don't want to read the whole letter, but I will read 
the operative phrase. It says,

    I hope you will take a moment to complete your Membership 
Acceptance and return it today, along with your personal or 
corporate check, or partial membership dues payment of $5,000, 
$2,500, $1,250 or $1,000.

    This will give you an opportunity, I am quoting again, of 
``an even greater opportunity to forge the lasting friendships 
with our Senators that have become such a hallmark of a 
Roundtable membership.''
    Mr. Burton. Mr. Lantos, if I might interrupt. I think you 
made your point and if you could conclude.
    Mr. Lantos. Not quite, but I have made a portion of my 
point.
    Mr. Burton. You are doing very well, but if you could 
conclude, we would appreciate it because we want to stay as 
close to the 5-minute rule as possible, sir.
    Mr. Lantos. Well, when we return, I would like to conclude 
this letter, if I may.
    Mr. Burton. Your time has expired and, as I said earlier, 
we want to keep every Member as close to the 5-minute rule as 
possible. We will allow latitude to the ranking member and 
myself, but I don't want to go beyond that. We have 40-some 
Members here, sir.
    Mr. Lantos. May I finish then?
    Mr. Burton. OK.
    Mr. Lantos. ``We have already arranged for Roundtable 
members to have personal photo sessions with the entire 
Republican Senate Leadership when we gather at the welcoming 
reception on Tuesday evening.''
    The letter speaks for itself. It is signed by Senator Mitch 
McConnell, chairman of the Republican Senatorial Campaign 
Committee. And I think it deals with the issue of access and 
payment for access.
    Now, I find the letter nauseating, but no more nauseating 
than similar letters emanating from the Democratic side and if 
we would just get rid of the hypocrisy that permeates this 
hearing, which says that the Democrats are doing these horrible 
things while we
pure Republicans are merely dealing with the public's business, 
the American people would have a greater degree of trust in 
their Government.
    I thank the Chair.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 44527.323
    
    [GRAPHIC] [TIFF OMITTED] 44527.324
    
    [GRAPHIC] [TIFF OMITTED] 44527.325
    
    [GRAPHIC] [TIFF OMITTED] 44527.326
    
    [GRAPHIC] [TIFF OMITTED] 44527.327
    
    [GRAPHIC] [TIFF OMITTED] 44527.328
    
    [GRAPHIC] [TIFF OMITTED] 44527.329
    
    [GRAPHIC] [TIFF OMITTED] 44527.330
    
    [GRAPHIC] [TIFF OMITTED] 44527.331
    
    [GRAPHIC] [TIFF OMITTED] 44527.332
    
    Mr. Burton. Thank you, Mr. Lantos. And if you accede to the 
wishes of the Republican National Committee, be sure not to do 
it on Federal property.
    The committee will stand in recess.
    Mr. Lantos. They sent me the letter on Federal property.
    [Recess.]
    Mr. Burton. We will reconvene the meeting. The Chair now 
recognizes the gentleman from Illinois, Mr. Hastert.
    Mr. Hastert. I thank the chairman. Mr. Chairman, I think 
the real question of these hearings addressed the searing 
question of have the election laws of these United States been 
broken? And have the election laws of this country been broken 
or circumvented by the campaign committee of the chief law 
enforcement officer of this Nation?
    The real issue here is will these hearings be used by some 
to divert our attention from that issue and instead use it for 
a launching platform for, quote, campaign reform, end quote.
    Mr. Chairman, we need to keep our focus on one question: 
Have the election laws of this country been broken 
intentionally or unintentionally? As chairman of the 
Subcommittee on National Security, International Affairs, and 
Criminal Justice, I want to simply and directly state my 
concerns about the potential threat to our country's security 
that may have been and may continue to be posed by foreign 
influences on our electoral process.
    The peril associated with direct foreign influence on our 
elections should be obvious. This Nation is a democracy and a 
democracy is not for sale. And one more point: If foreign 
governments have been contributing to U.S. elections, they have 
not been doing so for our benefit. Any such contributions 
would, by definition, imperil our Nation's security, since the 
reasons for contributions would likely be to secure favors and 
extend influence. I won't belabor the point, but it is central 
to this inquiry.
    The primary inquiry of these hearings, from my perspective, 
is twofold. The threshold question is: Did the Chinese 
Government contribute to the Democratic National party or any 
other campaign organization?
    The second question is: If it can be shown that the Chinese 
Government was involved in contributing to the Democratic 
National party or any other campaign organization, did the 
Chinese Government receive any special benefits in return for 
its contributions to the Democratic national campaign 
organization?
    I am reserving my judgment on both of these inquiries. But 
as to the first inquiry, I do believe that the evidence so far 
supports the proposition that the Chinese did contribute to the 
DNC.
    Congress has documented that money came from China. This 
money appears to be coming through conduits to the Democratic 
National Committee and literally to the very doorsteps of the 
White House. I await further evidence in either direction on 
this point.
    As to the second question: Did the Chinese Government 
obtain any benefits from the alleged illegal contributions? Was 
there a quid pro quo? I am not a lawyer, but it appears obvious 
that we may eventually need to hear from someone who can detail 
the conduct and motivations of the President if we are going to 
get to the bottom of this money trail.
    As Judge Sirica once said, in a different context, follow 
the money, follow the money, follow the money.
    Accordingly, I think we should make every effort, in a 
bipartisan way, to get eyewitnesses before us. I also sincerely 
think that the President should help us in this, particularly 
if the witnesses in question remain overseas. Furthermore, some 
witnesses who could explain the facts have asserted their fifth 
amendment right not to incriminate themselves.
    It concerns me, and I think it should concern every 
American, that there are so many people close to the President 
who believe that they may have committed a crime. That fact 
should give us all pause. At least as our investigation relates 
to those who have asserted their fifth amendment rights, we 
will probably never know the specific role the administration 
played unless we are able to get and grant immunity to these 
witnesses.
    In my opinion, there comes a time when the people's right 
to know may outweigh the necessity to send these witnesses to 
jail.
    In the realm of national security, one fact bothers me more 
than any other and that fact is this: Shortly after Mr. Clinton 
became President, evidence shows he went out of his way to 
ensure that China obtained extremely sensitive technology. This 
was technology previously blocked by national security 
restrictions. Examples of the technology included turbo fan jet 
engines for missiles, sophisticated computers that provide 
guidance for military aircraft, and actual rocket missile 
guidance systems.
    I await further testimony and documents, but I will confess 
that the campaign fund-raising issue for me leads down many 
trails. And the one that troubles me the most is the one with 
national security implications. That said, I shall not 
prejudice the testimony we may hear today or which we may 
expect to hear in the future. I shall listen to all the facts 
with an open mind. I thank you, Mr. Chairman.
    Mr. Burton. I thank the gentleman from Illinois. Does he 
yield back the balance of his time?
    Mr. Hastert. I yield back the balance of my time.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    Mr. Kanjorski.
    Mr. Kanjorski. Thank you very much, Mr. Chairman.
    Mr. Chairman, I begin this set of hearings with 
disappointment today. I first came to this great city and to 
serve in this great capital some 44 years ago, in 1953, the 
last Republican Congress before the 104th Congress; that was 
the 83d Congress. I had the pleasure to serve during the first 
administration of President Dwight David Eisenhower. And 
unaccustomed as I was to this city at that time, as a young man 
I discovered that individuals will be attacked in this 
political system for reality or for appearance.
    And during that administration, a great historical name of 
Sherman Adams, from the Adams family of Massachusetts, had to 
surrender his position as Chief of Staff to the President 
because of what was then called a vicuna coat. Since that time, 
vicuna coats have gotten much larger and have become the habit 
of American politics.
    I would have been overjoyed and very satisfied with my 
service in Congress if I had known that we were coming together 
in this committee to do something substantive, to really free 
up what has become a cancer on the political process of this 
country.
    Unfortunately, I do not think any of us have arrived with 
our surgeon's tools today to treat that disease. Instead, we 
have arrived with pre-conclusions, illogical conclusions, and a 
willingness to jump to facts. Even though most of us are 
legally trained, I have never heard so many lawyers willing to 
have a finding before the evidence is in, and before the facts 
can be arranged in any logical order to force a conclusion. But 
be that as it may, this is Washington, DC, and I appreciate 
that.
    I think today, however, Mr. Chairman, you have an 
opportunity, an unusual opportunity, to change the history of 
the last 9 months and to go at this to really leave a legacy to 
the American democratic system; and it needs help. If honestly 
we were to propose new procedures and effects and go at this 
investigation in a professional way, without preconceived 
conclusions or notions, we could work great contribution to the 
American political system.
    If we continue in the type of diatribe we have heard from 
some of the Members this morning, in having previously 
concluded--I don't know why we are holding a hearing in some 
instances--or seizing upon innuendo, conjecture and conclusions 
that are not warranted by any of the facts or evidence that I 
am aware of at this point, if we have that type of hearing, we 
are going to have nothing but a partisan charade that will 
accomplish nothing and signify something that disturbs me.
    And the thing that disturbs me is that there is an 
unwillingness, it seems, in the Congress, in this committee, to 
accept the fact that in November 1996, there was a Presidential 
election and the present occupant of the White House won that 
election.
    And I thought that the examples learned in 1993, with 
trying to reverse the 1992 election with Whitewater and 
everything else that has preceded ad infinitum, would not be 
carried out in the second term of this Presidency; that with 
prosperity in this country beyond imagination, with peace in 
the world that our generation never had, and with major 
problems that this Government and this President could attain 
to, we in a very partisan way, on both sides, have slipped into 
this quagmire, if you will, to attack personalities and people 
without justification sometimes.
    I cannot excuse some of the mistakes made by this White 
House in providing information to this committee or the 
Thompson committee, nor will I attempt to do it. But I will not 
judge it as being criminal in intent or malicious in some way. 
Quite frankly, I would hope I would give it in the same way 
that I sometimes listen to the diatribe of my friends on the 
other side of the aisle, and I just say they do not really mean 
to do evil; they just do not understand. And I would hope that 
if we looked at that in the White House, we would understand 
the same thing.
    But going beyond this President and this White House, what 
opportunity do we really have? Is there anyone on this 
committee or in the Congress today that does not know that 
special interest money, huge corporate money, huge union money, 
huge wealth money, is permeating policy decisions both in this 
Congress and probably in the executive branch? And quite 
frankly, it probably has always been that way. But there was 
some reasonable suppression of it, control of it, guidance of 
it, exposure of it that today seems to be lacking.
    I do fear for American democracy as I have seen it through 
most of my lifetime, because I am not sure my daughter or her 
children are guaranteed to see this process work too much into 
the future if we do not do something to cut out this political 
cancer that exists, and it exists in money. It exists out there 
in the press and the media and the fact that we cannot talk to 
constituents anymore, but have to spend thousands and tens and 
hundreds of thousands of dollars on single 30-second attack ads 
in order to elect ourselves to office, whether it be here in 
the Congress or in the Presidency.
    We know that sometimes that money comes with not direct 
connection to position, but indirect. Certainly, people do not 
contribute millions of dollars--I think Mr. Lantos this morning 
pointed out an example, an $8 million fine for the contribution 
to multiparties, multi-individuals, most Republican, of 
$180,000--$160,000 went to Republicans--and it was done with 
the intention of having some influence. Should we have known 
that? Will we know that in the future? Can we do something 
about it? Yes, if the Congress directs itself to campaign 
finance reform.
    Mr. Shays, on the other side, has a reasonable position on 
that. Mr. Tierney on our side has a reasonable position on 
that. We had an opportunity lost in the Senate yesterday. Or 
are we going to waste opportunity and go down this terrible 
road of being purely partisan and enforce what the American 
people already believe about these investigations; that they 
are nothing but partisan attacks to disturb and dislodge the 
success of this President in his second term?
    If that's the case, we don't deserve their attention. But 
if we strive for higher ideals and intentions, we will catch 
the imagination and the appreciation of the American people.
    Thank you.
    [The prepared statement of Hon. Paul E. Kanjorski follows:]
    [GRAPHIC] [TIFF OMITTED] 44527.333
    
    [GRAPHIC] [TIFF OMITTED] 44527.334
    
    [GRAPHIC] [TIFF OMITTED] 44527.335
    
    [GRAPHIC] [TIFF OMITTED] 44527.336
    
    [GRAPHIC] [TIFF OMITTED] 44527.337
    
    [GRAPHIC] [TIFF OMITTED] 44527.338
    
    [GRAPHIC] [TIFF OMITTED] 44527.339
    
    Mr. Burton. The gentleman's time has expired.
    Mrs. Morella.
    Mrs. Morella. Thank you. Chairman Burton, I want to 
indicate my appreciation for your convening today's hearing. 
Our committee has a responsibility to investigate the political 
fund-raising practices surrounding the 1996 elections. We have 
been charged with determining which campaign finance laws have 
been broken and how domestic and foreign contributions have 
been parlayed into policy.
    Both the Senate Governmental Affairs Committee and the 
press have raised serious questions about campaign donations 
and fund-raising practices, both illegal and legal, in the 1996 
election cycle.
    Many of these troubling questions remain unanswered and the 
American people deserve answers. Why is the White House 
stonewalling this investigation by retaining critical documents 
and tapes? Why did the DNC ignore critical information about 
donors and fail to do background checks? How did contributors 
gain access to the White House? Did these contributors 
influence policy? Why have many of our key witnesses left the 
country?
    Tomorrow, we will hear from witnesses who gave conduit 
contributions at the request of Charlie Trie and John Huang. 
The witnesses who will testify before this committee are linked 
or privy to suspect fund-raising activities, many of which are 
illegal.
    Clearly, the Federal Election Campaign Act prohibits 
contributions by foreign nationals in connection with any 
election. But it has become increasingly difficult to 
distinguish which campaign practices are legal and which are 
not and, most important, which campaign practices should be 
illegal.
    Soft money began to fill campaign coffers following the 
Federal Election Campaign Act amendments of 1979, which allowed 
a greater role for State and local parties by exempting certain 
grass-roots and generic party-building activities from FECA 
coverage. And although they are legal, soft money contributions 
have led to questionable fund-raising practices and to the 
escalating costs of elections.
    This is my hope for our committee's hearings; I hope it is 
shared by all the members of the committee: that we thoroughly 
investigate the very serious allegations of violations of law, 
patterns of misconduct and abuses of power by high-ranking 
Government officials; that we do so in a bipartisan manner; 
that in the course of our investigation we shed light on what 
should be illegal and that our investigation leads to an 
overhaul of our existing campaign finance laws.
    There is no doubt that loopholes in existing campaign 
finance laws invite the kinds of abuses we will examine in the 
days ahead. So as we look at violations of current campaign 
finance law, we must also address the law's shortcomings. To 
ignore this reality is to waste an opportunity to enact real 
reform.
    As I mentioned, our committee has the responsibility to 
conduct this serious investigation, and with this 
responsibility comes the duty of each of our Members to seek 
answers in a professional, fair manner.
    I believe Chairman Burton, I take him at his word, that our 
committee's investigation will follow the evidence wherever it 
leads, and I will ensure that this is the case.
    Campaign finance violations bring all of us down in the 
eyes of the American people, the very people whom we are here 
to serve.
    In the coming months, it is critical that we take a stand 
against that which is illegal, no matter which party is guilty, 
and reform our laws to curb the excess of soft money and other 
abuses that should be illegal.
    Mr. Chairman, I yield back the balance of my time. I thank 
you for the opportunity.
    Mr. Burton. The gentlelady yields back the balance of her 
time.
    Mr. Condit.
    Mr. Condit. Thank you, Mr. Chairman. I think to a person we 
all support congressional oversight and investigation of this 
issue. Some of us, on both sides of the aisle, think we ought 
to be taking a serious and hard look at the way we finance our 
political campaigns, but this committee should be willing to 
look critically at potential violations of law, regardless of 
political party, and we ought to be willing to follow the trail 
wherever it leads us.
    We started this process several months ago with the idea 
of--hope of fixing a broken system. Since then, we have deposed 
57 witnesses. The question is: What have these 57 witnesses 
told us that we didn't already know or that wasn't already 
available? Seeking the truth and doing it in a cost-efficient 
manner are not opposing views, and that's the real point I am 
trying to make to this committee, Mr. Chairman, that they are 
not mutually exclusive.
    We can and we should continue to seek the truth. That ought 
to be our No. 1 goal. But we should do it in a cost-effective 
manner for the taxpayers of this country. We can do both and we 
should do both.
    The amount of redundancy and duplication in this 
investigation, frankly, is ridiculous. Being thorough in our 
investigation and ensuring that we do not waste money is where 
our emphasis ought to be. We have a dual responsibility. We 
must seek the truth but that doesn't mean that we have to waste 
the taxpayers' money in doing so.
    We have spent, as it has been mentioned several times, $3 
million in this body alone, to say nothing of the millions of 
dollars spent on the other investigation by the other body. On 
top of that, we have committed hundreds of hours of staff and 
personnel time to this investigation.
    And what about the burden we have placed upon the 
witnesses? We have asked them to come here, share with us the 
information that they have. We have deposed them. For the most 
part, on their own expense they have come and provided that 
information.
    Ultimately, most of them will never even be asked to 
testify before this committee. What we ought to be doing is 
setting our sights on ensuring that the money we spend is not 
being thrown away in a very cavalier way.
    If we are sincere in being here today, then we ought to 
agree on a clear focus of this hearing, Mr. Chairman. I 
wholly--I support seeking the truth. I once again think that is 
the point here. But to go blasting away in some random manner 
hoping that we hit something or stumble into something is just 
plain irresponsible.
    The main problem with this investigation is that we are not 
conducting it in a cost-efficient manner, and I hope by the end 
of this investigation that we can report to the American people 
that something substantive has transpired.
    Now it is time, I believe, for us to find a solution, and 
we all know that is a very easy thing to say. In reality, it is 
very hard to do. But it is time for us, I believe, to come up 
with a solution and find a legislative remedy. And let us use 
this hearing as a springboard to enact some of those solutions, 
like campaign finance reform. Let's set a date when this 
hearing will end, and then move forward with that plan or that 
solution.
    Mr. Chairman, we all support this investigation and the 
oversight. We need to ensure that we follow the course that is 
being laid out as quickly and as efficiently and as effectively 
as possible and waste as little taxpayer money as we possibly 
can. We owe that to the American people.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    [The prepared statement of Hon. Gary A. Condit follows:]
    [GRAPHIC] [TIFF OMITTED] 44527.340
    
    Mr. Burton. The gentleman yields back the balance of his 
time.
    Mr. Shays. Oh, excuse me, Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman, and my colleagues. 
Throughout this session of Congress, our Government Reform and 
Oversight Committee has performed an arduous task of 
investigating campaign finance improprieties and any possible 
violations of law. This task became necessary as press 
revelations in the weeks prior to the 1996 election period 
raised questions about the Democratic National Committee's 
fund-raising practices, ranging from funneled foreign 
contributions to violations of domestic fund-raising laws.
    These revelations include the related activities of John 
Huang and Yah Lin Charlie Trie both who reportedly contributed 
funds in the names of other people and both reportedly 
facilitated the contribution of foreign funds into the 
Democratic National Committee. John Huang refused to cooperate 
with our committee's investigators by invoking his privilege 
against self-incrimination, while Charlie Trie has fled the 
country and is thought to be somewhere in the People's Republic 
of China.
    Under the Federal Election Campaign Act, contributions in 
connection with any election are prohibited by foreign 
governments, by political parties, corporations, associations 
and partnerships, individuals with foreign citizenship and 
immigrants not lawfully admitted for permanent residence.
    In addition, FECA provides that no person shall make a 
campaign contribution in the name of another person or 
knowingly permit his or her name to be permitted to effect such 
a contribution. Accordingly, the American people are in need of 
the facts to determine whether or not their political leaders 
in Washington have been abusing current Federal campaign laws 
and whether the current campaign finance system has been 
working effectively.
    Furthermore, and more important, the American people need 
to be able to discern whether foreign contributions and 
resources are influencing our Nation's campaigns. The committee 
hearings on which we are about to embark will hopefully assist 
us in answering these very important questions.
    Our committee's investigation has included 55 individual 
subpoenas, 76 bank subpoenas, 39 depositions, all within the 
past 7 months. The Department of Justice has yet to appoint an 
Independent Counsel, even though campaign finance improprieties 
continue to be revealed and reported on a daily and weekly 
basis. This, in light of the fact that FBI Director Freeh not 
long ago called for and stressed the need for an Independent 
Counsel in this current campaign finance scandal.
    Moreover, along with many of my colleagues, I believe that 
we should adopt meaningful campaign finance reform, something 
we are all interested in. And I am heartened with the course of 
action taken to date by our full committee. The allegations we 
have been investigating follow an election cycle that discussed 
record amounts of money being spent on Federal campaigns. This 
trend of escalating campaign spending and abuses raises many 
concerns that the campaign finance laws enacted in the 
seventies are no longer adequate and need serious reform.
    I believe that our committee is proceeding in the right 
direction, and I look forward to continue to work with my 
colleagues in ensuring that our Nation's campaign finance laws 
are going to be adequate and up to the challenge in meeting the 
current trend of increased campaign spending.
    Accordingly, it is of utmost importance that we put an end 
to any current abuses and to restore the American people's 
trust. The hearings on which we are about to proceed are a 
positive step in that direction.
    Thank you, Mr. Chairman.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    Mr. Sanders.
    Mr. Sanders. Thank you, Mr. Chairman. I would just like to 
make two points and pick up on something that Mr. Kanjorski 
said a moment ago, and that is in November 1998, Mr. Chairman, 
there are going to be national elections and what the experts 
tell us is that about two-thirds of the American people are not 
going to bother to vote. We had the lowest voter turnout of any 
industrialized Nation on earth. There will be districts that 
Members come from where 25 percent of the people will vote.
    Now, there are a lot of reasons why the American people are 
giving up by the tens of millions in the political process, but 
I would argue that certainly one of the reasons is their belief 
that our campaign finance system is totally corrupt; that big 
money dominates what goes on here and that for ordinary people 
and working people, low-income people who don't have the 
$50,000 to contribute at fund-raising dinners or the $100,000 
to contribute to the parties of their choice, that they are 
not--that their voices and their needs are not going to be 
heard. I think that is basically a true statement.
    There is a reason why this institution gives huge tax 
breaks to the rich and does not have a national health care 
system, or we had to fight so hard to raise the minimum wage to 
all of $5.15 an hour, and so forth and so on. The American 
people understand that.
    They are not naive and they understand that when somebody 
contributes several hundred thousand dollars, maybe to both 
political parties, they are getting something for their 
dollars.
    Now, if these hearings and the work of this committee is 
nothing more than for the--and I say this as an Independent--
for the Republicans to say, gee, we are great. We never have 
any problems. Those terrible Democrats in the White House, gee, 
they are just evil, but not us. No one is really going to 
believe that and they shouldn't believe that. Everybody knows 
that the system is affecting everybody.
    So if this committee is really going to have an impact on 
what goes on in Congress and what goes to--what I think the 
American people perceive, we are going to have to fight to 
expose everything that is going on and then the direction must 
be to lead us to real campaign finance reform. No one is going 
to take this seriously if all that we do is say that the White 
House is terrible, terrible, terrible but, gee, no, I am not 
going to vote for real campaign finance reform. I am not going 
to vote or fight to make sure that big money does not continue 
to control the political process.
    So I would hope, Mr. Chairman, and I think Mr. Lantos made 
this point, Mr. Kanjorski, others have made this point, you 
have an enormous responsibility. You can play a role in turning 
the politics of this country around by leading us in the 
direction of real campaign finance reform and take away the 
power of big money in controlling the agenda here. That's the 
first point.
    The second point that I want to make, Mr. Chairman, I make 
as the ranking member of the Subcommittee on National Economic 
Growth, Natural Resources, and Regulatory Affairs. As you may 
know, last year Chairman McIntosh of that subcommittee asked 
the GAO, the Government Accounting Office, to thoroughly 
investigate the computerized Rolodex at the White House.
    This little known investigation into a computer data base 
has ballooned into a substantial portion of this committee's 
campaign finance investigation. I am not sure that many of the 
Members know that. As the ranking minority member of that 
subcommittee, I am deeply concerned that the subcommittee may 
be wasting the taxpayers' money in overusing the committee's 
deposition authority on this obscure inquiry.
    Mr. Chairman, this narrow investigation has eaten up 
hundreds of thousands of committee dollars since its inception 
over 1 year ago. It has consumed----
    Mr. McIntosh. Would the gentleman yield?
    Mr. Sanders. Let me finish and then I will yield.
    Mr. McIntosh. I will be glad to explain what the money is 
being used for, if the gentleman would yield.
    Mr. Sanders. Pardon me?
    Mr. McIntosh. If the gentleman will yield, I would be glad 
to give a summary of what the money was used for.
    Mr. Sanders. Let me finish and then I am happy to yield. 
OK?
    It has consumed 15 of the 57 campaign finance depositions. 
In other words, over one-fourth of the committee depositions 
were limited to questions about the data base.
    In addition, Mr. Chairman, it has cost the White House 
hundreds of thousands of dollars during just one 3-month period 
in which the White House tracked the cost of responding to this 
investigation; and the related GAO audit, it estimated that the 
response cost the taxpayers $155,000, and that's over a 3-month 
period.
    In addition, the witnesses that have been deposed have had 
to hire counsel at a potential personal cost of thousands of 
dollars. This can be a significant burden on the witnesses 
called by the committee, one of whom is an unpaid volunteer, as 
I understand it, at the White House.
    I would conclude by saying, I don't think the American 
taxpayers approve of us wasting hundreds of thousands of 
dollars on a political fishing expedition. I don't think they 
want more than one-quarter of the committee's campaign finance 
depositions to be on an obscure investigation of a computerized 
Rolodex. Unless the committee can demonstrate that the White 
House data base investigation is not a waste of taxpayer 
dollars, this costly and partisan investigation should be 
dropped.
    And I would be happy to yield to my friend, Mr. McIntosh.
    [The prepared statement of Hon. Bernard Sanders follows:]
    [GRAPHIC] [TIFF OMITTED] 44527.341
    
    [GRAPHIC] [TIFF OMITTED] 44527.342
    
    [GRAPHIC] [TIFF OMITTED] 44527.343
    
    [GRAPHIC] [TIFF OMITTED] 44527.344
    
    Mr. McIntosh. Thank you very much, Mr. Sanders.
    Let me say very briefly that this investigation is 
continuing apace. We found out very early on that this White 
House computer data base was used to keep track of the coffees 
and the use of the Lincoln bedroom for campaign fund-raising, 
something which the White House's own lawyers told staff of the 
President would be an illegal purpose if it were for campaign 
or political fund-raising.
    We are continuing to depose all of those who were involved 
in creating and using the data base to find out exactly what 
happened and still have many more depositions to go forward in 
doing that.
    We want to give every opportunity for this White House to 
justify the purpose for something that clearly appears, on its 
face, to have been intended to be an illegal theft of 
Government property for political purposes. We need to find out 
what happened and report to the American people about this. 
Thank you.
    Mr. Waxman. Will the gentleman yield?
    Mr. Sanders. Yes, I would yield to Mr. Waxman.
    Mr. Waxman. I hope that with the same zeal we look at some 
of the ways Members of Congress have conducted their affairs, 
whether they have made phone calls out of their offices, 
whether they have used their Government allotments for campaign 
purposes. Maybe we ought to look at their data bases and stuff 
like that.
    I think that it just seems a little bit hypocritical when 
we see attacks only in one direction and only one partisan 
direction. I would just point that out.
    And I thank the gentleman for yielding.
    Mr. Burton. The gentleman's time has expired.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Chairman, I am troubled by this investigation. I am 
troubled by the serious violations of law. I am troubled by 
abuse of fund-raising practices that, while perhaps not 
technically illegal, are obviously wrong. I am troubled by the 
administration's strategy of lawyerly word games, inadvertent 
discovery and delay; troubled that so many witnesses have taken 
the fifth, fled, forgotten or simply have refused to cooperate; 
and I am troubled when partisanship blocks the path to 
individual accountability for abuses and to reform of a system 
so eagerly and thoroughly abused.
    Our job is to judge the extent and impact of illegal 
foreign contributions, money laundering and other campaign 
finance abuses that have threatened our national security and 
undermined the integrity of domestic political process.
    Our commitment is to follow the evidence wherever it leads, 
without regard to partisan political calculations. But that job 
has been made far more difficult because, as has been noted, 39 
witnesses have asserted their fifth amendment right against 
self-incrimination, 39 witnesses; 11 potential witnesses have 
fled the country, 11 witnesses; 11 foreign nationals have 
refused to be interviewed; and the number of witnesses with 
blank memories grows daily.
    Do I believe the former chairman of the Democratic National 
Committee, Mr. Fowler, cannot remember when the National 
Security Council warned him that Roger Tamraz was a national 
security risk? I am sorry. I cannot believe him.
    Do I believe the Vice President of the United States did 
not know that when he went to the Hsi Lai Temple it was a fund-
raising event? I am sorry. I cannot believe him.
    The only difference I see so far between the terrible 
abuses in the Nixon White House and the terrible abuses in the 
Clinton White House is the Nixon White House abuses happened 
under Republican watch and were investigated; the Clinton White 
House abuses happened and are happening under Democratic watch.
    The administration is still haphazardly finding materials, 
obviously within the scope of subpoenas issued by this 
committee 7 months ago. And from my review of the transcripts, 
it appears the committee minority staff's only contribution to 
the examination of witnesses has been to trivialize the 
investigation and to apologize to the witnesses for the 
inconvenience of having to give a deposition.
    Nevertheless, our charge remains twofold: One, find out who 
abused the system; and two, recommend systemic statutory and 
regulatory repairs to fix what is wrong.
    In past investigations, it was not enough then to say the 
system is broken, everybody does it, so let's just pass a law 
without bothering those responsible. It is not enough now. Just 
as it is not enough to fix individual culpability without 
drawing and applying a larger lesson to rehabilitate a system 
that induces otherwise good people to do undeniably bad things.
    For the protection of their fundamental freedoms, the 
American people must rely on the wisdom of our laws and the 
integrity of the men and women sworn to uphold those laws. Here 
we had a failure of both. Porous laws were exploited by 
unscrupulous people. Our sworn responsibility demands we 
investigate and remedy both. Until we do both, our work is not 
complete. Unless we do both, our troubles have just begun.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman.
    Mr. Chairman, there are a lot of very positive things going 
on in America. Unemployment and inflation are at a 25-year low. 
Crime in our major cities is down, with our largest city, New 
York, leading the way. But Americans don't think Washington is 
improving their lives. In the last Presidential election, we 
had the lowest turnout in generations; less than 50 percent. 
The American people don't associate low mortgage and student 
loan rates with fiscal discipline in Washington, because all 
they see coming out of Washington is Republicans and Democrats 
trying to destroy one another over campaign finance abuses.
    Each week, there is a new outrage. We learn about a new 
violation of the spirit, if not the letter, of the campaign 
finance laws. Americans are turned off so they are tuning out. 
They aren't participating in their democracy because they think 
their democracy is a little out of their price range.
    These hearings will clearly demonstrate that soft money, 
those unlimited contributions made to political parties, is at 
the root of the campaign finance abuses this committee is 
investigating.
    Whether it is delivered by a well-healed tobacco lobbyist 
or a nun who has taken a vow of poverty, soft money is a plague 
on both of our houses, both Democrat and Republican. It creates 
the impression, true or false, that you have to pay to play and 
that legislating is just something we try to squeeze in between 
fund-raisers.
    What soft money boils down to is a loophole that 
circumvents restrictions on hard money. We can and we must 
close this loophole. Letting it stand, either by doing nothing 
or cynically undermining reform efforts with deliberate poison 
pills, is nothing less than a betrayal of American democracy.
    Washington is not irrelevant to America. The values on 
which Washington was built make America possible. Our broken 
campaign finance system has placed those values in jeopardy. In 
footing the bill for this hearing, the American people don't 
want us to protect the system; they want us to clean it up. 
They doubt we can do it and for good reason.
    Let us work together across party lines to rein in soft 
money and prove once and for all that our democracy is not for 
sale.
    Tomorrow, we will hear from people who allegedly served as 
conduits to get illegal money into the DNC, people who were 
apparently used by others to circumvent contribution limits and 
to break the law. This is not news. Since 1992, the Federal 
Election Commission has investigated 67 foreign contribution 
cases. The agency is looking into 27 alleged conduit payments. 
Their records include discoveries of a man who couldn't pay his 
bills or pay his child support but managed to funnel $600,000 
in foreign contributions to the Republican party in 1992.
    There are plenty of skeletons in closets on both sides of 
the aisle. This is not a one-party problem. Nor is it a new 
problem.
    My colleagues on the other side of the aisle enjoy pointing 
fingers at Democratic fund-raising, but when the focus shifts 
to their own fund-raising and the problems of the entire 
political system, they abruptly change tactics. That is why the 
Senate stopped its investigation in midstream. As Senator 
Collins, Republican of Maine, said last week--and she was 
quoted in the New York Times, ``For the first time, it looked 
like the focus would be much more on ourselves. It is easier 
for us to sit in judgment of another branch of government, the 
executive branch, than to sit in judgment of ourselves. I 
believe we should go forward to learn the truth about these 
abuses, but I will be very surprised if we learn anything that 
is either new or startling.''
    We will hear a lot today, we have already heard a lot 
today, about, ``enforcing the laws.'' But when it comes to 
funding the Federal Election Commission, the agency whose job 
it is to enforce these laws, my colleagues are afraid to put 
their money where their mouths are.
    We should let the Federal Election Commission do its job so 
that we can do ours. And our job, Mr. Chairman, is not simply 
to assign blame, but to reform the system.
    There are before Congress now 80 different pieces of 
proposed legislation to reform campaign finance laws. Yet not a 
single one of them has made it to a hearing.
    Mr. Chairman, it is time to stop fixing the blame and to 
start fixing the problem.
    And I yield back the balance of my time.
    Mr. Burton. One second.
    I would just like to make one real quick point before we go 
to the next witness.
    It has been mentioned several times that we have not issued 
subpoenas that were requested by the minority, and while there 
have been some problems, the minority subpoenas have been 
withdrawn, according to our counsel, and he has been trying to 
work things out with the minority counsel to facilitate some of 
these subpoenas being granted.
    Now, we cannot say we are going to grant all of them, but 
we really can't grant subpoenas that you requested when you 
have withdrawn that request; and that is one of the concerns 
that we have.
    Mr. Waxman. Will the gentleman yield to me?
    Mr. Burton. I will be happy to yield.
    Mr. Waxman. We withdrew our request for subpoenas after 
they sat pending for over 3 months without any action. We saw 
no purpose in having those subpoena requests hanging out there 
and being further ignored.
    Mr. Burton. Well, let me just respond by saying, our new 
counsel is willing to sit down and try to facilitate some 
assistance for you in getting some of these subpoenas granted.
    The next person to speak is Ms. Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. As a 
Cuban American and a congressional representative from south 
Florida, I am especially interested in knowing the relationship 
between certain alleged illicit contributions made by south 
Florida residents and their effect upon United States-Cuba 
relations. Specifically, I would like to know why Jorge 
Cabrera, a convicted felon and drug dealer, states that he was 
approached for a $20,000 contribution to the DNC in exchange 
for an invitation to a fund-raiser with Vice President Al Gore.
    Was his background as a drug dealer not investigated? Even 
if Cabrera's reputation and past convictions were ignored, did 
someone not wonder as to the origins of his $20,000 check, 
which came from Mr. Cabrera's checking account that supposedly 
includes funds from Colombian cocaine deals?
    Mr. Cabrera has been convicted for trafficking in 6,000 
pounds of cocaine and now sits in a Federal penitentiary 
fulfilling a 19-year sentence. The supposed solicitor of this 
contribution, who Mr. Cabrera claims was Vivian Mannerud, is a 
major contributor to the Democratic party, an owner of an 
airline charter company that flies to Havana, and is also a 
renowned sympathizer of the repressive agenda of the Castro 
dictatorship.
    Mr. Cabrera claims that he met with Ms. Mannerud at the 
Copacabana Hotel, a posh hotel in one of Havana's most 
exclusive areas, and I would like to play a little song here.
    [Song played.]
    [The lyrics follow:]
    [GRAPHIC] [TIFF OMITTED] 44527.345
    
    Ms. Ros-Lehtinen. We will hand out the words to the 
Members. And it says that at the Copa, Copacabana, the DNC spot 
in Havana; and we want to know what the connection is. And the 
location where this petition took place, Havana, Cuba, home of 
the tyrannical Castro regime, certainly brings a lot of 
questions to mind. Considering United States-Cuba relations in 
the past, does not Mr. Cabrera's claims, that the petition for 
a donation took place in Havana, Cuba, conflict with United 
States foreign policy?
    If Mr. Cabrera's claims are true, is the DNC condoning the 
practice of United States residents visiting Cuba, a country 
controlled by a totalitarian regime, in order to solicit funds 
in the Cuban capital for the United States Presidential 
campaign?
    Another concern of mine is the recent testimony given by a 
plantation Florida businessman, R. Warren Medoff before the 
Senate Governmental Affairs Committee. On October 22d of last 
year, Mr. Medoff attended a $1,500 a plate Coral Gables fund-
raiser intending, he said, to urge the President to renew 
flights to Cuba. These flights had been banned since March, 
when Castro's fighters killed four innocent men and shot down 
their planes, which were on a humanitarian mission, flying over 
international waters.
    Mr. Medoff said that he indicated to the President that he 
could offer the Democratic party a $5 million gift. The 
President, states Medoff, responded by saying, you can tell the 
people that they will be able to fly.
    The flights were resumed the same day.
    Based on Mr. Medoff's claims, one wonders, is the White 
House, in consideration for a substantial contribution, $5 
million, willing to forgo the loss of American lives who were 
flying over international waters and who were shot down by 
Castro in order just to fill up its treasure chest?
    And I would like to bring up the ties of one south Florida 
resident, John Henry Cabanas, a Key West businessman, who has 
publicly expressed admiration for Castro, saying, ``Fidel is 
like my father and I believe that he loves me like his son.'' 
Federal records show that Mr. Cabanas appears to have 
contributed or helped in steering over $62,000 to the 
Democratic party and its candidates.
    A lawyer at the Treasury Department states that United 
States law prohibits a person from knowingly and willfully 
engaging in a transaction with Cuba or a Cuban national. 
According to sources, Cabanas flouted that law for decades by 
spending money and receiving payment for his work in Cuba 
before he left in 1988.
    There is also the issue of Mr. Cabanas' alleged 
counterintelligence work. According to two former Cuban 
intelligence officials, Cabanas was a full-time agent of the 
Interior Ministry State Security Department. A defector and a 
one-time 20-year Interior Ministry intelligence officer also 
said that Cabanas' specific job was to spot spies among 
foreigners in Cuba, including diplomats, journalists and 
tourists. Mr. Cabanas' counterintelligence work for the Cuban 
regime is also very alarming.
    Did the Democratic party, in its frenzy to obtain 
sufficient funds to re-elect the President and oust the 
Republican Congress, allow for contributions to be made by ex-
spies of a totalitarian and repressive dictatorship? And has 
this spy been able to influence United States policy toward 
Cuba?
    It is necessary to investigate whether any of these 
contributions have resulted in the softening of United States 
policy toward the Castro regime, and I hope that this committee 
examines to the fullest any intent by the Castro regime and its 
sympathizers here in the United States of influencing United 
States policy toward the Cuban dictator.
    And I thank the chairman for the time.
    Mr. Burton. The gentlelady yields back the balance of her 
time.
    Mr. Barrett.
    Mr. Barrett. Thank you, Mr. Chairman.
    Today, as we begin what will no doubt be a long and 
extensive probe into Democratic party's fund-raising 
activities, we start down a path clearly defined by the lines 
of partisanship. We will focus on the alleged misuse of funds 
and the skirting of campaign laws by one party and one party 
only.
    I acknowledge that some wrongdoings may have occurred as a 
part of the fund-raising efforts by the Democratic party during 
last year's elections. Some of these improprieties have been 
brought to light by Senator Thompson's investigation.
    I believe that those who have committed illegal acts in the 
effort to finance Federal campaigns should be dealt with 
accordingly. Breaking the laws that regulate our elections 
cannot be tolerated. I also believe, however, that any 
committee of Congress investigating wrongdoing should not focus 
all its energies and resources on the persecution of one 
political party, be that party in the majority or the minority.
    Let's face it, candidates raise money. And last year the 
GOP set new records for raising it, and they didn't raise it 
all from widows and choir boys.
    In order to fully understand the depth of the problem, we 
should be looking at all methods that are used to abide by or 
skirt the campaign laws. That includes methods used by both 
parties.
    Now, from the get-go, this committee has brandished a 
partisan flag and the chairman has refused to even go through 
the motions of a fair investigation. Instead, the committee has 
bungled, blundered and botched this investigation and, as a 
result, has drawn upon this committee serious questions about 
its integrity.
    Mr. Chairman, we will see a constant theme develop during 
these hearings. We will be told that the laws are murky, 
compliance is difficult, and the loopholes are too big to 
withstand the rush of money in our elections. All the evidence 
will lead to one thing that this committee will not consider in 
the course of this investigation, that campaign finance reform 
is needed now. And without it, the integrity of public 
elections will continue its slide down the slippery slope of 
public opinion.
    This committee is not limited by time and the Republican 
leadership has indicated that it will not be lacking funding. 
In fact, the committee has a $3.8 million budget with access to 
an additional $7 million. All indications are that the 
committee will meander on into the next legislative year and 
into the campaign season in 1998.
    To date, a clear mission for this investigation has not 
been communicated. We have witnessed several embarrassing 
episodes, including the resignation of the chairman's legal 
team and the delays in the start of this investigation.
    Mr. Chairman, it is my hope we can work to expose the 
deficiencies in the campaign finance laws and that we can work 
together toward identifying and acting on a solution to them. 
Without a clear objective like that, the investigation is 
destined to be dragged down by partisan bickering and finger-
pointing. It is time that we rise above the partisanship that 
has plagued this investigation.
    I would like to applaud the gentleman from Connecticut, Mr. 
Shays, for his efforts to bring campaign finance reform to the 
floor of this House. He has shown an uncommon courage and 
dedication to restoring integrity to our electoral process. The 
Republican leadership, unfortunately, has vowed to keep the 
bill from being considered, but they may not be able to do so 
much longer. Hopefully, these hearings will prompt Mr. Gingrich 
and Mr. Armey to reconsider their positions and yield to the 
will of a good number of members to consider some sort of 
reform before the end of the 105th Congress.
    Thank you, and I yield back the balance of my time.
    [The prepared statement of Hon. Thomas M. Barrett follows:]
    [GRAPHIC] [TIFF OMITTED] 44527.346
    
    [GRAPHIC] [TIFF OMITTED] 44527.347
    
    Mr. Burton. The gentleman yields back the balance of his 
time.
    Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman. Today, at long last, 
with the start of this hearing, the House, through this 
committee, joins with the Senate in seeking to answer a long 
and very troubling list of questions involving the possible 
violation of various laws, regulations and, I might add, 
generally accepted standards of proper behavior amongst public 
officials.
    Over the past year, each day has seemed to bring new 
revelations about alleged improprieties, indiscretions and 
violations of the public trust, and with each disclosure, the 
faith and the confidence of the American public in their 
Government and in their elected representatives have sunk to 
lower and lower levels.
    On this, our first full day of inquiry, Mr. Chairman, it is 
my hope that, above all else, we will pursue and ultimately 
uncover and reveal the truth.
    The people of this Nation deserve to know what, if any, 
laws were broken and who amongst their elected representatives 
and public officials might have broken them. The people of this 
Nation need to understand that these allegations, if in any way 
true, will not be tolerated. They need to believe that the 
authority of public office does not provide a shield of 
immunity from the law but, rather, creates a higher standard of 
adherence to it.
    There are those--and we have heard them today, Mr. 
Chairman--who would have the people of this country believe 
that these hearings should be designed solely to develop a new 
set of laws to administer the financing of campaigns. They 
would have the people of this country focus blame somewhere 
other than on those who chose to defy the public trust and 
operate outside the existing legal standards.
    True, few thinking people today fail to realize the need to 
update and, where necessary, recraft the current campaign 
finance structure; and, to the extent that these sessions serve 
to clarify the best path toward that goal, so much the better. 
But the primary objective of these hearings is no more to 
identify the need for new laws or that the investigation of the 
crimes of Jeffrey Dahmer was somehow a search for new 
proscriptions against cannibalism.
    We are not looking at a failure of the law. We are 
searching for the lawless. To those who would absolve the 
guilty and indict the process, I would simply ask, what in the 
current law has failed to earn your respect?
    What phrase, which word or mark of punctuation has led you 
to hold these laws in such contempt, has caused you to conclude 
that the alleged perpetrators are innocent, somehow victimized 
by a law that in your judgment is unworthy of observation?
    I would imagine that at some time in all of our childhood, 
Mr. Chairman, we have used that kind of excuse. We have told 
our parents, ``But everybody does it,'' even if everybody 
wasn't doing it.
    My colleagues, we are not children. Allegations of 
corruption, influence peddling, improper use of Federal offices 
and buildings and illegal interference of foreign governments 
on American electoral politics are not child's play. Let's not 
treat it as such.
    Mr. Chairman, in my part of the country, we have a saying, 
``You can't fix tomorrow if today is broken.'' In America 
today, I fear that the political system may indeed have been 
broken, broken by a few who apparently were in search of much.
    It is the duty of this committee, through these hearings, 
to find out who, how, and why, if at all, they were indeed 
broken; and only then can we work together to bring about a 
better tomorrow, a better tomorrow by fixing today. If the 
American people can't ask this much of us, then we in no way 
deserve the high honor that they have bestowed upon all of us.
    This is their House. This is their Government. We need to 
vigorously and solely pursue their interests by rooting out the 
wrong that may have been done and holding those who might have 
acted without faith and beyond the public trust fully 
responsible for the actions they chose of their own volition, 
in pursuit of their own self-interest.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman. As we begin anew, I 
have been sitting here reminding myself that I have sat on this 
committee for a number of years now and that, in some sense, 
this is not new; that we have been investigating the Clinton 
administration since I got to Congress.
    First it was Whitewater or Travelgate, Filegate. We had the 
data base discussed earlier. And now we have the campaign 
finance circumstance.
    Now, I have looked at a lot of this information. I have 
participated with many others on the committee in various 
briefings. All of the information that has been shared up to 
this moment indicates that to the degree that a foreign 
government had intentions of influencing an election, that 
intention was focused at influencing congressional elections 
and State legislative elections. And I do note that through 
everything that has been said, we always hear these--these cute 
phrases that separate the allegation of the Chinese 
Government's influence and the abuses that we allege took place 
in the Clinton-Gore campaign. And I think it is important to 
note that if we are looking for information about the Chinese 
Government's influence on elections, we should start with the 
evidence that we have, and the first level of that is that they 
were interested in influencing the Congress.
    Now, what made them think that they could influence the 
Congress through financial contributions? I am not sure. But it 
is, I think, of import that we, you know, we not try to cover 
up this very significant allegation by focusing in on our 
favorite target, which is President Clinton; and that we look 
truthfully for the answers as to what influence was trying to 
be purchased and with whom, and not miss this maybe very 
important national security issue by our obsession with going 
after President Clinton.
    The other thing that is of note is that I saw the other day 
that the Governor of California, who ran for President and now 
is thinking about running again, suggested that the Republican 
party should stop trying to win the next election based on this 
scandal mode, chasing Bill Clinton, but perhaps there may be 
some other issues of national importance. And I am reminded 
that some of my service on this committee has been productive, 
and that is, under the leadership of a subcommittee chairman, 
Chris Shays, we investigated the whole issue of the chemical 
exposure of our troops in the Persian Gulf. That was important. 
That was important work that I thought brought appropriate 
respect to the work of this committee.
    As we go forward now into this investigation, I would hope 
that we would look at, to the degree that we are looking for 
and searching for those who have broken the law, that we would 
remind ourselves--for instance, on the front page of today's 
Hill Newspaper, there is a significant article about an 
organization of funneling money into Presidential campaigns to 
help people avoid contribution limits.
    Now, these contributions are focused at Republican 
candidates for Congress. So if we are looking for lawlessness, 
perhaps we might look at the front page of the Hill Newspaper.
    Or we might look now at what Chairman Haley Barbour has 
said. He said he went to Hong Kong. He was on a boat in a 
foreign land asking for millions of dollars to help elect 
Republicans to the Congress in 1994. That is now a subject of a 
grand jury investigation. If we were looking for illegal 
activities, if we were concerned about foreign influences in 
our elections, perhaps we might look at this matter.
    But seemingly the only thing that this committee is 
interested in doing is to somehow bring down this President, 
and if we can't get him on Travelgate or Filegate or the data 
base or campaign scandals, maybe we will get him on driving 
without a license.
    I did note the other day in the papers that he was driving 
a car at a Secret Service facility, and I am not sure whether 
he is a licensed driver. So maybe the committee soon, after we 
finish with this, can investigate that.
    But in the meantime, there are a number of issues related 
to campaign finances that should draw our attention and they 
don't all relate just to the Democratic party.
    Thank you.
    Mr. Burton. The gentleman yields back the balance of his 
time?
    Mr. Fattah. Yes, I do, Mr. Chairman.
    Mr. Burton. Does the President have a valid driver's 
license?
    Mr. Fattah. I know you will look into it.
    Mr. Burton. Mr. Horn.
    I am sorry. I guess Mr.----
    Mr. Horn. I am waiting until the announcement is done to 
start.
    Mr. Burton. Mr. Horn.
    Mr. Horn. Yes.
    Mr. Burton. Before we start, reset the clock, please.
    We are going to have, as I understand it, on the floor, a 
vote and a series of three or four votes following that. So we 
will, of necessity, have to recess the committee. But in the 
future, if we have one vote, what I will try to do is to try to 
keep the committee moving so we can get through all the opening 
statements.
    Mr. Horn.
    Mr. Horn. Mr. Chairman, some have gone to really great 
lengths to downplay and denigrate this committee's effort to 
investigate the campaign fund-raising abuses and scandals, the 
illegalities that occurred in the 1996 Presidential election.
    What our colleagues refuse to come to grips with are some 
straightforward facts.
    Fact one: This committee has identified 61 witnesses we 
want to interview regarding specific questions on their 
involvement in or knowledge of the fund-raising practices and 
activities that raise real questions of illegal conduct that 
have violated all the laws of the United States that relate to 
fund-raising.
    Fact two: None of these 61 witnesses will agree to be 
interviewed or to appear before the committee, except the few 
to whom we have granted immunity. Of that total of 61, 39 
witnesses have taken the fifth amendment. This group includes 
key figures such as John Huang, Nora and Gene Lum, Mark 
Middleton, Webster Hubbell, and many others.
    Eleven witnesses have left the country to avoid testifying. 
Among these are Charlie Trie, Pauline Kanchanalak and others. 
Eleven more witnesses are foreign citizens who have refused to 
be interviewed by this committee, the Senate committee or any 
other investigative arm of the executive branch that are 
looking into the scandal. Among these are Stephen Riady, James 
Riady, and Stanley Ho.
    What this suggests is that there has been a broad and 
remarkably consistent effort to delay, obstruct, confuse, 
divert and derail everything we have planned as an 
investigating committee. Every serious attempt to secure 
firsthand testimony on illegal fund-raising activities has been 
blocked, at least temporarily, sometimes for months.
    That brings me to fact three. We all know that illegal 
fund-raising occurred in the past Presidential campaign. We 
know foreign money was accepted. We know contribution limits 
were consciously evaded. We know that our current laws were 
either ignored or deliberately violated.
    The one question this committee is seeking to answer is 
whether or not these illegal activities were the result of 
sloppy, undisciplined, frankly unconcerned officials at the 
Democratic National Committee. I doubt it. That seems to be the 
White House defense, however.
    The second question is obvious. Was there something more? 
Was it a deliberate, orchestrated effort to evade the laws in a 
cynical belief that the money would all be spent and the 
election long in their past before anyone got around to 
worrying about it?
    The responses we get from the President, the Vice President 
and their staffs and their mouthpieces are not very reassuring. 
The White House seems intent on preventing the committee from 
obtaining witnesses, documents, videotapes and a host of other 
evidence that we have subpoenaed as much as a year ago.
    High-paid officials who work in the White House insist that 
the delays in promoting and producing documents and videotapes 
have been inadvertent. But the pattern over the past year is 
deeply troubling, and we saw the same behavior in Travelgate, 
in Filegate, all of which was investigated by this committee, 
and all the rest of the efforts of any other committee in the 
House.
    On nearly every front, we have witnesses in all of these 
scandals, and we have had massive outbreaks of these witnesses 
of something known as amnesia, sudden urges for extended travel 
abroad, temporary blindness whenever file drawers are opened; 
and a deep aversion to prompt and full compliance with 
legitimate, lawful requests for information.
    Mr. Chairman, I believe every member of this committee, 
regardless of party, should be troubled by the foot-dragging 
and the game-playing that has met this effort at every single 
turn. I think every Member of Congress, regardless of party, 
should be troubled.
    I know for a fact that millions of Americans are troubled 
about this. I do not know if it is possible to get at the truth 
in this matter, but at least we are trying to get at the truth.
    Our democracy rests on the strong foundation of the law. If 
the law is broken or even bent, then our democracy is 
undermined. The American people deserve to know, when this 
happens, what is being done to restore confidence in the laws 
that protect us all.
    That is the job we begin today. And I thank you, Mr. 
Chairman, for your leadership in this matter.
    Mr. Burton. Does the gentleman yield back the balance of 
his time?
    Mr. Horn. Yes.
    Mr. Burton. We have about 9 minutes before this vote is 
concluded. Is there anyone who wants--Mr. Kucinich would you 
like to go ahead--excuse me, Ms. Norton, would you like to go 
ahead and make your statement?
    Ms. Norton. Yes, Mr. Chairman. I have what I think will be 
a short statement.
    This hearing, for me, has an inevitable context, and that 
context is yesterday's vote in the Senate. And the reason it 
has that context for me is that I am remedy-oriented and not 
hearing-oriented.
    All 45 Democrats voted for cloture, only 8 Republicans did, 
on the McCain-Feingold bill. And we know that that bill has a 
number of controversial aspects, and yet there was a majority 
view in the Senate that we simply had to move forward and it 
didn't happen as the bill was pulled.
    Senator Thompson, who voted for the bill, indicated that he 
thought nothing would ever happen there because of the rules 
and procedures of the Senate.
    In effect, that says to me it is up to us. It will take the 
leadership of the House and, therefore, of this committee, to 
make anything happen on campaign finance reform.
    This is not a sideshow or entertainment for the television 
cameras who have come. It is a legislative hearing. There is 
much about our investigation, thus far, that has bothered me. I 
am bothered by the redundancy of much of the investigation. I 
am bothered by the partisanship of our proceedings. I am 
bothered by the new practices that involve unilateral dealings 
in subpoenas and the like.
    At the same time, I cannot become an apologist even for the 
White House or for a President, who I think has done more for 
the economy of this country than any administration in memory; 
and I think the committee has a right to inquire about 
witnesses who flee or money that is returned and the like.
    I even think that if I were Attorney General of the United 
States, I would want to come either before this committee or 
before the Senate to explain why matters like illegal 
contributions or late-discovered tapes are not cause for a 
Special Prosecutor. In fact, I believe there is vast confusion, 
especially among Members of our two bodies, as to what the law 
actually requires, why it is tightly circumscribed; and I think 
you always do best by coming forward and explaining yourself.
    The saddest comment on hearings that have gone on here and 
in the Senate for almost a year is the public apathy. And I 
think you have to face why there is apathy when otherwise hair-
raising notions are brought forward, albeit without evidence; 
and I think the reason for the apathy is the partnership that 
is--is that partisanship encourages cynicism in the republic--
in the public, cynicism that for the polity and for politics is 
a danger to both sides.
    I think that our mission and our test is to see if we can, 
in fact, dispose of this apathy.
    For me, there is one question and only one question to be 
solved by these hearings. As much as I am intrigued by 
whodunits, that is not the question for me. I do want to know 
the answer, but I do not believe that that is how we will be 
judged.
    The question, for me, that these hearings must answer is, 
did we, at the end of the day, contribute to remedies for these 
practices, whether they were illegal or not?
    The question, for me, at the end of the day is, what 
concrete happened as a result of these hearings? I want to make 
sure that this committee and this House makes something happen, 
since I believe that Mr. Thompson has spoken for the Senate 
when he says that nothing will happen as a result of what that 
body does.
    The burden is on us, Mr. Chairman, and I yield back the 
balance of my time.
    Mr. Burton. The gentlelady yields back the balance of her 
time.
    We will recess until 2:30 p.m., so everyone can get lunch. 
We will stand in recess.
    [Recess.]
    Mr. Burton. The committee will come to order. I think the 
last speaker was on the Republican side, so we will go to Mr. 
Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. Let me 
just say at the onset that I welcome these hearings, and I 
believe that they are long overdue. I welcome the start of 
these hearings not only for the fact that I believe some 
legitimate campaign fund-raising violations may have occurred, 
but also for the fact that this committee has wasted millions 
of dollars during unprecedented delays and disorganization.
    Also I want to state that this committee should have 
conducted bicameral hearings with the Senate. I commend my 
colleagues on this side of the aisle, Mr. Condit and Mr. Towns, 
for calling for a joint House-Senate hearing, because it is the 
American taxpayer who suffers in wasted money and energy.
    My constituents sent me to Washington to allocate their 
dollars in a prudent manner. We must be cost-efficient and 
effective. It is my hope this committee will conduct balanced 
and fair investigations that will produce answers rather than 
more controversy. While that is my hope, when I consider the 
fact that the lead counsel for the Republicans has already 
quit, the former lead counsel, and said that he does not 
believe that we are proceeding in a fair way, it does concern 
me. By the way, that was not from the Washington Post, it was 
not from some newspaper, that is from a Republican who was on 
the inside conducting the investigation.
    The investigation should help us reform our troubled 
campaign finance system. Instead, the investigation is proving 
to be a partisan waste of taxpayer money. I do become rather 
offended when allegations are made on the other side that we on 
the Democratic side are not about the business or not concerned 
about the business of finding the truth. Nothing could be 
further from the truth. The fact is that we are very concerned, 
but our concern goes to trying to make sure that we do not, 
first of all, waste taxpayers' money; second of all, that we do 
everything in our power to be efficient, to resolve this 
matter, and for it to have some kind of results that make 
sense. At the rate we are going, it does not appear that that 
will happen.
    Over the last 8 months, the majority staff members have 
hauled in numerous individuals and engaged in a fishing 
expedition in a frantic attempt to find anything that tends to 
embarrass President Clinton. I have personally attended some of 
these inquisitions and seen these abuses.
    One of the depositions that I attended was that of Vernon 
Jordan, one of this country's most outstanding and honorable 
people. Mr. Jordan was interrogated for hours, even though he 
had not the slightest involvement in campaign finance.
    Not only have my Republican colleagues not attended a 
single deposition, they have continued to deny the American 
public access to these depositions. The American public should 
know that the majority has devoted millions of dollars of their 
hard-earned money, and I emphasize that, their hard-earned 
money, and they do not have much to show for it.
    The hearing that we will hold tomorrow is a sad attempt to 
portray a foreign government or foreign citizens to influence 
our last Presidential election. From what I understand, we will 
hear nothing of the kind from these witnesses. Yet, this is the 
best can do after 8 months and millions of dollars spent.
    Mr. Chairman, the House is supposed to be equal to the 
Senate, yet this fiasco makes us look like amateurs compared to 
the Senate, which has put on many weeks of substantive hearings 
and now is winding down.
    Mr. Chairman, I know the American people expect more. We 
can do better.
    Thank you very much. I yield back the balance of my time.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]
[GRAPHIC] [TIFF OMITTED] 44527.348

[GRAPHIC] [TIFF OMITTED] 44527.349

    Mr. Burton. The gentleman yields back the balance of his 
time.
    Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman. The Government Reform 
and Oversight Committee is charged with the responsibility of 
conducting investigations, oversight, and the auditing of the 
performance of the executive and judicial branches of our 
Federal Government. This additional check, over and above 
actions taken by legislative and appropriations committees, was 
established by our Government's founders nearly 2 centuries 
ago, and is truly unique among all democratic institutions.
    I believe that this separate investigative committee 
oversight, which constantly reviews and scrutinizes all our 
Federal Government activities, is what keeps us from being a 
banana republic. It is fundamental to keeping our institutions 
honest, efficiently operated, and responsive to law. I believe 
that in the long term, it keeps our system and operation of 
Government from becoming corrupt, inept, and self-destructive.
    To those who question the need to conduct these 
investigative hearings, I ask them only to review the purpose, 
history, and achievements of this committee in helping to keep 
our Government honest and always subject to improvement. Yes, 
there are costs involved in this process, but I also submit 
that under this new majority, this committee is operating with 
fewer staff and far less cost than expended by the previous 
majority.
    I would like to offer exhibits for the record since cost 
has become an issue here. Just for the record, and this 
information is from the Clerk, during the 105th Congress we 
have appropriated $11,702,000. During the 103d Congress, when 
they were in charge, for a 2-year period they spent 
$24,823,000. Last Congress for both years, we spent 
$11,581,000. So the cost is a bogus argument, and the record 
and the facts speak for themselves.
    Also the number of staff that are used--I would like to ask 
unanimous consent that exhibit 1, the costs, and exhibit 2, be 
inserted in the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 44527.350
    
    [GRAPHIC] [TIFF OMITTED] 44527.351
    
    Mr. Mica. They had far greater staff and resources than we 
have used to conduct these responsibilities and investigations.
    To those who question the further need to investigate this 
growing campaign scandal, I must submit that nearly every week 
the media discloses another sordid chapter for our committee to 
consider.
    Now to the fundamental question of why we are conducting 
this investigation. Many existing laws have been broken, the 
application of certain laws has been questioned, and this 
scandal may, in fact, be unprecedented in scale, not to mention 
the shadow it has cast over our electoral process and over this 
administration.
    Some of my colleagues on the other side of the aisle 
contend that this committee's investigation into the 1996 
election campaign finance violations should not take place. I 
submit that the very foundations of our electorial process and 
integrity of our representative form of government may have 
been compromised.
    What laws have been broken? Let me cite a few examples, and 
I have here copies of our Federal statutes. First we know that 
there were violations under Title 2 United States Code 441. 
This statute prohibits contributions in the name of another 
person. We have obtained documented evidence that donors were 
reimbursed for contributions in both the Buddhist Temple case 
and in the Michael Brown pleadings.
    Witnesses tomorrow will testify under a grant of immunity 
that they made conduit payments. These payments, too, are 
prohibited under this statute.
    Does this statute work? Does this statute need revision? 
What went wrong? In May, Democratic fund-raisers Nora and Gene 
Lum pled guilty to a felony charge that they conspired to 
defraud the United States and to cause the submission of false 
statements to the Federal Elections Commission. These are 
criminal acts in violation of Title 18 United States Code, 
sections 371 and 1001. The Lums were recently sentenced, and 
the Lums have tentatively agreed to cooperate with this 
committee.
    Michael Brown recently pled guilty to violating section 441 
and section 437 of the Federal Elections Campaign Act, another 
violation of law. These provisions of law limit the amount of 
money a person can contribute to a Federal candidate in an 
election. The funds for these illegal activities were provided 
to Brown by Nora and Gene Lum. We will hear more about that. 
Brown will be sentenced for these unlawful contributions in 
November.
    The committee also has evidence that suggests during the 
1996 election, John Huang may have illegally solicited campaign 
contributions at the Democratic National Committee while still 
a Federal employee at the Department of Commerce. This would be 
a violation of the Hatch Act.
    Violations and interpretation of the 114-year old Pendleton 
Act, which prohibits soliciting campaign contributions on 
Federal property, also raise significant questions for this 
committee.
    Violations of current law are already well-known and 
documented. I have only cited a few here, and we have run out 
of space, but these are just a few of the laws that we know 
have been broken.
    The circumstances of the White House coffees, the Lincoln 
bedroom sleepovers, and possible campaign fund-raising calls 
from the White House may have violated Title 18 United States 
Code, sections 600, 607, and 641 by compromising Government 
access in return for campaign contributions, by soliciting 
campaign contributions in a Federal building, and converting 
Federal property, the White House, to private use.
    The bribery statute, Title 18 of the United States Code, 
Section 201, which prohibits Federal officials, including the 
President, from receiving any benefit in return for any 
official action, may have also been violated. In fact, we have 
numerous laws on the books that may have been violated.
    Our questions in these hearings must be: Do these laws 
work? What went wrong? And, how do we improve them? Those are 
the questions, and determining the facts and truth must be the 
responsibility of this committee.
    Finally, what is particularly troubling to me is the 
failure to cooperate, the stonewalling, the attempted blurring 
and obstructions that have been created to stop this legitimate 
oversight function, not to mention that 11 witnesses with 
information relative to the 1996 campaign scandal have fled the 
country, another 11 witnesses have refused to be interviewed by 
investigative bodies, and 36 Senate and House witnesses have 
asserted the fifth amendment. What has happened; what is being 
covered up; and why haven't the President and this 
administration, the Departments of Justice and State, helped us 
locate these folks?
    In closing, Mr. Chairman, the committee has evidence that 
strongly suggests that laws were broken in 1996. We are now 
learning that the whole electoral process may have been 
purposefully subverted. We need to conduct these hearings to 
learn what laws were broken, if these laws are adequate, if the 
system is broken, and to ensure that corrective measures are 
taken and responsibility and accountability prevail.
    Thank you, Mr. Chairman.
    Mr. Burton. The gentleman's time has expired.
    Mr. Mica. I yield back the balance of my time.
    Mr. Burton. You yielded your time a long time ago.
    Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman. I would like 
to use the same clock that Mr. Mica used.
    Mr. Burton. Let me just say--reset the clock, Mr. Towns. 
Let me just say I really would appreciate it if we could stick 
as close to the 5-minute rule as possible. I have been as 
lenient as I can be, but since we have 44 Members on the 
committee, 43 that are here, we really do have some time 
problems. Let's stick as close to the 5-minute rule as we can. 
I will try to be as lenient as I can.
    Mr. Towns. Thank you, Mr. Chairman. I will try and 
cooperate.
    I unequivocally support a thorough and comprehensive 
investigation into alleged campaign finance abuses of all 
individuals, and I want to make that very clear.
    When I took that sacred oath 10 months ago, I pledged, as I 
have for eight successive terms, to uphold the law and to 
advocate on behalf of our fellow Americans.
    Well, since that time, I have spoken to and I have listened 
to our constituents, and I can say without any reservations 
whatsoever that they are tired of partisan bickering. As hard-
working Americans confront and resolve the problems of their 
lives, I believe they would like to see us similarly dedicate 
ourselves to problem-solving instead of personality slandering.
    So, I come to you today as someone with institutional 
history. I have witnessed the outcomes of numerous 
investigations, and I urge my colleagues on both sides of the 
aisle to pause just for a moment, just one moment, from the 
haste to bring skeletons out of the closet and to beat the 
other guy to the punch and ask yourself what is our obligation 
to the American people, the folks that sent us here? What is 
our mission? Is our purpose to bring about true campaign 
reform, or are we simply concerned with focusing on certain 
individuals?
    If the answer is, as I truly hope, that our obligation is 
true reform, then we must be fair, and we must be honest and 
work in the interests of our constituents. We must look beyond 
partisan differences.
    We are approximately 1 month away from a recess. As the 
lenses of the American public are upon us, the committee is 
clearly out of focus. There has been request upon request and 
request for request. For instance, there has been 554 requests 
for information, 298 subpoenas, 134 document requests. 685,000 
pieces of paper have already been generated, and at least $2 
million has been spent at the Department of Commerce alone, not 
thinking about the other agencies that are involved in it.
    Has any of this brought us any closer to accomplishing 
campaign finance reform? The answer to that is no. We now find 
ourselves in this precarious position of beginning hearings 
when most of us are still trying to determine the real issues. 
It is not fair to these subpoenaed witnesses, Manlin Foung, 
Joseph Landon, and David Wang. It is not fair to the public. In 
a democracy, it is usually the will of the people that 
determines determinant is a course of action. That has not 
happened during this investigation.
    Please do not misunderstand me. Let me be clear. I, like 
most of my Democratic colleagues, am ready to roll up my 
sleeves and get to work on one of the most challenging issues 
facing this body. But this cannot and will not happen until 
there is real dialog between both sides of the aisle, not this 
upmanship thing that is going on.
    At the end of the day, we must ask ourselves how we want to 
be remembered. I hope that we can say unequivocally that we 
were fair, that we were honest, and we were equitable in our 
treatment of all individuals involved.
    Let me close, Mr. Chairman, by saying, I still feel that we 
are wasting taxpayer dollars by not having a joint hearing with 
the Senate. It is a shame, and it is a disgrace. When I look at 
people that are going hungry in this country, people that have 
no shelter in this country, and that people cannot get medical 
care in this country, and many of our rural areas and urban 
areas in this Nation, and we are sitting here wasting taxpayer 
dollars, I think it
is something we should think very seriously about.
    At this time, Mr. Chairman, I yield back my time.
    Mr. Burton. I thank the gentleman for sticking close to his 
5 minutes.
    [The prepared statement of Hon. Edolphus Towns follows:]
    [GRAPHIC] [TIFF OMITTED] 44527.352
    
    [GRAPHIC] [TIFF OMITTED] 44527.353
    
    Mr. Burton. The gentleman yields back the balance of his 
time.
    Mr. Davis.
    Mr. Davis of Virginia. Mr. Chairman, I would like to 
commend you for holding these important hearings on the 
investigation into campaign finance improprieties and possible 
violations of law. It would be nice if we could hold joint 
hearings with the Senate, but as you know, under Senate rules, 
that committee disappears in a month, and with us just 
receiving information on videotapes and the stonewalling of 
releasing other information, that, unfortunately, makes it 
impossible.
    Also if the Attorney General had appointed a Special 
Prosecutor and were looking into these investigations, our 
oversight responsibilities would be different. Unfortunately, 
that is not the case.
    This committee is charged by the House of Representatives 
with general oversight responsibilities, which include the duty 
to conduct investigations of this nature, and there is a long 
history of doing that. The revelations of campaign fund-raising 
abuse, which began to trickle out just prior to the 1996 
elections, have raised serious questions as to the practices 
employed during the 1996 election cycle, especially by the 
Democratic National Committee and the President's re-election 
campaign.
    We are all familiar with the reports of White House 
coffees, overnights in the Lincoln bedroom, and the campaign 
events held by nonprofit organizations. Having begun as an 
investigation propelled by the press, the campaign fund-raising 
controversy and investigation has now been elevated to the 
Congress, both House and Senate, as well as to the Justice 
Department.
    The ultimate goal of these hearings is to get at the truth 
behind what happened during the 1996 election cycle, no matter 
where the truth may lead. I believe it is important for the 
American people to know how their political leaders financed 
their campaign and whether or not any campaign finance laws 
were broken. This committee, in conjunction with the Senate 
committee and the Department of Justice, can serve to shed the 
light of truth on questionable fund-raising practices.
    It is extremely disturbing to consider the possibility of 
foreign dollars being purposely used in an attempt to influence 
the policies of the U.S. Government. Along that vein, however, 
I feel compelled to caution against the broad allegations of 
linking Americans of Asian descent to this controversy. This is 
not a controversy limited to Asian Americans. The Asian 
American community is in reality a shining example of the 
American dream. We must not allow this controversy surrounding 
its 1996 elections to discourage Americans of any ethnic origin 
from participating in the political discourse of this Nation 
fully.
    Having said that, I encourage any party interested in the 
truth to focus on what others have said about the validity of 
this investigation. In stark contrast to the President's own 
statements offering full cooperation with any investigation, 
the administration has instead been stonewalling this 
committee's attempts to review the elections of 1996. Again, 
this is not the committee's perspective or my perspective, but 
the assertions of numerous editorials in the Washington Post 
and the New York Times.
    The Washington Post had this to say about the 
administration's handling of the inconvenient facts surrounding 
the investigation: It puts up a false front, offers a 
misleading version of events. If and when that fails, as often 
occurs, it puts up another and another, as many as it takes. 
Then administration officials bemoan the cynicism with which 
they are often greeted with and wonder aloud, or pretend to 
wonder, why they are not believed. The dispensing of truth in 
reluctant dribs and drabs does indeed have the corrosive effect 
the White House itself periodically deplores.
    That is the Washington Post in January.
    A few days later, the White House itself would play dumb, 
claim not to have known anything about the episode, whatever it 
was, and then, confronted with evidence to the contrary, would 
dole out the truth a grudging grain at a time, when it spoke 
the truth at all.
    April 3d, the Washington Post. They, the White House, put 
out a story that may or may not be technically true, but 
creates a false impression. They benefit from that impression, 
which is allowed to stand for as long as it serves, meaning 
until it is shot down or about to be shot down.
    The New York Times also questions the integrity of this 
administration's willingness to cooperate with a review of 
fund-raising practices. One editorial, entitled, ``An Instinct 
to Deceive: What will it take to persuade the White House to 
tell the truth simply and promptly once a scandal is brewing?'' 
Apparently not even the advice of two lawyers of uncontested 
loyalty to President Clinton can overcome the cover-up instinct 
that has made a quagmire of Whitewater and is turning the 
Indonesian fund-raising affair into a matter that neither 
Congress nor the attorney can ignore.
    That is November 20. On July 3d of this year, the New York 
Times says, the pattern here is familiar. New information keeps 
dripping out while the White House argues that the 
investigations into the Clinton finances have gone on too long.
    This investigation is not just a case of the Congress being 
interested in the fund-raising practices employed during the 
1996 election cycle for partisan gain. This is an investigation 
that is being driven by careless disrespect for our Nation's 
current fund-raising laws and by the inability of the parties 
involved to simply comply with the judicious review of the 
events surrounding the 1996 elections.
    The New York Times has even gone so far as to call the 
Clinton-Gore re-election campaign the most reckless 
Presidential fund-raising operation in recent history, July 17, 
1997.
    I personally hope this is not true. So far, however, the 
White House and the DNC have acted in a manner that would lead 
us to agree with the New York Times. If the White House would 
have us believe that improprieties were confined to a limited 
number of individuals, the administration must be more 
forthcoming.
    The first hearings will focus on legitimate issues 
surrounding the apparent laundering of campaign funds through 
third parties. The use of conduits for illegal contributions 
may, however, just be a small part of a larger picture 
surrounding the 1996 elections.
    This committee, in the absence of an Independent Counsel on 
this matter, must continue to ask the question, who knew what, 
and when did they know it?
    Again, this is not just the view of this committee. Look at 
what others have said about this controversy. The New York 
Times, July 24: The documents also show the DNC's clear disdain 
for laws limiting contributions to candidates as opposed to 
political parties.
    They also said it was, in short, laundered money. More 
troubling still is the possibility that the White House did 
know. That was July 31st New York Times.
    It is my belief that the statutory requirements needed to 
activate the Independent Counsel statute have been triggered. 
It is incumbent upon the Attorney General to avoid any 
appearance of impropriety and to recognize the professional 
duty to call for independent review of fund-raising practices 
and the subsequent actions of involved parties, wherever they 
may be. The recent revelations surrounding the Vice President 
have only added fuel to the fire calling for an Independent 
Counsel.
    The New York Times has also recognized the growing concerns 
in regards to a potential conflict of interest on the part of 
the Justice Department.
    The Senate hearings, the New York said August 3d, have also 
yielded fresh evidence that the White House and the Democratic 
National Committee chose to look the other way as funds flowed 
illegally from foreign sources into the Clinton re-election 
campaign, greatly strengthening the case for an Independent 
Counsel to get to the bottom of the entire mess.
    On September 14th, the New York Times says, recent weeks 
have brought fresh evidence that the Democrats' Justice 
investigators are either lethargic or over their heads. Even 
worse, Attorney General Janet Reno's failure to seek an 
Independent Counsel to oversee the probe no longer looks like a 
principled assertion of faith in Justice's career staff. It 
looks like a political blocking operation to protect President 
Clinton and Mr. Gore from the vigorous investigation that would 
be aimed at any other officeholder who has received so much 
suspicious money.
    The Washington Post, October 8th, and now the White House 
has found and turned over to congressional investigators 
videotapes of some of the coffees the President gave for 
campaign contributors last year. There may be tapes of as many 
as 150 such events. The investigators asked for them months 
ago. Only now are they being disinterred. It is enough to give 
good faith a bad name. The attitude of this White House toward 
the truth whenever it is in trouble is the same: Don't tell it, 
or tell only as much as you absolutely must or as helps. They 
keep asking indignantly, even a little petulantly over there, 
why they are not believed as they keep putting out their 
successive versions of the story. Can anyone really believe 
that they don't have the answer to that? Can anyone believe 
this is on the up and up?
    I remain hopeful the Attorney General will trigger the 
Independent Counsel statute and that this controversy can be 
completely taken out of the political realm. But until such 
time as the administration's stonewalling should stop, and as 
the editorial I have quoted from the New York Times and 
Washington Post that I quoted earlier make clear, the White 
House has come perilously close to obstruction of justice, and 
this should stop. The sooner we get the facts out, the sooner 
we can resolve this matter, and the sooner we can put it behind 
us.
    Thank you, Mr. Chairman. I yield back.
    Mr. Burton. Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman and 
Members. I join with my fellows on this side of the aisle, as 
well as those on the other side of the aisle, in saying that 
law-breaking ought to be exposed and brought to justice. It is 
our duty. The Bible says, you shall know the truth, and the 
truth shall set you free.
    From the beginning of this investigation, I have wished 
that this committee could work in a relatively bipartisan 
manner that our counterparts with the Thompson committee in the 
Senate have done, and that we not duplicate efforts undertaken 
by the Senate, and that we be respectful of taxpayers' dollars 
in the process. Unfortunately, none of my wishes have yet come 
true. After more than $2.5 million of taxpayer money has been 
spent, mostly by the majority of this committee, after numerous 
depositions were taken at the initiative of the majority, 
without, I might say, a significant yield, after numerous 
hearings have been scheduled and then postponed, after almost 
all the committee action has been decided unilaterally and 
solely on the basis of the majority's wishes, and after the 
document protocols negotiated by Mr. Chairman and agreed to by 
the minority were scuttled, I arrive at this moment with some 
degree of skepticism.
    I have read the New York Times and Washington Post 
editorials that have been cited. I have also read the New York 
Times and Washington Post editorials which cite the problems I 
have just articulated with the committee process itself.
    This committee's investigation is challenged to prove that 
it is more than partisan with respect to the investigation 
subject and in comparison with past investigations. The 
Watergate investigation was a bipartisan investigation. That is 
why it was successful. That is why it achieved a cleansing of 
the American political process.
    This is not in any way to dismiss the committee's right to 
investigate. As a member of this committee, I claim that right, 
and I share the claiming of that right by every other Member. 
But when we claim that right, we ought to be right in the way 
in which we proceed.
    Mr. Chairman and members of this committee, I come to the 
Congress with a background in speech and communications. I 
taught communications at Cleveland State University and Case- 
Western Reserve University, and therefore I am very sensitive 
to all manners of communication and the way in which 
communication is presented. I say that in this context: I 
watched the beginning of this committee's work earlier in the 
day, and I saw a presentation which disturbs me greatly, 
because it raises questions as to matters of fairness.
    I want to say I believe that Mr. Chairman is a fair person, 
I sincerely believe that. But there was a presentation put 
together here which I don't believe was fair. The presentation 
where we saw the image of Mr. Huang appeared as a mug shot. It 
was grainy, it was somewhat smeared. I am sure that the 
gentleman who has been the subject of so much publicity, there 
would have been pictures available which could have presented 
him in a more dignified way, notwithstanding his actions. I ask 
whether that is fair?
    Is it fair to have pictures of Mr. Hubbell and President 
Clinton ``high-fiving'' each other flashed on that screen while 
at the same time discussing possible criminal violations?
    Now, think about that. What that does is it sends out a 
message, certainly undignified and unfair, but it discolors the 
investigation by giving a false impression of complicity. The 
President of the United States ``high-fiving'' someone who is 
under investigation.
    We should not proceed with this investigation in a manner 
which smears people, which causes conclusions to be drawn by 
images that we put forward to the public. We can proceed in a 
manner which goes with the facts, to the facts. Otherwise we 
have discolored the investigation and created an Alice in 
Wonderland environment of first rendering a verdict and then 
asking for the evidence.
    Is it fair that another Asian businessman, Mr. Trie, when 
his picture was flashed on that screen, in violation of certain 
rules as Mr. Kanjorski said, but his picture was distorted and 
blurred in this TV presentation? The two Asian Americans were 
presented on the screen, and their pictures were blurred and 
distorted.
    Computer technology today is a wonderful thing. You can 
clear up a picture, you can distort a picture. You can switch 
heads with people. You can put a person in a picture who wasn't 
in that picture. We certainly could have a presentation, a 
picture that does not distort.
    Abraham Lincoln was quoted earlier with respect to finding 
the facts. I, too, would like to quote Abraham Lincoln when he 
looked at a moment of conflict in this Nation. He said, ``With 
malice toward none.'' We can proceed with this investigation 
without being malicious. We can get at the truth without trying 
to rip people to pieces. We need to keep in mind that there has 
to be a higher calling to our presence here, and that is to not 
just find out what was wrong, but to set what was wrong right 
through addressing a system that is inherently flawed. And 
until we are willing to do that, until we are willing to make 
that connection between the problems which are brought before 
us, yes, the breaking of the law which is brought before us, 
and a resolution of that through cleaning up the system, this 
whole matter would be an exercise in vain.
    I thank the Chair.
    Mr. Burton. The gentleman's time has expired. The gentleman 
from Indiana.
    Mr. Souder. Mr. Chairman, I have a parliamentary inquiry.
    Mr. Burton. The gentleman will state his parliamentary 
inquiry.
    Mr. Souder. There was a discussion about the grainy 
pictures. My understanding from having done some of this on the 
floor and talked with the committee and others is it has been 
very difficult to get pictures of the President with the 
individuals or the Vice President with the individuals, or, for 
that matter, a picture of Mr. Huang, and all we have are 
newspaper photos, which come out grainy when we reprint them. 
Is that the case and is that why we used grainy photos?
    Mr. Burton. The photos we used were from public sources. It 
was not intentional, that we strive to put them in a grainy 
mode.
    Mr. Souder. I thank the chairman.
    Mr. Kucinich. Inquiry to the Chair.
    Mr. Burton. The gentleman will state his inquiry.
    Mr. Kucinich. I understand the Chair has a wonderful 
background in public service, but I would suggest, Mr. 
Chairman, and to my dear colleague, that as we proceed, that 
care be taken in these matters so as not to leave a mistaken 
impression that we are trying to achieve something one way 
through images that we would not dare to try to achieve through 
our rhetoric.
    Mr. Burton. The gentleman's point is well taken. We will do 
our best to make sure we show fairness whenever we show a photo 
of anybody under investigation.
    The gentleman from Indiana.
    Mr. Souder. Mr. Chairman, I look forward to this much 
anticipated inauguration of this important committee 
investigation and to hearing from our first witnesses tomorrow. 
The White House has hoped to deceive the public into believing 
that everyone breaks the law. The President waxes piously about 
the need for an overall overhaul of campaign finance laws, the 
moral equivalent of a bank robber who, once apprehended, touts 
himself as an expert on banking reform.
    Rule No. 1 is follow the current law. Our oversight 
function in this committee is not campaign finance reform. It 
is to find if current laws were broken by this administration 
and why. We have oversight over this administration and its 
agencies.
    Then, if we find that these are requiring new laws, then 
new laws arise out of that. But first you have to do the 
investigation.
    I didn't see a lot of Members from the other party during 
Watergate suggesting they investigate past administrations; for 
example, President Johnson's bugging of Barry Goldwater and the 
cover-up after that.
    The goal of the oversight committee is to look into the 
oversight of the current administration, and what we see on the 
surface is an abuse that looks overwhelming: Overnights at the 
Lincoln bedroom, coffee klatches, hard money, soft money, 
Citizenship USA, the Pendleton Act, the Hatch Act, Buddhist 
Temples, photo ops with felons, Roger Tamraz and Interpol, Nora 
and Gene Lum, the Teamsters and DNC, conduit payments, money 
laundering and videotapes.
    It is hard to keep track of all the Byzantine dimensions of 
this problem.
    As we look at the recent things and problems, such as the 
memory recall problem of the DNC chairman and the missing 
videotapes of the coffee klatches, allegedly misfiled under 
Democratic fund-raising, they raise the questions of 
obstruction of justice and conspiracy to mislead congressional 
investigators. And for those who would try to compare this to 
the conduct of any previous administration, Republican or 
Democrat, please, don't even try. This is much more 
comprehensive.
    We should be, unlike the Attorney General, who now appears 
to be regelated to serving as the President's defense counsel, 
and has declined repeatedly to appoint an Independent Counsel 
as the law requires, investigating the burgeoning fund-raising 
scandals, regardless of what she does, because she has now put 
the task to us, unless she will appoint the independent 
counsel.
    We have some very critical questions. Did a foreign 
government or governments, through agents of influence, succeed 
in buying access to the Oval Office, and did this penetration 
compromise U.S. security?
    Never before in the history of this country has Congress 
been presented with a scandal of such breathtaking magnitude, 
complexity and pervasiveness. Nearly every agency of Government 
appears to have been debased to some degree by the stench of 
political corruption.
    This committee's work has been nearly crippled by the 
remarkable disappearance of or lack of cooperation from 60 
witnesses with firsthand knowledge of the fund-raising scandal. 
Like Colombian drug cartel leaders who boastfully call 
themselves unextraditables, many of Mr. Clinton's most generous 
donors and most energetic fund-raisers have spirited themselves 
away from American territory, to China, to Thailand, or back to 
Indonesia, beyond the reach of committee lawyers, subpoenas and 
depositions. And people want to know why it has taken us so 
long? They are fleeing our Nation, and they are obstructing our 
ability to do justice in the United States.
    Among those, John Huang, formerly of the Commerce 
Department and the Lippo Group. Mr. Huang has taken the fifth 
amendment. A memo by Mr. Huang, a prodigious fund-raiser for 
the President's re-election, showed his asking for over 
$153,000 in foreign money from Lippo Indonesia to be wired to 
his accounts at LippoBank, specifically earmarked for the DNC. 
The DNC pledged to return a $250,000 contribution from a South 
Korean businessman, which originated at Mr. Huang's suggestion.
    Another key figure is Charlie Trie, a restaurant owner from 
Little Rock, AR, a friend of Bill's. Mr. Trie absconded from 
the country and is said to be in China. Mr. Trie made hundreds 
of thousands of dollars of illegal donations to the Democratic 
National Committee and delivered bags and envelopes full of 
small checks and money orders totaling nearly $800,000 to 
Clinton's legal defense fund. Some money orders were numbered 
sequentially, although they ostensibly came from individuals in 
different States who shared the same surname. Trie was awarded 
with appointment to the President's Commission on U.S. Pacific 
Trade and Investment Policy, which further gave him credibility 
and clout.
    We already know the Trie donations coincided with a letter 
faxed to the President urging restraint in responding to 
China's military exercises off the Taiwanese coast prior to its 
first democratic elections.
    Finally, there is Johnny Chung, a political operative known 
best for his apt quotation comparing the White House to a 
subway station. ``You have to put coins in to open the gate.'' 
Mr. Chung vows his contributions were solicited by the DNC 
finance director Richard Sullivan, despite the fact that a 
National Security Council aide described him in a memorandum as 
a hustler trying to exploit his White House contacts. After the 
hustler memo, after the hustler memo, Chung was received 20 
more times at the White House, for a total of 49 visits.
    The responsibility of this investigatory body is to find 
out what laws were broken; what, if any, breaches of national 
security occurred; and whether important policy compromises 
were made as a repayment for illicit campaign donations.
    I hope we can have a bipartisan effort. The Attorney 
General, the Nation's top enforcement officer, has shirked her 
constitutional responsibility. We cannot afford to shirk ours. 
Bipartisan cooperation requires both sides, not just one side, 
and I hope some Members on the other side have the courage, 
like Republicans did under Watergate as it unfolded, to step 
forward to help us in this investigation and getting the truth 
out, even if that means extradition and help from the State 
Department at some point.
    Mr. Burton. The gentleman yields back his time.
    Mr. Owens.
    Mr. Owens. Mr. Chairman, I would like not to be redundant. 
I think that these hearings could be of great importance if we 
deal with the underlying issue and not allow them to become 
trivial. This is a vital life-and-death issue with respect to 
the survival of our democracy, the issue of how elections take 
place and who pays for what. The issue is, what is the 
influence of big money in our democracy?
    The issue is, how does laissez-faire work the other way? We 
have all been schooled in the doctrine of laissez-faire in 
terms of Government leaving the marketplace and the private 
sector alone, but we have never talked very much and there has 
not been very much discussion in colleges and universities 
about how you avoid having the marketplace and the private 
sector take over Government.
    Laissez-faire should work both ways, and the real 
underlying problem behind all the other details that we have 
been discussing in this hearing is the problem of our 
Government being for sale. Is our Government for sale and to 
what degree is it for sale?
    We have a Democrat in the White House who was determined 
that if he lost the election it wasn't going to be because he 
was outspent or it wasn't going to be for lack of money. Not 
only the Democrats in the White House, the President and the 
Vice President were preoccupied with money, but every Member of 
Congress.
    We had numerous discussions about Democrats taking back the 
Congress and we had most of--a large part, portion of those 
discussions, related to money. No matter what the merits were, 
no matter what our positions were, you still had--had to have 
the money to get on television and buy the ads.
    Money begins to dominate the political process in America. 
That is the real issue. That is what the American people ought 
to take a close look at. The details can take us into 
trivialities sometimes that are quite laughable. I agree with 
Harold Ickes and Jay Leno, or whoever started it, who said 
that, you know, where did you expect the President and the Vice 
President to make their calls from? You know, they live in the 
White House. They live on Government property. That is their 
home.
    Every Member of Congress knows they can't avoid some 
discussion of fund-raising on Federal property. Even if you are 
so careful never to discuss it yourself on the phone, you are 
going to get phone calls from other people who are going to 
discuss it. Are you going to hang up on somebody because they 
call you to say something about a fund-raiser or a fund-raising 
process? No, you are not.
    We go off the Hill to make calls at the various 
headquarters for the parties. We also go home to make calls. We 
probably make a large number of calls at home. The home of the 
President, the home of the Vice President, is the White House 
and the other facilities that are provided for the Vice 
President. So it is a little ridiculous to single that out as 
being so important that it diverts us from the real issue of 
there is too much money required in American elections.
    Campaign spending has increased exponentially, according to 
the Federal Election Commission. Spending in Federal elections 
has increased from $309.6 million in 1975-1976 to $2.738 
billion in 1995-1996. At the same time the voter turnout is 
going down, the amount of money being spent is going up.
    Independent expenditures have greatly increased. Soft 
money, Republicans outraised Democrats in soft money in the 
1996 election; $138.2 million to the Democrats, $123.9 million 
in soft money. That is double what the parties raised in 1991-
1992. You know, tremendous amounts of money being raised; 
nobody is giving it away just because they are good Boy Scouts. 
There is a process which any sophomore in high school or 
college can tell you, a process of expecting something back in 
return for the money.
    The Presidents, throughout history, have always had various 
kinds of social activities in the White House. If we turn the 
microscope on any past Presidents recently, we are going to 
find the same kinds of things were done at the White House that 
we are blown up out of proportion here in terms of people being 
invited into the White House who have influence and who have 
various other kinds of things that the White House wants to 
get, whether it is the money or their influence in some 
respect.
    In terms of hard money, money spent by Republicans and 
Democrats, Republicans raised $416.5 million in 1996--for 1996 
committee elections, while the Democrats raised $221.6 million. 
You know, tremendous amounts of money are going into these 
elections, and the question that should be on everybody's mind 
as we take them through the steps of these hearings and we talk 
to the witnesses and we reproduce and duplicate, replicate what 
the Senate has already done, the question should always be, you 
know, is this the kind of America we want, which is clearly an 
America where the political process is up for sale?
    If nothing else comes out of this, it ought to be the--the 
searing on the imaginations and the minds of Americans of the 
fact that we are drifting into a situation where our democracy 
will inevitably be greatly distorted by the fact that you have 
these tremendous amounts of money that have to be raised.
    We must have campaign finance reform. Eighty-three percent 
of--85 percent of Americans think that special interest groups 
have more influence than the voters; 92 percent think too much 
money is spent on campaigns; almost 9 out of 10 Americans want 
fundamental change or a complete overhaul of the campaign 
finance system.
    Are we going to engage these questions in this hearing? Are 
we going to ask questions and do things with respect to the 
witnesses and the processes, as we go through this in this 
committee, which do in some way address this profound question? 
Is our Government for sale? Is our democracy in danger because 
it is being taken over by the private sector with large sums of 
money?
    The laissez-faire that we are so proud of with respect to 
Government not interfering with business is not going the other 
way. Business money is trying to dominate our Government, and 
that is the issue.
    I yield back the balance of my time.
    Mr. Burton. Thank you, Mr. Owens.
    Mr. Scarborough.
    Mr. Scarborough. Thank you, Mr. Chairman.
    I have found the speeches on the Democratic side to be 
entertaining at the very least, unfortunate in many.
    A gentleman a couple of speakers ago talked about how he 
longed for bipartisanship. Well, I long for the type of 
bipartisan also that was evident during the Watergate hearings 
when we actually had a Senator in the minority there to stand 
up and ask tough questions of the President: What did the 
President know and when did he know it?
    Regrettably, all we hear are the most frantic charges of--I 
have heard ``partisanship''; I have heard the word ``evil'' 
thrown around; I have heard ``a witch-hunt''; and I have also 
heard ``fishing expedition.'' We were told a few minutes ago 
that children were starving across America because of these 
hearings. We were told that people were freezing and homeless 
because of these hearings. It is demagoguery at its worst.
    It also amounts to a political obstruction of justice, and 
regrettably, we have seen this on this committee for some time.
    I remember when Chairman Clinger, a few years ago, tried to 
get some documents pertaining to Craig Livingstone. We were--
the same terms were used, that it was a ``fishing expedition,'' 
that it was a ``witch-hunt.'' Later we found out, after this 
``fishing expedition,'' after this so-called ``witch-hunt,'' 
that the White House had illegally and improperly seized 900 
FBI files against their political enemies. And yet this 
continues. It is deja vu all over again.
    One Democrat has said we can do better. Well, I say the 
Democrats can do better, and I am going to make a plaque. It is 
going to be the Senator Joe Lieberman plaque for the first 
House Member that actually stands up and shows the courage that 
Senator Lieberman showed on the Democratic side and that Howard 
Baker showed so many years ago.
    This is what Senator Lieberman said on the Senate side, 
``The pattern of behavior by the White House, as exemplified 
most recently in the question of these tapes, is unacceptable 
also. One can hear the explanation given that it is a foul-up 
and not a cover-up, but the accumulation of foul-ups begin to 
raise an understandable question in the minds of this 
committee, which is, `What is going on over there and why does 
it happen?' ''
    That is Joe Lieberman, the one Democrat that has shown a 
little bit of courage over the past few months.
    This shouldn't be about partisanship, and I agree with the 
gentleman, if a Republican did this, I would hold the 
Republican to the same high standard that I would want to hold 
this President to. And if anybody doubts this, all they need to 
do is ask Newt Gingrich, Dick Armey or other Members of my 
leadership that I have given problems to over the past few 
months.
    You can also, if you think that this is about partisanship, 
that you think this is a Republican attack, all you have to do 
is read the newspapers to see what they are saying. Read what 
the Washington Post said yesterday when, in so many words, they 
accused the White House of lying. They said, ``The attitude of 
this White House toward the truth, whenever it is in trouble, 
is the same: Don't tell it, or tell only as much of it as you 
absolutely must.'' And then we, of course, had the New York 
Times last week, who editorialized on their editorial page that 
Bill Clinton and Janet Reno could no longer be trusted to look 
into the fund-raising abuses that have occurred.
    We have had Newsweek going into it for a year now. They 
reported last year about possible espionage between a White 
House and DNC official and Communist China, explaining how this 
official would get briefings from the Commerce Department and 
then was stupid enough to step into a cab, take a cab to the 
Chinese Embassy and then turn in a receipt to get some money 
back. And this happened over and over again, according to 
Newsweek.
    We have had press reports that the CIA, that the FBI, that 
the INS, that the NSC, that possibly the IRS and obviously the 
office of the President, the office of the Vice President, have 
been involved to assist the White House, possibly illegally, to 
elect the President and Democrats to Congress. And it expands 
and it continues to expand, and all we hear is the same thing, 
``witch-hunt,'' or that it is evil or that it is partisanship.
    There is nothing partisan about the New York Times. There 
is nothing partisan about the editorial page of the Washington 
Post. Of course, some of us would suggest that if there was any 
partisanship, it certainly would tilt heavily against the 
Republican party. But to those editorial pages' credit, they 
have had the moral courage to speak out against an 
administration that is perhaps had the most corrupt fund-
raising machine in the history of this Republic.
    Why can't one Democrat--and I see we only have one 
Democrat, so I throw this offer over to you. I will get the 
Lieberman memorial plaque, give it to you after this hearing. 
Why can't we have one Democrat say, something stinks at the 
White House, something is very, very wrong; let's get to the 
bottom of it, and let's stop trying to change the subject?
    I mean, if I hear one more Democrat say, well, this is a 
wonderful opportunity to re-examine campaign finance laws, that 
is like Marv Albert stepping out of the courthouse and saying, 
this is--I have provided us a wonderful opportunity to examine 
sexual harassment in America.
    I mean, let's stop trying to change the subject and instead 
get to the bottom of this issue, which is that this White House 
has continued illegally using its influence to get re-elected, 
to get Democrats re-elected. And after the end of that process 
then maybe we can look at campaign finance reform; then we can 
look at putting even more new laws on the books. But before we 
do that, I say, let's get a--let's get a White House and let's 
get Democrats that are willing to abide by the laws that we now 
have on the books.
    I yield back the balance of my time.
    Mr. Burton. Thank you for that entertaining speech.
    Mr.--I want to get this right--Blagojevich, is that pretty 
close?
    Mr. Blagojevich. That is exactly on the mark, Mr. Chairman. 
Thank you.
    First of all, evidently, I am all alone here. I think my 
colleagues on this side knew I was going to speak and they 
left.
    Let me also say it was Mo Udall, I believe, who said that 
everything has been said, but not everybody has said it. I will 
probably do less than 5 minutes since so many Members on both 
sides have said a lot of the kinds of points I want to make.
    And let me just briefly comment on my illustrious colleague 
from Florida, who I have again--and we hear this all the time--
I genuinely have high regard for Mr. Scarborough from Florida. 
He made a statement that if a Republican did this, he would 
be--I think I am paraphrasing now--outraged or something to 
that extent.
    The fact of the matter is, this committee probably isn't 
going to find out whether or not Republicans did it or not 
because we are going after Democrats in this committee. 
Probably 9 out of 10 subpoenas that have been issued from this 
committee are earmarked toward Democrats and not Republicans. 
So I don't think my illustrious colleague from Florida will 
have the opportunity to be as outraged about a Republican.
    And I think when I quoted Mo Udall about saying the same 
things that others have said, I am going to repeat what 
virtually everybody on this committee in both parties has said. 
It is that we think that we ought to have an investigation, 
that many of these allegations are not only troubling, but 
potentially criminal in nature and that this investigation is 
important; that we have to find out what actually happened, 
particularly with regard to fund-raising in the White House.
    There are, however, differences. Those of us here happen to 
think that we ought to not only investigate the White House, we 
ought to investigate the House, we ought to investigate 
Democrats and Republicans, because when I go back home to my 
district--and I have been back every weekend since I have been 
elected with the exception of one--and when I appear at town 
hall meetings or community forums, I don't hear a single 
question, not a single question about campaign misdeeds in the 
White House or in Congress.
    And when I sometimes ask questions, because I want to have 
a sense of what people are concerned about, I get--I get a 
sense from the people back home that they just view this whole 
process as corrupt or corrupting. They view this whole process 
as ugly and dirty, and they think that we are all politicians 
just trying to raise money and that any excesses and 
transgressions that may have come out of the White House are 
just business as usual in Washington, DC, and in politics in 
general.
    I must say that I don't necessarily disagree with them. In 
fact, these allegations about whether or not big money is in 
the system, allegations about whether or not fund-raising and 
contributors buy access to Government is kind of reminiscent of 
the movie Casablanca, the scene where the Paul Henreid 
character, they are in Rick's Cafe, if you remember the movie, 
and they all start playing the Marseillaise; and it is a very 
moving scene, one of the great scenes in movie history. And 
then when it is all over, the German officer is there and he 
tells the Vichy representative, who was played by Claude 
Raines, the Captain Renaud character, shut it down, shut down 
Rick's Cafe. So he goes up to the Humphrey Bogart character and 
he says, ``Rick, you know, we are closing this place down.'' 
And Humphrey Bogart says to him, ``what are you closing me down 
for, what are the grounds?'' And the Claude Raines character in 
the classic line says, ``Rick, I am shocked, I am shocked. 
There is gambling here.''
    He had just placed a bet earlier in the movie.
    The fact is that a lot of these allegations are not 
shocking at all. They are, in fact, a problem with the system, 
endemic to a system that needs reform.
    I hate to disappoint my colleague from Florida, but if 
these investigations are going to have any merit at all, if we 
are going to learn anything from what we hopefully are going to 
discover from these investigations, I think it is only good to 
underscore what we already know, which is the system doesn't 
work. It is a system that is corrupting or corruptible, and it 
is a system that needs fundamental reform.
    And I am joined by many other Members who are willing to 
stay in this session beyond adjournment unless--for as long as 
it takes to pass some kind of campaign finance reform in this 
Congress.
    And let me also say that there is a bipartisan effort, 
Republicans and Democrats alike, whether it is McCain-Feingold 
or the freshman version of--Republican freshmen and Democratic 
freshmen offering some kind of meaningful campaign finance 
reform.
    In the post-Watergate era, Congress changed the rules and 
they did it because the American people clamored for it. And I 
believe that unless and until the American people feel that we 
are going to do something about cleaning up a system that has 
gone wrong, they are not going to tune us in and they are not 
going to be as willing to respond to some of the allegations 
that arguably are very, very serious.
    So I hope we can have campaign finance reform, Mr. 
Chairman, as we continue this investigation. And I yield back 
the balance of my time.
    Mr. Burton. Your statements on Casablanca were very 
accurate.
    Mr. Blagojevich. Thank you.
    Mr. Burton. Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman.
    Before I begin, let me note for my colleague on the other 
side, eight out of the nine subpoenas issued by this committee 
may be directed to Democrats largely because eight out of nine 
of the articles that appear in the Washington Post, the New 
York Times, the L.A. Times and virtually every other newspaper 
in this country, where there are investigative reporters at 
work, focus on abuses and violations of law by Democrats. So I 
think it is quite logical.
    Mr. Chairman, make no mistake about it, this investigation 
and these hearings go to the very heart of the survival of this 
Nation. While I do not wish to raise expectations about the 
nature of the information that will come out of these hearings, 
the essence of the hearings addresses the integrity of our 
system of Government, and the faith, confidence and respect it 
commands from the people of this Nation.
    If the people do not believe that our Government is honest, 
their motivation to abide by its laws will be destroyed. In our 
system of Government, order is maintained by voluntary 
compliance with law. If that compliance is abandoned, anarchy 
will prevail. If the people believe our Government is corrupt, 
liberty will not survive.
    Again, let me make it absolutely clear. Whether we produce 
shocking evidence, proving violations of the law occurred or 
not, the issue is maintaining credibility within our system of 
Government. The evidence which is already in the public domain 
suggests that our campaign finance laws were abused and 
corrupted to an unprecedented degree in the 1996 election.
    Sadly, this process has become hopelessly partisan. An 
immense effort has been and is being expended in trying to 
prevent the truth from coming out. And when evidence is brought 
out, every effort is made to minimize its significance to the 
greatest extent possible.
    The subject of these hearings is not new to me. For 8 
years, I served as special assistant to the Arizona attorney 
general. In that capacity, I was specifically responsible for 
enforcing Arizona's campaign finance laws. During that time, 
there were two major revisions of our campaign finance laws, 
which produced some of the strictest and most rigid campaign 
laws in the Nation.
    In both cases, proponents of the reforms claimed that with 
these radical new limits, the cost of campaigning would 
decrease. Time has shown, however, that not only did the cost 
of political campaigns in Arizona not go down, but in fact, it 
has increased. But more importantly, these so-called 
``reforms'' drove a large portion of campaign spending 
underground.
    Prior to the changes in our law, it was easy to determine 
where campaign contributions came from and where they went. 
Regrettably, following reform, this information is almost 
impossible to ascertain. For example, there are now countless 
nice sounding organizations that act as fronts for the very 
special interest groups the law was intended to affect. Just 
one such organization, called Citizens for Excellence in 
Education, was nothing more, as many of them are nothing more, 
than a front for another organization--in this case, the 
Arizona Education Association from which it obtained all of its 
funding.
    In light of my personal campaign--experience with campaign 
finance laws, I am greatly disturbed, indeed I am disgusted, by 
the concerted effort of the current administration and of some 
members of this committee to do everything possible to prevent 
this investigation from moving forward. Over and over again, to 
date, they have constructed roadblock after roadblock to 
obstruct this investigation.
    To thwart our effort, the White House has stonewalled 
repeated requests for information, concealed other information 
and produced yet still more information only after the 
committee threatened contempt of Congress.
    Conversely, the administration has also engaged in a 
calculated effort to time the release of the information which 
the administration considers damaging so as to diminish its 
significance when brought forward by this committee in the 
course of these hearings. Just a week ago, there was an effort 
to force the release of committee depositions the moment they 
were taken. The obvious motive for that effort was to make any 
significant revelations at such a deposition old news and, 
therefore, insignificant when the committee hearing focused on 
that witness and the information the witness had produced.
    The recent release of videotapes of the White House coffees 
is yet the latest example of foot-dragging and obfuscation by 
the White House. From the time these coffees came to light 
earlier this year, the White House spin operation denied that 
they were fund-raisers. Yet, when administration officials 
searched the White House videotape data base for coffees, they 
found only 49 hits. By contrast, when they recently searched 
for DNC fund-raisers, there were 150 hits. This, I suggest, is 
a stunning revelation that these events were viewed as 
political fund-raisers by the White House itself.
    And based on the audio from these now-revealed tapes, the 
people attending them obviously understood they were fund-
raising events, with one attendant audibly offering checks to a 
DNC official in the room.
    As the Senate hearings have shown and as these hearings 
will show, there is one riveting fact this administration 
cannot escape; and that is, the information we have already 
seen demonstrates that the abuses in which they were engaged 
and which have already come to light were in violation of 
current law. If current law had been followed or if it were 
currently being enforced, this investigation would not be 
necessary.
    For my colleagues on the other side who complain about the 
cost of this investigation, they should be reminded that it was 
the improper actions of the President, the White House and the 
DNC that created any additional burden to taxpayers for the 
cost of these hearings.
    Our job as members of this committee is to oversee the 
executive branch of this Government. It would be irresponsible 
for any of us to turn a blind eye to the blatant disregard for 
campaign finance laws as occurred in the last election cycle. 
As I said earlier, disregard of existing law, as some would 
suggest has been flagrantly demonstrated by this 
administration, erodes the public confidence and trust, which 
is essential to our survival as a Nation.
    As Thomas Jefferson said, the whole art of Government 
consists in the art of being honest.
    Mr. President, we simply ask that you be honest.
    Let me conclude, Mr. Chairman, by noting that the 
appointment of a Special Prosecutor is long overdue. The latest 
refusal of Attorney General Janet Reno, which was followed only 
hours later by the release of the White House videotapes, 
establishes beyond a doubt that the Attorney General and the 
Department of Justice are not doing their job.
    More importantly, not only is Janet Reno not doing her job, 
she is showing contempt for the law and destroying public 
confidence and faith in our system of Government.
    Mr. Chairman, I close with a plea to everyone involved in 
this process, from the White House to the Attorney General and 
the Department of Justice, to the members of this committee, to 
do what is right, proper and honest. The future of our Nation 
is at stake.
    Mr. Burton. Thank you.
    Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    We gather here today, 9 months after the initial 
investigation of allegations of finance campaign abuses from 
the 1996 election cycle, $2.5 million of the taxpayers' hard-
earned money already spent. Fifty-seven depositions have 
already been taken, and several witnesses have been unduly 
harassed.
    While I am encouraged that the hearings will finally begin, 
I cannot help but remain somewhat pessimistic, and I say 
pessimistic because I do not believe that these hearings will 
reveal anything that has not already been brought forth by the 
Senate investigation. The Senate has said what most Americans 
already know, and that is that our campaign finance system in 
America is badly broken and in serious need of repair.
    The real issue before us today is not conduit payments to 
the Democratic National Committee; rather, when will we begin 
to have serious debate on reform in the campaign finance laws? 
I believe that we have an opportunity to seize the moment and 
provide real reform if the people are to believe that we are 
serious.
    It is no secret that the current system of campaign finance 
laws is seriously flawed. These laws threaten the very essence 
of our democracy. It is imperative that we reform the current 
system and send a message that this Government is not for sale. 
We must eradicate the notion that money can buy justice, 
elections and anything else that you want in America. The 
current system has too much money in it. It is tantamount to 
capitalism run amok.
    This is perhaps capitalism at its very worst. This is the 
vulnerableness of capitalism which undermines the very essence 
and ideals of democracy. We must send a message that no part of 
our Government system can be bought or purchased.
    Campaign finance reform is one of the critical issues of 
the day. The stakes are too high for us to dally around and do 
nothing about it.
    There have been over 70 bills introduced in this country 
alone regarding campaign finance reform, and the leadership has 
yet to schedule debate on any of that. Perhaps Gandhi was right 
when he said, possession of power makes men blind and deaf. 
They cannot see things which are under their very noses and 
cannot hear things which invade their eyes.
    It seems to me that those in power want only to perpetuate 
it. However, I urge the American people to meet the power that 
wants to maintain the status quo with like and equal resistance 
that demands real campaign finance reform.
    History has thrust upon us, upon our generation, a unique 
and important destiny; that is, the opportunity to complete a 
process of campaign finance reform, to make democracy real in 
the lives of each and every American. This is our opportunity 
to make the magnificent words of the Constitution and 
Declaration of Independence ring true, that this is, in fact, a 
Government by and for the people; not by and for the rich and 
wealthy, but by and for all the people, irrespective of income, 
gender or heritage.
    As the lights dim and the cameras fade on this hearing, I 
urge the leadership to give the people what they want, what 
they desire, and that is real campaign finance reform. And when 
we give the people what they want, when we give the people real 
campaign finance reform, they will know that the role they play 
is not contingent upon the size of their pocketbook or that 
their influence is not weighted by the size of their 
contributions.
    I thank you, Mr. Chairman, and yield back the balance of my 
time.
    Mr. Shadegg [presiding]. The gentleman yields back the 
balance of his time.
    [The prepared statement of Hon. Danny K. Davis follows:]
    [GRAPHIC] [TIFF OMITTED] 44527.354
    
    [GRAPHIC] [TIFF OMITTED] 44527.355
    
    Mr. Shadegg. The gentleman from Ohio, Mr. LaTourette.
    Mr. LaTourette. Thank you very much, Mr. Chairman. It is a 
pleasure to see you seated in the chairman's chair.
    Mr. Shadegg. Thank you.
    Mr. LaTourette. I appreciate very much the opportunity to 
make remarks today, and I also look forward to tomorrow's 
inaugural hearing. Like many members of the panel who have 
already spoken today, I have been frustrated and saddened by 
the length of time that it has taken to get to this juncture in 
the hearing process.
    However, unlike some of the statements that have been made 
today, I am not perplexed, nor do I wonder as to what the cause 
of the slowness of pace is, the cost or the progress of the 
fact-finding process.
    My primary vocation, before coming to Congress, was that of 
a county prosecutor. Like other members who serve on this 
committee who had the honor and pleasure of representing their 
State before the bench, there are many war stories that each of 
us could tell detailing the creative and imaginative tales that 
defendants from time to time had to explain why they had missed 
their date with the judge.
    My personal favorite was, a gentleman called up one day and 
said that a rather painful circumcision had prevented his 
arrival at the courthouse for 2 weeks, but he hoped to be with 
us soon.
    What causes the raising of suspicions and indeed raises the 
hackles of many of us on this side of the aisle is the constant 
evasion. A rule of thumb that I adopted in my legal practice 
was given to me by a rather grizzled homicide veteran by the 
name of Tommy Doyle, and he said that the reason that people 
lie, the reason that people hide the truth, the reason that 
people prevaricate is that the truth is worse for them than the 
lie which they are willing to tell.
    Sadly, the conduct of many during the public observance of 
this series of scandals has put me in mind of many of the 
wayward defendants of the past and, I would suggest, has had 
more than a direct result of impeding the orderly progression 
of any legitimate or worthwhile probe. We have seen people who 
have fled the country and the jurisdiction of this Congress. We 
have seen those who would choose to use the fifth amendment as 
a sword rather than as a shield, to frustrate rather than to 
protect.
    We have seen a variety of statements that would be putting 
some of my old defendants to shame; ``I don't recall facts or 
events'' is one; ``there is no controlling legal authority''; 
``everybody does it'' is something that I have heard from my 
children on many occasion; and that ``the Pendleton Act is 
obscure, antiquated or vague.'' And if I had a nickel for every 
defendant who claimed that the law under which he or she was 
being investigated or prosecuted was vague, I would have been 
retired long ago.
    But perhaps the classic was in today's Hill newspaper--and 
I never thought I would see this from anywhere, certainly from 
Capitol Hill, other than from my children--the caption that 
``the dog ate my videotapes.'' Certainly we have reached a new 
level of excuses in this investigation.
    As a youngster, I remember being fascinated by a photograph 
that appeared in one of the papers of Rosemary Woods who was, 
of course, the secretary to President Nixon during the 
Watergate hearings, and the musings of the bemused editorial 
writers was that Ms. Woods must have had some gymnastic ability 
to reach back and somehow cause a gap of minutes' long in an 
audiotape for a reel-to-reel tape recorder that was located 
behind her desk.
    I look forward to the coming weeks because the bizarre 
compilation and editing of the videotapes just recently 
revealed--released by the White House, I suspect will 
demonstrate skills by their video technicians that will rival 
the Korbuts, the Comanecis and the Rettons.
    Mr. Chairman, I would suggest that between the two 
extremes--and that is, those within and without Washington that 
want these hearings to get the President and to get the Vice 
President, and those within and without Washington that will 
protect the President at all costs and would suggest we do 
nothing to follow the trail of illegality--the vast majority of 
members on this committee and in this House hope that the fact-
finding process will develop a discovery of who has violated 
the laws already in existence; and that those who have sworn an 
oath to uphold the laws of this country do their job and do so 
whether or not American policy and secrets were sold for 
electoral success in November 1996, and that those who 
stonewall, obstruct and obfuscate are publicly condemned and 
driven from office.
    And finally, that the flawed manner in which we finance our 
Federal campaigns be examined in the orderly and thoughtful 
manner that is the hallmark of this institution, and that 
reform be the child of bipartisan labor rather than the spawn 
of media-driven, partisan advantage-seeking, quick fixes that 
sound good, but at the end of the day fail to restore the trust 
in the way we finance campaigns in this country.
    Thank you, Mr. Chairman, and I yield back my time.
    Mr. Shadegg. The gentleman yields back the balance of his 
time.
    And the gentleman from Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. I don't want to 
belabor this point, which seems to be something we are all 
doing a bit of here today, but I largely associate myself with 
the remarks of my colleagues, that have been covered, that I 
would otherwise raise--in particular, the unfair manner of 
presentation of information that we have seen that has been 
suggestive and predisposed to a preconceived conclusion; the 
duplication of the Independent Counsel's inquiries and the 
Senate's parallel inquiry; the slow and unfocused proceedings 
that we have had here, including numerous lengthy depositions 
that result in either little or no information that is new or 
relates information which has already been unearthed elsewhere 
and reported publicly; the expenditure of millions of dollars 
of taxpayers' money to do what the Senate has already done, 
while not ever criticizing the Senate's job as insufficient.
    I want to point out that this is not the oversight and 
oversight committee; it is, in fact, the reform and oversight 
committee, and that we should be not duplicating what the 
Senate has done. We have said this since the beginning, and out 
of over 100 Members of Congress, tried to persuade this 
committee to either unearth something new that we haven't heard 
before; to have this be a nonpartisan approach so that what we 
do here can be credible; to include us in the planning of this, 
so that we can get beyond what seems to be the inability of the 
majority here to conduct an investigation that leads to 
anything new that the American public can look forward to; to 
either join with the Senate to do its investigation with it, so 
that we don't duplicate money and spend our resources 
unnecessarily; or refocus this investigation away from 
duplicative efforts and into things that are new and will lead 
us in some direction that expanded out just beyond the role of 
the White House--take a look at what happened in the House of 
Representatives and in the Senate in both parties--to go beyond 
that and to move forward.
    We can stipulate, the American people can well stipulate, 
that the campaign finance system we have right now is not one 
that they enjoy or that they think is working particularly 
well. We can stipulate that both parties have probably had 
abuses that are not unlawful, but certainly unseemly; and this 
goes back to not the past elections but to elections before 
that.
    And I think that the numbers are there, the information has 
been made public and nobody is now surprised any longer about 
what this committee is coming up with, other than the fact that 
they are surprised probably to learn that most of these 
witnesses have already been deposed and investigated by the 
Senate.
    Most of these witnesses are giving us information that has 
already been disclosed to the President, to the Senate; and the 
fact is that we are not unearthing anything new.
    Let's agree to the fact that we need to move beyond this 
into a better system. Let's agree that we can do it a lot more 
economically than we have been doing it. Let's agree to 
stipulate to what we can stipulate, instead of having shows so 
we can get our face on the TV, and move this forward to either 
new information or to a cooperative effort with the Senate, so 
that we can preserve resources. And then let's do something 
that this committee is designed to do.
    It is a group that has had referred to it several campaign 
finance reform proposals, including one of my own that would, 
in a large way, reform the way that we fund campaigns here and 
give back integrity to the system and encourage people to once 
again be involved as voters and as candidates, with the sense 
that they own their campaign system and that they can move 
forward here with some confidence, that what we do here is in 
fact their business and not the business of hard money or soft 
money contributors to either campaign or either party.
    We can do that. We should do that. We can certainly use the 
taxpayers' money better by having a simultaneous track in this 
House of campaign finance reform considerations while the 
Senate is going, either with our help or on its own, to do the 
rest of the work in terms of the investigation.
    That is what we can do. That is what we should be doing.
    And I will yield to my colleague here if he wants to make a 
point that we were discussing earlier about the fact that what 
we are really looking at here is some 30 checks that may be 
questionable--out of how many?
    Mr. Fattah. I think I just wanted to add to the record 
that, as I understand it now, there are over 2.7 million 
individual contributors and, therefore, checks to the DNC in 
the election cycle; and some 130 of them are the subject matter 
of the refunded dollars and the questionable contributions. And 
that is not to minimize anything, any illegality that may have 
taken place, but to put in context some of the more outrageous 
suggestions about the lack of controls and so on.
    You know, the vast majority of checks that were raised and 
processed through the DNC were correct and appropriate 
contributions; and what we are really talking about is 
something less than 2 percent of all of the contributions being 
in question.
    So as we go forward, I think we should root out whatever 
wrongdoing may have taken place on all sides, but we should 
also keep in context that for the most part this was an 
election run by the DNC in which, even with all of these 
complicated regulations and rules, they did their best to 
comply with.
    Thank you.
    Mr. Tierney. I yield back the balance of my time.
    Mr. Shadegg. The gentleman yields back the balance of his 
time.
    The Chair recognizes the gentleman from New Hampshire, Mr. 
Sununu.
    Mr. Sununu. Thank you, Mr. Chairman. Let me begin with two 
brief points. One is in response to the notion that somehow 
this committee is not uncovering anything new. We can cut right 
to the chase.
    The three witnesses who we are going to hear from this week 
were not contacted by the Senate. They were not contacted by 
DOJ. They have not testified before the Senate committee. Their 
testimony will be new. Their information that they will have to 
offer us is important. And there are many other revelations, I 
think, that will come out of this committee. But the fact is, 
we are getting right to new and important information 
immediately in this hearing.
    The second point I would like to make, and I will emphasize 
it later in my remarks, is to counter the assertion that has 
been made repeatedly today--and it is fundamentally flawed--and 
that assertion is that somehow a loophole is an invitation to 
violating the law. Nothing could be further from the truth.
    A loophole, however objectionable we may find it, is simply 
an invitation to take advantage of a loophole. A loophole is 
not an invitation to accept illegal conduit payments. It is not 
an invitation to accept illegal contributions from a foreign 
citizen. A loophole itself is not an invitation to violate the 
law; and to suggest that it is, in some way, shape or form, is 
to misunderstand the nature of our law and our obligation to 
obey those laws.
    Mr. Chairman, today's hearing marks the beginning of the 
public phase of what has been a long and difficult 
investigative process. Our committee is challenged with the 
formidable task of shedding light on a series of campaign 
finance abuses. This effort is made even more difficult by two 
significant factors: one, the complex nature of political 
campaigns, especially those that are national in scope; and 
second, the degree to which this committee has been obstructed 
in its investigation.
    During the past year, the public has heard testimony 
detailing illegal fund-raising events on church property, 
illegal campaign contributions made through false donors, 
illegal contributions made by noncitizens and illegal 
laundering of union funds for political campaigns.
    These events are not alleged. This information is not 
hearsay. Testimony includes many eyewitness accounts. Campaign 
committees have returned illegal funds and fund-raisers have 
pled guilty to felony charges. The breadth and scope of these 
abuses are unprecedented since the implementation of Watergate-
era campaign reforms.
    Those who suggest the system made them do it are all too 
willing to ignore the fundamental legal and moral obligation we 
have to obey the law. Those who claim that changing campaign 
rules would address all of our concerns fail to understand the 
difference between using rules to one's advantage and violating 
Federal law.
    Are we to believe that if Congress fails to change the 
rules this year, then the DNC and its fund-raisers will be 
forced to continue to violate the law? Of course not. A 
campaign that is willing to accept illegal soft dollar 
contributions will be equally willing to accept illegal hard 
dollar contributions.
    It is time for those that have violated the law to begin 
taking responsibility for their actions. Those in positions of 
responsibility must take responsibility for providing answers 
to these critical and lingering questions.
    First, was there a planned effort to systematically violate 
campaign finance law? A single illegal contribution would be 
scant evidence of such a pattern. $50,000 or $100,000 in 
illegal contributions might raise concerns. To date, the 
Democratic National Committee has returned more than $2.8 
million in improper contributions.
    Second, did senior campaign officials know of or condone 
illegal fund-raising? During these past several months, echoes 
of denial, ``I don't specifically recall,'' and ``it wasn't our 
intent,'' are deafening. Moreover, these claims stretch the 
limits of credibility.
    And finally, did any foreign government plan to improperly 
influence America's political system through an illegal fund-
raising network, and was such a plan carried out?
    Unfortunately, the work of this committee continues to be 
hindered by an unprecedented effort to avoid responsibility. 
Over 60 witnesses to these events have refused to tell Congress 
what they know. Twenty-two individuals have fled the country 
entirely or have gone into hiding. These are not the actions of 
innocent victims. They are the actions of conspirators with 
something to conceal.
    The committee has been further obstructed by delays in 
receiving critical documentation from the Democratic National 
Committee and the White House. Repeated refusals to properly 
comply with committee subpoenas only suggest the existence of 
more damaging evidence. This week's production of White House 
fund-raising videotapes 3 months after subpoenas were issued 
only highlights the egregious nature of these obstructions.
    In the end, these tactics only serve to make us more 
determined in our effort to conduct a thorough and honest 
investigation of these matters.
    This is not a hearing about personalities, as some 
undoubtedly will charge. It is a hearing about securing answers 
to troubling questions surrounding the 1996 Presidential 
campaign, which, to date, have received only vague and 
inadequate answers.
    The long-term health of our Government is dependent on the 
ability of Americans to freely and fairly express their will 
through the election of our representatives. Illegal campaign 
fund-raising undermines the credibility of the election process 
and of Government itself.
    I look forward to hearing the testimony offered before this 
committee and I certainly hope we can carry out our duty in a 
professional manner for the good of the American people.
    I thank you, Mr. Chairman, and I yield back the balance of 
my time.
    Mr. Shadegg. The gentleman yields back the balance of his 
time.
    The Chair recognizes the gentleman from Texas, Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. These past few days 
have not done much to inspire confidence in any branch of our 
Government. The White House has engaged in inexcusable delays 
in turning over relevant evidence to the Congress. The Senate 
has killed bipartisan campaign finance reform with procedural 
devices, and meanwhile, the House of Representatives has not 
even considered a reform bill.
    Is it any wonder that people have lost confidence in our 
Government? They are discouraged not only by periodic scandals, 
but by the day-to-day abuses committed in the unending quest 
for campaign cash. They are further discouraged by politicians 
who seem unwilling to reform a system that is clearly out of 
control.
    Every day it seems the cynicism grows, eroding the trust 
upon which our system of Government depends. Democracy cannot 
survive without the trust and confidence of the people.
    We have an opportunity to regain some of that confidence 
today as these hearings begin, if we are willing to proceed in 
a fair and bipartisan manner. Tomorrow, we are going to hear 
from witnesses who have admitted to making illegal 
contributions to the Democratic National Committee. Every 
Democrat on this committee will join me in saying that this 
illegal behavior is wrong and that it cannot be tolerated.
    We need to find out who was behind these illegal practices, 
how widespread they are and how we can prevent them in the 
future. At the same time, I would hope that every Republican on 
this committee would join in admitting that this practice is by 
no means confined to the Democratic party and that there are 
problems with our campaign finance system that go beyond the 
criminal actions of these witnesses.
    We need to remember that we are not here on behalf of the 
Republican or the Democratic party. We are here on behalf of 
the people who sent us here. We are here on behalf of the 
people who pay our salaries, and we are here on behalf of the 
people who are paying for this investigation.
    The American people want to find the facts. They want to 
know who is behind the illegal and improper fund-raising 
practices that plagued the last campaign, and they want to know 
what we are going to do to prevent future abuses and to reduce 
the influence of big money on our democratic process.
    I join with Members from both parties in seeking 
comprehensive reform of our campaign finance system. I have 
worked with the Blue Dog Coalition and the bipartisan freshman 
task force on bills that would ban soft money, require more 
disclosure and address the other loopholes and abuses that 
exist under current law.
    Just yesterday, I and other members of the Blue Dog 
Coalition filed a modified open rule to bring all of the major 
reform proposals--Republican, Democratic and bipartisan--to the 
floor of the House for an up-or-down vote. Next week, we will 
be seeking signatures on a discharge petition to bring this 
rule to the floor, and I invite everyone on this committee to 
join in that effort.
    These hearings, like the ongoing hearings in the Senate, 
will make two things clear: Campaign finance laws were broken 
and the campaign finance system is broken. We should all be 
ready to address both of these problems in an aggressive and 
bipartisan way. That is our job.
    Mr. Chairman, I am hopeful that the work of this committee 
will be productive and that our singular goal will be to devise 
a campaign finance system that preserves and protects our 
Nation's grand experiment in representative democracy.
    Thank you, Mr. Chairman.
    Mr. Shadegg. The gentleman yields back the balance of his 
time.
    [The prepared statement of Hon. Jim Turner follows:]
    [GRAPHIC] [TIFF OMITTED] 44527.356
    
    [GRAPHIC] [TIFF OMITTED] 44527.357
    
    [GRAPHIC] [TIFF OMITTED] 44527.358
    
    Mr. Shadegg. The Chair recognizes the gentleman from New 
Jersey, Mr. Pappas.
    Mr. Pappas. Thank you, Mr. Chairman. We in the Congress 
have a sacred responsibility to the American people. The 
Government Reform and Oversight Committee is investigating 
alleged improprieties, and several of us have said we will 
pursue this investigation wherever it may lead.
    Our democracy was founded on a system of checks and 
balances, and we are in a situation where we need to check into 
potential abuses of the campaign finance system. The 
investigation is simply our responsibility as laid out under 
the Rules of the House. Indeed, as the name of this committee 
states, we have a responsibility to oversee the executive 
branch.
    At the heart of this investigation lies a central question: 
Did illegal foreign contributions corrupt Government policies? 
To answer this question, the actions of a complex web of 
Government agencies, administration officials and campaign 
aides must be untangled.
    As a member of the House National Security Committee, the 
notion that foreign donors might have tried to subvert the 
American political process to carry out their own agenda 
greatly disturbs me. The consequences and the potential impact 
that foreign influence could have upon our national security is 
staggering.
    I hope that we can all join together in a bipartisan manner 
to find out the consequences of this alleged foreign influence.
    There are a wide range of issues to be explored in this 
investigation, and we must pursue them in a neutral and 
nonpartisan manner as best we can. Justice wears a blindfold as 
a symbol of impartiality, and so too must this committee 
throughout the course of this investigation.
    Thus far, we have issued subpoenas, conducted depositions 
and reviewed documents. I now look forward to hearing the 
testimony of the witnesses with the hope that what we learn 
during the course of this investigation will help us to fix our 
current system of campaign financing.
    Thank you and I yield back.
    Mr. Shadegg. The gentlemen yields back the balance of his 
time.
    The committee will recess subject to the call of the Chair.
    [Recess.]
    Mr. Sessions [presiding]. The committee will come to order. 
I am glad to have the opportunity today to speak before this 
committee and the American people on the issue of illegal 
campaign fund-raising.
    I want to repeat that. The topic of these hearings is 
illegal campaign fund-raising. It is illegal for Federal 
candidates to receive contributions from foreign donors. It is 
illegal to funnel donations through straw donors. It is illegal 
to solicit contributions on Federal property. It is illegal for 
a Federal candidate to coordinate the spending of soft money 
contributions. These are the issues which this committee is 
reviewing.
    We are trying to determine whether the White House, the 
Democratic National Committee, the President, the Vice 
President or others may have broken the law. What confuses me 
is the attention that is currently being given to campaign 
reform initiatives that do not address the rampant rogue 
behavior in which this administration has engaged. Nothing in 
legislation before the Congress would have prevented the 
illegalities we are investigating today. This is because the 
individuals we are investigating have blatantly and 
consistently ignored the law. So I ask members of this 
committee and the American people to have patience as we sit 
through this enormous amount of information that is coming to 
light in this slow, methodical manner. Once we have determined 
how the laws were broken, and only then, will we be able to fix 
the law.
    The slow release of information to this committee is the 
result of a concerted effort by the White House and the 
Democrat National Committee to delay the investigation. The 
White House and the Democrat National Committee have resisted 
our requests for cooperation and have snubbed our legitimate 
subpoenas, which, of course, is a slap in the face of Congress. 
Unfortunately, we have come to expect this from the White 
House.
    I witnessed the repeated resistance from the White House to 
previous attempts by this committee to get information. What I 
did not expect was the complicity exemplified by my colleagues 
on the other side of the aisle to the stonewalling of this 
administration. When the Congress seeks information, the 
American people are seeking that information, and any attempt 
to stifle the Congress is an attempt to shut out the American 
people.
    I hope as we hear the depths of corruption that this 
committee has uncovered, that we will see a renewed call from 
the minority of this committee to pursue the information 
further. However, even without that cooperation, I have 
confidence that our chairman, Chairman Burton, and his staff, 
who I find to be among the most professional of professionals 
in the House of Representatives today, will get that done for 
the American people.
    I hope that as we pursue this investigation, that we can 
continue to begin the process not only of uncovering the 
violations of the law, but also how we are going to attempt 
very carefully to ensure that the American people understand 
this so that we can avoid this in the future.
    That is the end of my statement. Thank you.
    The gentleman from Tennessee, Mr. Ford, is recognized for 
his opening statement.
    [The prepared statement of Hon. Pete Sessions follows:]
    [GRAPHIC] [TIFF OMITTED] 44527.359
    
    [GRAPHIC] [TIFF OMITTED] 44527.360
    
    Mr. Ford. Thank you, Mr. Chairman. Mr. Sessions, as a 
fellow freshman colleague, it is good to see you sitting in the 
chairman's chair, even if it is for a short period of time.
    Several months ago I was back home in my home district of 
Memphis, TN, for a district work period, and as usual found 
myself watching C-SPAN late one evening. I confess I had a very 
light evening schedule, Mr. Chairman. Although I do not 
remember exactly what conference, convention, speech or forum 
was being rebroadcast, I clearly remember the story the Speaker 
was telling the audience, and because I believe that it 
captures the situation confronting this committee and even this 
Congress as a whole, I want to share it briefly with you today.
    During the middle of the summer, two men met in a small 
town in Arizona and discovered that they were both traveling to 
the same place. One of the men has a horse, and the other has 
directions to their destination. But because each man has 
something that the other needs, they agree to embark together 
upon a journey to their mutual destination, one man supplying 
the horse, the other the directions.
    For several days they ride together, until one afternoon it 
becomes so hot that they decide to stop riding until the sun 
goes down. After dismounting, the man who owns the horse 
proceeds to sit down in a small patch of shade created by the 
horse. Unwilling to sit in the sun, the other man tries to 
convince his traveling companion that he should get to sit in 
the shady spot, and what ensues is a heated argument between 
the two men over who has the right to sit in the shade.
    The man who owns the horse says he is deserving, because, 
after all, it is his horse. The other man counters that the 
directions are as important as the horse, so he, too, should 
get to sit in the shade. As the argument over the shade grows 
more contentious, the horse gallops away, leaving both men 
standing with the sun beating down on them.
    According to our C-SPAN guest, the lesson of this story is 
not to get caught up too long in arguing over shadows, because 
you risk losing what really matters, the substance. When I 
think about this proverb of sorts in the context of our 
committee's investigation and the Congress as a whole, I can 
come to only one conclusion: Campaign finance reform is the 
substance.
    By that I do not mean to imply that we should not devote 
resources and energy to investigating fully and fairly whether 
laws were broken during the last election cycle. Rather, my 
point is only that as we must not lose sight of what really 
matters in the end.
    Tomorrow, I anticipate that three witnesses will come 
before this committee and testify that they were used as 
conduits for contributions to the Democratic National 
Committee, which, if proven true, would constitute a violation 
of laws. Indeed, if it is true, I am deeply troubled by the 
fact and would like to know not only why and how it happened, 
but how we can prevent it from occurring again.
    Notwithstanding all of the assertions and claims to the 
contrary, what I do not see is evidence that this violation of 
the law was part of a master plan orchestrated by the 
Democratic National Committee to funnel overseas money to the 
Democratic party.
    Moreover, it seems to me that if the majority party and 
members of this committee were concerned about the potential 
impact of foreign or inappropriate contributions to our 
political system, then during the last 8 months the committee 
would have expanded its investigation or at least acknowledged 
that large sums of foreign money have been funneled into the 
Republican party since 1992 from sources inside and outside of 
Asia, including Germany, Japan and even Korea. Yet we have 
heard nothing about these contributions.
    In fact, if I were sitting at home watching this 
committee's activities thus far, I might actually believe that 
all of the allegations raised by the Republican Congress 
represent the first instance in which there had been 
accusations that foreign or inappropriate money was contributed 
to a political party. In addition, I might also believe that 
Messrs. Huang and Trie are the only two people that have ever 
been accused of using conduits to donate money to our political 
parties.
    But the facts are quite different. As recently as July 
1997, Thomas Cramer, a German national, was fined over $300,000 
by the FEC for making illegal campaign contributions, almost 
all of them to the Republican party. The former co-chair, 
finance co-chair, of the Dole-Kemp 1996 campaign, pled, in what 
I believe was the largest settlement that the FEC was able to 
negotiate, I believe some $5 million to $6 million, Mr. 
Chairman, for using conduits to make contributions to the Dole-
Kemp campaign.
    According to the records from the FEC, they are currently 
investigating 27 conduit payment cases involving 214 
respondents, and in the past several years have closed over 21 
cases involving over 108 respondents. We must recognize, 
therefore, Mr. Chairman, that the whole system must be fixed.
    In closing, let me say that I want to get to the truth 
about campaign contributions during the last election cycle, 
regardless of where they may lead this committee, regardless of 
what party may be involved. However, I also want to expose and 
correct the fundamental flaws in our campaign financing system 
that have helped to give rise to many of the problems we are 
confronting today.
    I would hope, Mr. Chairman, and other members of this 
committee, that we would use this opportunity not only to talk 
about the shadow, to argue over the shadow, but also to 
confront the substance.
    With that, I yield back the balance of my time.
    [The prepared statement of Hon. Harold E. Ford, Jr., 
follows:]
[GRAPHIC] [TIFF OMITTED] 44527.361

[GRAPHIC] [TIFF OMITTED] 44527.362

    Mr. Burton [presiding]. The gentleman yields back the 
balance of his time.
    Mr. Snowbarger.
    Mr. Snowbarger. Thank you, Mr. Chairman.
    Mr. Chairman, as could be expected, the minority would like 
to talk about anything during these hearings except the many 
possible illegal activities of the Democratic National 
Committee, the President's re-election campaign, and the White 
House.
    But these hearings are not and should not be about campaign 
finance reform. These hearings are about the abuse of power. 
The President and Vice President of the United States are 
accused both in this Congress and on the editorial pages of 
newspapers across the Nation of breaking the law and hiding 
facts from the American people. These accusations command this 
committee's attention.
    Soon after last year's election, President Clinton returned 
to Washington to face tough questions about his campaign's very 
aggressive fund-raising effort. The President told the American 
people that the illegal money that was returned by the 
Democratic National Committee was not connected with his 
campaign. If you will please turn your attention to the 
monitors.
    [Videotape presentation.]
    [Note.--The videotape can be found in committee files.]
    Mr. Snowbarger. Does anyone want to take up this defense 
today? The President seems to be saying that someone else is 
responsible for those illegal contributions totaling more than 
$3.5 million. But this does not square with the evidence 
provided to the committee by the White House.
    Again, please refer to the monitors.
    In this April 17th memo from the President's chief White 
House fund-raiser, Harold Ickes, to DNC Chairman Don Fowler, 
the true chain of command is laid out. The memo is very clear: 
Every allocation of money at the DNC must first be approved by 
the President's White House team.
    The truth is that the President was involved in nearly 
every aspect of campaign operations, from the drafting of 
direct mail fund-raising letters to routine budget issues. The 
President was kept informed of goals, projections, and changes 
in the DNC-Clinton-Gore fund-raising strategy.
    Even the administration's staunchest defenders cannot deny 
that the President knew in advance of the election that the 
campaign plan that his team designed violated the law in many 
ways. In fact, as this last exhibit on the monitor shows, they 
fully expected they would set a new standard for illegality in 
a Presidential campaign. They budgeted for it. The President's 
chief political aide told him the campaign would likely be hit 
with more than $1 million in fines. That is more than five 
times the largest fine ever imposed on a Presidential campaign 
to that point. Mr. Ickes knew this, Mr. Fowler knew this, and 
so did the President. They decided to gamble everything on 
victory in November and sort out the legal defense later. The 
end, they believed, justified the means.
    Throughout the many months leading up to these hearings, 
the administration has developed a highly refined series of 
explanations for every charge made, and as far as I can tell, 
there are five steps to this series. No. 1, we didn't do it; 
No. 2, we did it, but we didn't mean to; No. 3, all right, we 
meant to, but it is not against the law; No. 4, well, all 
right, it seems to be against the law, but the law doesn't mean 
what it plainly says; and, finally, No. 5, OK, we did it, we 
meant to, it is against the law, the law was clear, but, you 
see, everyone does it.
    This is something new and disturbing in our political 
system. It is not uncommon for those accused of a crime to deny 
it. That is why we have juries. But what does it do to our 
system of justice, to say nothing of our democratic political 
process, when the accused displays contempt for the law, when 
they plead innocent by reason of collective guilt? It is a sad 
fact that this administration's defense of last resort is that 
the more the law is broken, the less significant the law is, 
and, therefore, the less respect it deserves. Their case rests 
not on the truth, but on their ability to convince the American 
people that they cannot trust anyone.
    Rather than lay the facts on the table, they gleefully trot 
out the latest poll showing that Americans have grown even more 
cynical about all public officials, and they pronounce the 
public singularly uninterested in these events.
    Mr. Chairman, whatever the administration would like the 
American people to believe, when it comes to shady campaign 
practices, not everyone does it. To my knowledge, no member of 
this committee does it. We don't accept illegal contributions 
from churches, we don't launder contributions through dummy 
corporations and impoverished nuns, we don't rent our offices 
to the highest bidder, we don't take money from foreign 
governments, we don't dial for dollars from our Federal 
offices, we don't move money illegally from one campaign 
account to another, and none of our campaign workers are hiding 
out in Communist China to avoid subpoenas. We don't all do it, 
Mr. Chairman, and to suggest that we do is not only unfair to 
those of us who play by the rules, it is insulting to those who 
place their trust in us and demeaning to the entire concept of 
representative self-government.
    I yield back the balance of my time.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    The gentleman from Maine, Mr. Allen, is recognized.
    Mr. Allen. Thank you, Mr. Chairman.
    Mr. Chairman, we are finally here. After millions of 
dollars, hundreds of thousands of documents produced, months of 
wrangling over due process issues, and weeks of depositions, 
the House hearings are about to begin.
    The questions hang over these hearings. The media may ask, 
will we learn anything new? Maybe, maybe not. But in my 
opinion, there are more important questions that cloud this 
process. Two in particular go to the heart of this 
investigation and its role in protecting and improving our 
democracy.
    First, is this committee serious or just playing an 
elaborate game of gotcha on national TV? Second, are the 
members of this committee as committed to reform as we are to 
oversight? Or are these hearings just an excuse for inaction on 
campaign finance reform?
    With respect to the first question, there are ways to judge 
seriousness. We need, and the American people deserve, a full, 
fair and even handed investigation into the 1996 elections. If 
we rerun the Senate investigation, we are not serious. If we 
declaim loudly over minor infractions, we are not serious.
    Early in this session this committee had the opportunity 
and the obligation to examine campaign abuses that may have 
occurred in recent Federal election campaigns, both 
Presidential and congressional, Republican and Democrat. But 
here we are hearing our first witnesses with 1 month left 
before we adjourn for the year. This committee has spent almost 
$3 million. Chairman Burton has issued 127 subpoenas that 
Senator Thompson has also subpoenaed. The committee staff have 
deposed 21 individuals who were previously deposed, interviewed 
or subpoenaed by the Senate committee.
    What should we do? Read the Senate transcripts? Read the 
testimony? Read the Senate depositions that were delivered to 
majority staff of this committee, but not to the minority?
    The Thompson hearings are at the stage of almost winding 
down. We could be more productive if we concentrated on 
reforming our political finance system instead of plowing old 
ground with this investigation.
    I have been holding community meetings in my district 
recently, and the subject of campaign finance reform always 
comes up. Last week in a meeting in south Portland, one 
constituent said, when my wife and I read about contributions 
of thousands of dollars, it makes what little we have given to 
candidates over the years seem like bubble gum. He added, we 
don't want to do it anymore.
    Soft money contributions to the national parties are 
undermining this democracy, not just because the very wealthy 
get access denied to the many. It is also true that soft money, 
big money, diminishes the role of every voter, every small 
contributor, and every volunteer. Participation in politics is 
the lifeblood of this democracy. Big money is turning 
participants into spectators, grassroot workers into TV ad 
watchers. It is not a healthy trend.
    One of my constituents gave me $20 for my campaign last 
year. He wrote in his letter urging me when I got to 
Washington, not to forget the people from the grassroots who 
sent me here. What place remains for him in a system so 
addicted to big money?
    We can't create the perfect system, but we can make this 
one better. Our Bipartisan Freshman Task Force developed a 
campaign finance reform proposal. It is a good bill. If it had 
been in place before the 1996 elections, we would not be here 
at this hearing today.
    I cannot help but believe that this committee, that the 
public would be better off and we would have done a better job 
discharging our duties, if we spent more time on campaign 
finance reform than we do with this hearing today. The time has 
come to legislate, not to continue an investigation that seems 
futile and duplicative. The American people deserve that. The 
state of our political system demands it. Yet the Republican 
leadership in the Senate yesterday killed campaign finance 
reform.
    We had another and better option at the beginning of this 
process. This committee could have undertaken a bipartisan 
comprehensive investigation of the 1996 campaign. We could have 
productively educated the American public in a timely manner. 
That did not happen.
    Sadly, I have come to believe that the primary function of 
this investigation is to provide the majority with an excuse 
for inaction on campaign finance reform. That is not a good 
reason for the hearings we begin today. We should legislate, 
not just investigate.
    I hope, I still hope, that these hearings will reveal new 
information that will get to the heart of the abuses in the 
1996 campaign. But I fear that the price we pay for these 
hearings is inaction on campaign finance reform. The Speaker 
has said he wants to delay any action until after these 
hearings are concluded. It is not clear to me when that would 
be.
    We should have done better, and I believe we still could.
    Thank you, Mr. Chairman.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    Mr. Barr of Georgia.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Chairman, when this committee began to prepare for 
these hearings many months ago, I had high expectations that it 
would expeditiously and comprehensively reveal the details 
behind the many concerns raised over the apparent abuse of 
Government information, resources and personnel to fuel the re-
election effort of a sitting President and Vice President of 
the United States.
    Although the scale of abuse appeared unprecedented from day 
1, Mr. Chairman, I was confident that this committee's historic 
charter to keep the executive branch accountable to the people, 
combined with your personal dedication to the task, would 
ensure a successful investigation. But notwithstanding your 
best efforts, Mr. Chairman, I am not as sanguine today as I was 
back then, for the events that have unfolded during the course 
of preliminaries leading to this hearing have raised a question 
that simply cannot be answered even by this committee.
    From the very beginning of this investigative effort, we 
have witnessed an unrelentingly orchestrated attempt by some on 
the other side of the aisle to change the subject from past 
wrongs to so-called future reforms. Like the youngster who 
murders his parents only to throw himself at the mercy of the 
court as a poor orphan, we have had a steady drumbeat to change 
the subject from the world of past violations to the world of 
future improvements.
    The constant campaign to change the subject has been 
insidiously assisted by a concerted effort by the highest 
officials in the executive branch to obstruct, to obfuscate, to 
dissemble, and to delay interminably the production of 
documentary evidence subpoenaed by this committee. The most 
recent revelations that tapes existed of White House fund-
raising activities that miraculously escaped notice for months 
of pending subpoenas from this committee is only the most 
recent indication that the official process by which we govern 
ourselves in this republic has been made a complete mockery by 
this administration.
    We read a letter, more accurately, Mr. Chairman, that might 
be described as a defense brief, authored by the Attorney 
General of the United States, stating that selling access to 
the highest offices in the land is OK. Mr. Chairman, with that 
attitude prevailing at the other end of Pennsylvania Avenue, I 
suppose it should come as no surprise that we are having to 
deal constantly with delays and obstruction from the other side 
in this committee.
    Mr. Chairman, as we open what should be among the most 
important series of hearings ever conducted in this body, let 
me make three brief observations. One, a refusal to comply with 
congressional subpoenas has nothing to do with campaign finance 
reform. It has everything to do with illegality. Two, an abuse 
of public office through its sale to foreign interests has 
nothing to do with campaign finance reform. It has everything 
to do with illegality. Three, obstruction of justice by 
impeding government investigations has nothing to do with 
campaign finance reform. It has everything to do with 
illegality.
    Mr. Chairman, let us be mindful of what history teaches us 
about such matters. Twenty-three years ago this past July, the 
House Judiciary Committee voted to recommend that President 
Nixon be impeached. In its three articles of impeachment, the 
committee charged the President with high crimes and 
misdemeanors, including obstruction of justice, abuse of 
office, and unlawful refusal to comply with congressional 
subpoenas.
    As we look over the past few years of executive branch 
misconduct, and especially over the last several months, from 
the unlawful firing of the White House travel staff to make way 
for political cronies to the securing without any lawful 
authority the confidential files of the FBI of those persons 
considered White House enemies, to the phone calls from 
Government offices for hard money campaign donations, to the 
raising of funds from illegal foreign sources, and now to 
obstruction, we are struck by the sorry state to which our 
executive branch has fallen.
    The people of this republic depend for their common welfare 
and defense on an individual elected to the highest office in 
the land who is sworn to take care that the laws be faithfully 
executed. Mr. Chairman, that question, the question that 
America asks, is where is that person?
    Thank you, Mr. Chairman.
    Mr. Burton. I thank the gentleman.
    The gentleman yields back the balance of his time.
    We will stand adjourned until tomorrow morning at 10 
o'clock.
    [Whereupon, at 5 p.m., the committee was adjourned.]

                                   - 


     CAMPAIGN FINANCE IMPROPRIETIES AND POSSIBLE VIOLATIONS OF LAW

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM
                             AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               ----------                              

                            OCTOBER 8, 1997

                               ----------                              

                           Serial No. 105-50

                               ----------                              

Printed for the use of the Committee on Government Reform and Oversight

     CAMPAIGN FINANCE IMPROPRIETIES AND POSSIBLE VIOLATIONS OF LAW

     CAMPAIGN FINANCE IMPROPRIETIES AND POSSIBLE VIOLATIONS OF LAW

     CAMPAIGN FINANCE IMPROPRIETIES AND POSSIBLE VIOLATIONS OF LAW

     CAMPAIGN FINANCE IMPROPRIETIES AND POSSIBLE VIOLATIONS OF LAW

     CAMPAIGN FINANCE IMPROPRIETIES AND POSSIBLE VIOLATIONS OF LAW

     CAMPAIGN FINANCE IMPROPRIETIES AND POSSIBLE VIOLATIONS OF LAW

</pre></body></html>
